<html>
<title> - EXAMINING TRAINING REQUIREMENTS OF VETERANS BENEFITS ADMINISTRATION CLAIMS PROCESSING PERSONNEL</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
                    EXAMINING TRAINING REQUIREMENTS
                  OF VETERANS BENEFITS ADMINISTRATION
                      CLAIMS PROCESSING PERSONNEL

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 16, 2010

                               __________

                           Serial No. 111-98

                               __________

       Printed for the use of the Committee on Veterans' Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
61-756                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1077607f507365636478757c603e737f7d3e">[email&#160;protected]</a>  

                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JOHN J. HALL, New York, Chairman

DEBORAH L. HALVORSON, Illinois       DOUG LAMBORN, Colorado, Ranking
JOE DONNELLY, Indiana                JEFF MILLER, Florida
CIRO D. RODRIGUEZ, Texas             BRIAN P. BILBRAY, California
ANN KIRKPATRICK, Arizona

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                           September 16, 2010

                                                                   Page
Examining Training Requirements of Veterans Benefits 
  Administration Claims Processing Personnel.....................     1

                           OPENING STATEMENTS

Chairman John J. Hall............................................     1
    Prepared statement of Chairman Hall..........................    33
Hon. Doug Lamborn, Ranking Republican Member.....................     3
    Prepared statement of Congressman Lamborn....................    34

                               WITNESSES

U.S. Government Accountability Office, Daniel Bertoni, Director, 
  Education, Workforce, and Income Security......................     4
    Prepared statement of Mr. Bertoni............................    35
U.S. Department of Veterans Affairs, Michael Cardarelli, Acting 
  Deputy Under Secretary for Benefits, Veterans Benefits 
  Administration.................................................    24
    Prepared statement of Mr. Cardarelli.........................    56

                                 ______

American Federation of Government Employees (AFL-CIO), Jimmy F. 
  Sims, Jr., Shop Steward, Local 1738, and AFGE National Veterans 
  Affairs Council, and Rating Veterans Service Representative, 
  Winston-Salem, NC, Regional Office, Veterans Benefits 
  Administration.................................................     9
    Prepared statement of Mr. Sims...............................    40
American Legion, Ian C. de Planque, Deputy Director, Veterans 
  Affairs and Rehabilitation Commission..........................    16
    Prepared statement of Mr. de Planque.........................    54
Disabled American Veterans, Jeffrey C. Hall, Assistant National 
  Legislative Director...........................................    11
    Prepared statement of Mr. Hall...............................    42
Institute for Defense Analyses (IDA), David E. Hunter, Ph.D., 
  Assistant Director, Cost Analysis and Research Division........    14
    Prepared statement of Dr. Hunter.............................    50
National Veterans Legal Services Program, Meg Bartley, Esq., 
  Senior Staff Attorney..........................................    13
    Prepared statement of Ms. Bartley............................    48

                       SUBMISSION FOR THE RECORD

Federal Bar Association, Carol Wild Scott, Chairman, Veterans Law 
  Section, statement.............................................    59

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:
      Hon. John J. Hall, Chairman, Subcommittee on Disability 
        Assistance and Memorial Affairs, Committee on Veterans' 
        Affairs, to Daniel Bertoni, Director, Education, 
        Workforce, and Income Security Issues, U.S. Government 
        Accountability Office, letter dated October 6, 2010, and 
        response letter dated October 28, 2010...................    62
      Hon. John J. Hall, Chairman, Subcommittee on Disability 
        Assistance and Memorial Affairs, Committee on Veterans' 
        Affairs, to Jimmy Sims, Jr., AFGE Local 1738 Shop 
        Steward, American Federation of Government Employees, 
        letter dated October 6, 2010, and AFGE responses.........    63
      Hon. John J. Hall, Chairman, Subcommittee on Disability 
        Assistance and Memorial Affairs, Committee on Veterans' 
        Affairs, to David E. Hunter, Ph.D., Assistant Director, 
        Cost Analysis and Research Division, Institute for 
        Defense Analyses, letter dated October 6, 2010, and Dr. 
        Hunter's responses, dated November 5, 2010...............    68
      Hon. John J. Hall, Chairman, Subcommittee on Disability 
        Assistance and Memorial Affairs, Committee on Veterans' 
        Affairs, to Michael Cardarelli, Acting Deputy Under 
        Secretary for Benefits, Veterans Benefits Administration, 
        U.S. Department of Veterans Affairs, letter dated October 
        6, 2010, and VA responses................................    71


                    EXAMINING TRAINING REQUIREMENTS
                  OF VETERANS BENEFITS ADMINISTRATION
                      CLAIMS PROCESSING PERSONNEL

                              ----------                              


                      THURSDAY, SEPTEMBER 16, 2010

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
Subcommittee on Disability Assistance and Memorial Affairs,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
Room 334, Cannon House Office Building, Hon. John Hall 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Hall, Donnelly, and Lamborn.
    Mr. Hall of New York. Good morning, ladies and gentlemen.
    Would everyone please rise for the Pledge of Allegiance.
    [Pledge was taken.]

               OPENING STATEMENT OF CHAIRMAN HALL

    Mr. Hall of New York. Thank you. I am very grateful that 
you have been able to join us today for our hearing entitled, 
``Examining Training Requirements of Veterans Benefits 
Administration Claims Processing Personnel.''
    I think it is indisputable that quality training for 
Veterans Benefit Administration (VBA) claims personnel is 
critical for the U.S. Department of Veterans Affairs (VA) to 
reach its goal of processing all claims within 125 days at a 98 
percent accuracy rate and in reaching its overarching goal of 
eliminating the backlog by 2015.
    As of 2009, VBA received more than one million compensation 
and pension (C&P) related claims annually. Over 200,000 of 
these claims take longer than 4 months for VBA staff to fully 
process, meaning that they are part of the backlog. Further, it 
is estimated that approximately 20 percent of the claims 
processed by VBA, as many as 200,000 are erroneous.
    Also, according to information provided by the Board of 
Veterans' Appeals in its annual report, 37 percent of all 
appeals that it receives are returned to the VBA due to 
avoidable errors. It should also be noted that the backlog 
itself continues to grow.
    In response, since 2007, Congress has appropriated more 
than $750 million for VA to hire more than 10,000 new VBA 
claims processors on an expedited hiring timetable. Recognizing 
that the backlog is not just a ``people'' issue and that brute 
force alone will not bring about transformation, Congress also 
passed the Veterans Benefits Improvement Act of 2008, Public 
Law 110-389, which included sweeping provisions to overhaul the 
claims processing system including efforts to improve the 
training of VBA claims personnel.
    Recently, VA expanded the training requirements for claims 
processing personnel. This is especially significant since 50 
percent of the VA staff is considered new--that is with 2 years 
or less of experience.
    Today veteran service representatives (VSRs) and ratings 
veteran service representatives (RVSRs) are required to 
complete 85 hours of instruction annually, a 5-hour increase 
over previous levels.
    VA has also reimplemented and revamped its certification 
testing program. I look forward to hearing more about that 
today.
    Congress also directed the U.S. Government Accountability 
Office (GAO) to examine VA's training program for claims 
processing personnel. GAO answered the call with two reports, 
one in 2008 and one in 2010, which both assessed VBA's training 
requirements and practices.
    From these reports, we found that VBA claims processors may 
be hindered from completing their training requirements in 
order to meet their work production goals.
    We also learned that VBA's training may not be sufficient 
to equip VBA claims processors with the skills needed to help 
them perform their duties.
    Moreover, the GAO indicates that significant improvements 
might be achieved by the VBA if it were to better monitor the 
claims process, particularly during the claims developmental 
stage, and employ appropriate training management and other 
tools to provide timely correction of staff processing errors.
    The Institute for Defense Analyses (IDA), based on its 
research, has also issued findings relating to VBA's claims 
processing related training, particularly as it pertains to 
variances in the ratings between different regional offices 
(ROs).
    I look forward to hearing from both the GAO and IDA on 
their findings.
    Our job in our oversight capacity here in Congress includes 
helping the VA to find solutions to these challenges that stand 
in the way of veterans receiving the benefits they are due.
    Today's hearing is designed to achieve this end by shining 
greater light on the efficacy of the training and certification 
of VBA claims processing personnel.
    I look forward to the testimony of the veterans services 
organizations and other stakeholders, many of whom for years 
have offered recommendations for improving the training of VBA 
claims processors, but with little avail.
    Finally, I look forward to hearing feedback from the Acting 
Deputy Under Secretary of Benefits on the critiques and 
recommendations from the earlier witnesses and to get an action 
plan for implementing and equipping VBA claims processing 
personnel with the skills needed for the VA to ``break the back 
of the backlog.''
    Again, I reiterate that I strongly believe VBA's focus 
should be on getting the claim right the first time, on 
quality, not predominantly on production. I am disappointed 
that the VA's recorded performance on training has not improved 
significantly and I expect to hear specifics from VA on how it 
will be significantly more effective in this area in the 
future.
    Veterans understand the necessity of proper training as 
they have placed their lives in harm's way dependent upon the 
training they and their brothers and sisters in arms received, 
so they understand the importance of the training the 
processors receive who decide their claims when they are 
veterans.
    Our mission today is to ensure that the VBA provides 
meaningful and appropriate training and devotes the resources 
that claims processing personnel need to perform their duties, 
so that our veterans, their families, and survivors receive the 
21st Century world-class service they deserve.
    [The prepared statement of Chairman Hall appears on p. 33.]
    Mr. Hall of New York. And I would now yield to Ranking 
Member Doug Lamborn for his opening statement.

             OPENING STATEMENT OF HON. DOUG LAMBORN

    Mr. Lamborn. Thank you, Mr. Chairman. Thank you, Mr. 
Chairman.
    Mr. Hall of New York. You are welcome.
    Mr. Lamborn. And welcome everyone to this hearing on 
Veterans Benefits Administration training programs.
    A quality training program is the key to any successful 
organization, particularly one like VBA that must adhere to a 
complex set of laws, regulations, and precedent decisions by 
the U.S. Court of Appeals for Veterans Claims.
    While these requirements pose a daunting challenge for 
trainers, I want to emphasize my strong desire to ensure that a 
comprehensive and substantive training program is employed at 
all levels of VBA. And I know that this perspective is shared 
by the Chairman, Representative Hall.
    Over the past several years, Republican Members have 
recommended substantial increases for training in our views and 
estimates. We realize the importance proper training and 
feedback have in production of quality rating decisions that 
are fair and equitable to our veterans.
    Throughout my tenure on this Committee, we have discussed a 
number of problems within VBA that my colleagues on both sides 
of the aisle and I recognize could be addressed through better 
training.
    VA training must be connected to its vision and mission and 
VA managers need to be assured that if employees are pulled off 
the floor for training, that it will result in long-term 
benefits. There must be clear support from the top down in 
order to conduct adequate training and acquire the expected 
outcomes.
    I look forward to hearing from our witnesses today. And I 
thank you all for your participation.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Congressman Lamborn appears on 
p. 34.]
    Mr. Hall of New York. Thank you, Mr. Lamborn.
    I would ask you all to please turn off your cell phones, 
and remind all panelists that your complete written statements 
have been made a part of the hearing record. Please limit your 
remarks so that we may have sufficient time to follow-up with 
questions once everyone has had the opportunity to provide 
their testimony.
    Our first panel features Daniel Bertoni, Director of 
Education, Workforce and Income Security with the Government 
Accountability Office.
    Mr. Bertoni, if you would join us at the witness table, 
please. You have 5 minutes, but your written statement is in 
the record, so feel free to improvise. You are now recognized 
for 5 minutes.

 STATEMENT OF DANIEL BERTONI, DIRECTOR, EDUCATION, WORKFORCE, 
   AND INCOME SECURITY, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Bertoni. Am I on? Mr. Chairman, Members of the 
Subcommittee, good morning. I am pleased to discuss training 
for Veterans Benefits Administration disability claims 
processors.
    For years, the claims process has been a subject of concern 
due to long waits for decisions, large numbers of pending 
claims, and problems with the accuracy and consistency of 
decisions.
    To help VBA manage increasing workloads, Congress has 
provided additional funding over the last several years which 
enabled the Agency to hire thousands of new staff. However, 
more staff alone will not guarantee success. A robust training 
program is needed to help new claims processors become fully 
proficient and seasoned staff to maintain their knowledge and 
skills over time.
    In 2008, we noted that VBA's centralized training program 
for new staff appeared well designed, but offered several 
recommendations for further enhancing management of the program 
in which the Agency concurred and has taken several actions.
    In April 2010, we again reported on VBA's management and 
oversight of its training, but in regard to more experienced 
staff.
    My remarks today will focus on experienced claims 
processors' views regarding training and VBA's efforts to 
monitor and assess that training.
    In summary, experienced staff had concerns about the amount 
of required training and their ability to meet those 
requirements. Our survey showed that 60 percent found it 
difficult to obtain 80 hours of annual training given their 
workloads. About 50 percent of the supervisors thought that 
only some or a few needed that amount to do their jobs 
effectively.
    Experienced staff also had mixed views on the training 
received on specific topics with an estimated 47 and 42 percent 
respectively noting that training was less than sufficient for 
appeals and remands and special monthly compensation.
    On the other hand, one-third reported receiving more than 
enough training in records management, rating claims, and 
calculating payments.
    Experienced staff in general found certain training modes 
more helpful than others with nearly all noting that on-the-job 
training best suited their needs. Only 20 percent viewed VBA's 
training performance support system, other online videos, or 
satellite training as very helpful.
    Moreover, an estimated 39 percent of respondents felt that 
the training they received in the last 12 months was delivered 
too late.
    In regard to program management and oversight, we found 
that the Agency delegated considerable authority for training 
staff to its 57 regional offices and could do more to monitor 
and assess training.
    For example, VBA did not use its Web-based Learning 
Management System (LMS) to monitor the regions, the specific 
types of training completed by individual staff in the regions, 
and could not ensure they received all required training.
    In fact, our survey analysis showed that 24 percent of 
staff who should have received mandatory training on spinal, 
neck, and joint injuries never did.
    In its comments to our report, VBA noted that it has begun 
to electronically track the percentage of staff at each office 
that are meeting annual training requirements.
    We also reported that the Agency lacked controls to ensure 
regional offices consistently define and record training. For 
example, some offices allowed staff to count the time spent 
reading Fast Letters as training while other offices did not. 
At a minimum, this raised serious concerns about the 
consistency and reliability of regional data.
    And per our recommendation, the Agency is now developing 
criteria as to what activities should and should not count 
toward the completion of annual training.
    And, finally, we reported that VBA had not systematically 
assessed the appropriateness and consistency of regional office 
training or collected feedback from experienced staff on the 
training delivered.
    We recommended that VA develop a strategy to assess the 
content, mode, and timing of such training. The Agency has 
developed such a strategy for national core technical training 
and is exploring the feasibility of applying it to non-core and 
locally developed regional training.
    In conclusion, veterans who have been injured in service to 
their country deserve timely, accurate, and consistent 
disability decisions. And claims processors play a vital role 
in responding to their needs. It is good news that the Agency 
has a number of initiatives either planned or underway to 
strengthen its training program and enhance service delivery.
    However, going forward, we will continue to monitor and 
assess its progress toward addressing our recommendations and 
ensuring that both new and experienced staff are properly 
supported in their efforts to serve the veteran community.
    Mr. Chairman, this concludes my statement. I am happy to 
answer any questions that you or other Members of the 
Subcommittee may have. Thank you.
    [The prepared statement of Mr. Bertoni appears on p. 35.]
    Mr. Hall of New York. Thank you, Mr. Bertoni.
    I will just recognize myself for a few questions and then 
the Ranking Member.
    In its 2008 report entitled, ``Increased Focus on 
Evaluation and Accountability Would Enhance Training and 
Performance Management for Claims Processors,'' the GAO found 
that individual VBA personnel staff members faced no 
consequences for failing to meet required training 
specifications.
    In your recent study, did you determine whether this issue 
has been remedied or is there still a problem with 
accountability?
    Mr. Bertoni. I do not believe there has been a specific 
policy change or at least at the time of our review, there was 
not a specific policy change in terms of accountability.
    At the tail end of our review in January of 2010, there was 
a Fast Letter issued that talked about the requirement that 
staff must now enter the fact that they have taken training 
into the LMS. There would be an electronic query to supervisors 
if that did not occur and some reference to either counseling 
or reprimanding or perhaps adjusting the individual's workload 
to make that training happen. But I do not know whether there 
is any linkage to, say, performance rating or anything else.
    Mr. Hall of New York. Comparing both the 2008 report with 
your most recent 2010 report, it appears that the quantity of 
training continues to pose a challenge for seasoned VBA claims 
staff. According to both studies, claims processors reported 
that the demands of their work production requirements often 
prevent them from receiving mandatory training.
    What has been the VA's response to this ongoing issue and 
what measures, if any, do you recommend to remedy this problem?
    Mr. Bertoni. I think up until very recently, the response 
has been we established this 80-hour requirement. We believe it 
is appropriate and we will continue to go that way.
    But more recently, I believe there has been some outreach 
and analysis to field staff and management to get a sense of 
whether this is appropriate and whether it is doable under 
current workloads.
    And there have been some adjustments not in terms of the 
ceiling but in terms of the curriculum. I think now they are 
more training to the intermediate and targeting journey levels. 
And I think that will go a long way towards making training 
more relevant and processors being able to find training that 
is relevant to their position.
    I think there is an acknowledgment also that the workload 
can distract from one's ability to do training. And I did see a 
reference that now seasoned claims processors who teach or are 
instructors can now apply up to 20 hours of that instructional 
time to their Central Processing Unit requirements.
    So I think short of changing the bar or lowering the bar, 
there has been substantive examination of the content. And I 
think that might alleviate some of the pressure in terms of 
their ability to make that 80-hour requirement.
    Mr. Hall of New York. Thank you, sir.
    It seems that VBA fails to tie the training requirements to 
its organizational goals for claims processing accuracy and 
timeliness or even transformation efforts.
    Can you provide us with any insight on how VA can close 
this disconnect, that is to correlate training with more 
accurate and quality claims processing outcomes?
    Mr. Bertoni. I think in the 2008 report, we actually did 
say that at least on paper in terms of design they were in 
accordance with what we call generally accepted practices in 
design of training programs in that there are goals for 
timeliness, accuracy, and consistency. And the training that is 
administered does get at those issues.
    What we were concerned about was how they were doing the 
training, was it appropriate, and how was it being evaluated so 
that they could make adjustments to the training to make it the 
best it could be and VA could more better target what they are 
doing in training towards ultimate end goals.
    And, yes, it appears that claims quality has gone down over 
the last couple years. And we are concerned about that also.
    Mr. Hall of New York. Regarding the quantity of training, 
your 2010 report contained an interesting survey in which 
experienced claims processors felt that they received too 
little training on some topics and too much on others. A full 
46 percent felt that they experienced problems completing the 
training.
    What has been the VA's reaction to the survey? Do you know 
of any steps that have been taken to address this issue?
    Mr. Bertoni. I do not know what they are doing specifically 
with the survey results. But one thing that did stand out to me 
was the statistic on appeals and remands. We appear to see a 
real need amongst staff that they want more appeals and remands 
training and also on the other side, we saw that they did not 
feel the appeals and remands training was as effective as it 
could be in helping them do their job.
    And then you look at problematic areas in the claims 
process that we do find a lot of issues with remanded cases. So 
I think that it would behoove the Agency to really look at that 
data and to look to what adjustments they might want to make in 
their training to address the issues around appeals and 
remands.
    Mr. Hall of New York. Thank you, Mr. Bertoni. I have more 
questions, which I will submit in writing to you.
    And now I will recognize Ranking Member Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And thanks for being here, Mr. Bertoni.
    Do you believe that 85 hours of training is an adequate 
requirement for all employees or should this be reduced or 
perhaps increased?
    Mr. Bertoni. Again, I do not know and we have asked on 
numerous occasions for the criteria or justification as to how 
the Agency arrived at that, whether there was any other benefit 
processing baseline that we could look to. We did not find 
that.
    So we really do not know the basis. I do know that in both 
of our reviews there is the concern about the ability to reach 
that bar. And, again, I think part of it comes down to what is 
being offered and whether it is relevant and substantive.
    I think for new claims processors, they will make that. The 
training in the first couple years is very intense. It is after 
you leave that environment of the challenge program where, I do 
not want to say folks forget about you, but I think the 
emphasis in the past has been, well, they are fine, you know, 
they will just get by on refresher training.
    I do not think that is the appropriate way to look at this. 
I think you really need to look at a vigorous and invigorated 
training program going forward for seasoned staff and it would 
benefit the Agency to do so.
    Mr. Lamborn. Okay. Thank you.
    And I know I might be overlapping some with previous 
questions and answers, but my last question is this. Could you 
tell us what you think the VA can do to ensure that the correct 
staff members are rewarded for exceptional performance and also 
how we can assure that proper feedback is given to the staff 
from their managers?
    Mr. Bertoni. I am glad you revisited that section of the 
2008 report. I was not quite sure if I was going to get 
questions on that? But I can weigh in on that.
    In 2008, we looked at the performance appraisal and 
management system. And in our view, we were concerned that 
although there were numerous categories to place people in 
various performance buckets, it appeared that as designed, the 
formula that was used, did not allow appropriate 
differentiation in performance.
    And because of the formula, you could have someone--they 
would rate folks on, I believe, critical and noncritical 
elements. And someone who scores outstanding in all critical 
elements would, of course, get an outstanding rating. However, 
if an individual rated less than outstanding in one of the 
critical elements, say that person got a fully successful, that 
would be enough to drop that person into the third category 
which would be fully successful, bypassing the next category of 
exceptional.
    So in this case, you would have a very high performer 
dropping into a bucket with some folks who perhaps were at the 
very bottom end of fully successful performance but would be 
rated the same.
    So we felt there was room for the Agency to look at their 
performance evaluation system, and determine whether they could 
better differentiate between our highest performers.
    Mr. Lamborn. Okay.
    Mr. Bertoni. And, again, that backs into training. If you 
know where your remedial needs are, you can design and target 
your training to staffs' individual needs. And perhaps 85 hours 
is not enough or is too much for some staff, but perhaps some 
staff will need more. So it is a way to target your training 
resources to people who need your help.
    Mr. Lamborn. Thanks for your answers and for being here 
today.
    I yield back.
    Mr. Hall of New York. Thank you, Mr. Lamborn.
    Mr. Bertoni, just another question or two. Did GAO explore 
the quality or adequacy of the training that the VBA 
instructors receive? Does VBA have a formalized program for 
training the trainers and are RO instructors required to 
complete it?
    Mr. Bertoni. We did not look at the train the trainer 
program per se. We looked generally at their program. Just in 
general, train the trainer programs make good sense. And also 
if you give trainers an incentive to step up by allowing them 
to apply what they are doing to their annual training hours, I 
think everybody benefits. The Agency benefits from knowledge 
transfer.
    These supposedly are your best people. They are 
knowledgeable. You have a vast number of new staff in the 
Agency who could benefit from that. And the Agency will 
benefit, I think, from good train the trainer programs. The 
individual benefits, of course, because as you train, you get 
better. You sharpen your skills and you also pick up a few 
credit hours towards your national requirement.
    We found it interesting that in our survey in 2010 that 
many experienced staff really viewed on-the-job training as the 
preferred mode. The question I have is, was that the default 
choice? If they could not turn internally to the established 
curriculum, were they turning towards peers and other on-the-
job tools to get what they need? I think that is a question 
that VBA has to really think about.
    Mr. Hall of New York. Well, thank you very much for your 
work and your testimony and for being here today, Mr. Bertoni, 
and you are now excused.
    Mr. Bertoni. Thank you.
    Mr. Hall of New York. Have a good day, sir.
    I will call our next panel, please, which includes Jimmy 
Sims, Jr., the RVSR and AFGE Local 1738 Steward, VBA Regional 
Office, Winston-Salem, North Carolina, American Federation of 
Government Employees (AFGE).
    Jeffrey C. Hall from New York, Assistant National 
Legislative Director, Disabled American Veterans (DAV), 
welcome, sir.
    Meg Bartley, Senior Staff Attorney, National Veterans Legal 
Services Program (NVLSP); Dr. David Hunter, Assistant Director, 
Cost Analysis and Research Division for the Institute for 
Defense Analyses; and Ian C. de Planque, Deputy Director of the 
National Veterans Affairs and Rehabilitation Commission of the 
America Legion.
    We are expecting votes to be called at any time. So what we 
will do is we will try to get as much testimony as we can 
before we have to recess for votes across the street. And then 
we will come back and have questions.
    Mr. Sims, your statement has been entered into the record. 
You are now recognized for 5 minutes.

   STATEMENTS OF JIMMY F. SIMS, JR., RATING VETERANS SERVICE 
 REPRESENTATIVE, WINSTON-SALEM, NC, REGIONAL OFFICE, VETERANS 
BENEFITS ADMINISTRATION, AND SHOP STEWARD, LOCAL 1738, AMERICAN 
FEDERATION OF GOVERNMENT EMPLOYEES (AFL-CIO), AND AFGE NATIONAL 
 VETERANS AFFAIRS COUNCIL; JEFFREY C. HALL, ASSISTANT NATIONAL 
LEGISLATIVE DIRECTOR, DISABLED AMERICAN VETERANS; MEG BARTLEY, 
 ESQ., SENIOR STAFF ATTORNEY, NATIONAL VETERANS LEGAL SERVICES 
   PROGRAM; DAVID E. HUNTER, PH.D., ASSISTANT DIRECTOR, COST 
ANALYSIS AND RESEARCH DIVISION, INSTITUTE FOR DEFENSE ANALYSES; 
 AND IAN C. DE PLANQUE, DEPUTY DIRECTOR, VETERANS AFFAIRS AND 
           REHABILITATION COMMISSION, AMERICAN LEGION

                STATEMENT OF JIMMY F. SIMS, JR.

    Mr. Sims. Thank you.
    I thank Chairman Hall, Ranking Member Lamborn. I would like 
to thank you for allowing me the opportunity to testify on 
behalf of the American Federation of Government Employees and 
the National VA Council.
    Training has a direct impact on the VBA's ability to 
process claims accurately and timely. Improving VBA's training 
program is of utmost importance given the increased number of 
new claims processors and projected increase over the next 
year.
    I would like to say at the outset that after many years of 
excluding the input of AFGE members on training and testing 
programs, we are beginning to see a change toward a more 
collaborative effort.
    I recently began working on a site team headed by the VBA's 
Employee Development and Training Director, Terence Meehan, 
which was commissioned to review the implementation and 
compliance with phase three challenge training. Hopefully this 
joint teamwork will not stop with challenge training and will 
also look at the training programs for senior employees.
    Why is VBA's mandatory annual training program deficient? 
First, too much of the training is self-directed. Employees are 
provided documents on the computer and expected to review, 
interpret, and apply this information with no assistance from 
subject matter experts.
    While computer-based training is an effective tool for 
providing training for a large audience, the computer-based 
training should not be the primary method of training. There 
must be more formal classroom training.
    Second, VBA is facing a lack of qualified trainers. Many of 
the employees placed in a training role have not had the 
benefit of formal instructor training.
    In my office, simply being promoted to a decision review 
officer or a super senior VSR automatically qualifies you as a 
trainer and you are thrust into the instructor role right away.
    There is no program in place to validate the retention of 
the newly learned material. Currently, VBA only tracks the 
quantity of training versus the quality of training.
    In addition, some topics identified in the mandatory 
training such as how to write a clear and concise rating 
decision are remedial training which is better focused on 
employees within the first year of training. This training time 
would be better spent on more complex concepts such as 
evaluating blast injuries or debilitating diseases.
    AFGE has also received reports by employees at other 
regional offices of management's pressure to spend much less 
time than officially allotted on training modules in an attempt 
to increase productivity.
    VBA allows regional offices to specify topics for 20 hours 
of the mandatory training. This practice has evolved into 
issues being identified during regular team meetings and 
management directing employees to take training time for these 
meetings.
    The GAO reported an average of 46 percent of employees 
indicated they would experience difficulty in completing this 
training. I would dare say this percentage is greatly under-
reported based on experiences in my regional office.
    Overall, employees report that the 85-hour requirement is 
hard to achieve when faced with the dilemma of adequately 
completing the training or meeting management's production 
requirements.
    The timing of training is also a problem. In my regional 
office, we have experienced delays in delivery of the training. 
We are still awaiting training directed by VBA on ischemic 
heart disease, which is a presumptive disability associated 
with the Agent Orange exposure.
    VA must begin to invest the time and energy necessary to 
meet the training needs of the employees. Otherwise, the Agency 
is doomed to fail in our mission.
    AFGE urges Congress to take the following actions:
    Establish a team of subject matter experts to include 
hands-on senior claims processors, AFGE, and veteran service 
officers to annually review the training programs and make 
recommendations for improvement; establish an effective 
monitoring system for tracking compliance with training to 
eliminate the incentives of managers who require employees to 
shortcut the training to meet production; develop clear 
guidelines on what should and should not be credited toward 
training requirements; to establish consistency across the 
regional offices; and, finally, VBA must start utilizing the 
national Systematic Technical Accuracy Review (STAR) quality 
review program to shape training around the areas where 
employees are making the most errors.
    Thank you for this opportunity to testify and I stand ready 
to answer any questions you may have.
    [The prepared statement of Mr. Sims appears on p. 40.]
    Mr. Hall of New York. Thank you, Mr. Sims.
    I am now going to call on the DAV witness, Jeffrey Hall, 
who was the National Service Officer Supervisor in the New York 
office for the last 6 years and has recently moved to DC.
    We are not related, but it is my pleasure to recognize you 
for 5 minutes of testimony.

                  STATEMENT OF JEFFREY C. HALL

    Mr. Jeffrey Hall. Thank you, Mr. Chairman. Good morning to 
you and Ranking Member Lamborn.
    It is indeed a pleasure to appear before this Subcommittee 
to discuss the training program and requirements for VBA claims 
processors and why training is so important in reforming the 
benefits claims process.
    Mr. Chairman, while the growing backlog of pending claims 
receives all the headlines, the backlog is actually not the 
problem. It is just one symptom of a much larger problem, a 
broken claims process.
    Rather than focusing only on breaking the back of the 
backlog of claims, VA must work to build a new claims process 
that is centered around the idea of getting it right the first 
time, which will require uncompromising emphasis on quality, 
accuracy, consistency, and training.
    Similar to VBA, DAV has an extensive training program for 
our National Service Officers (NSOs). And I would like to offer 
some insight as to the training that we provide versus that of 
VBA.
    VBA's training for new employees involves periods of 
orientation and classroom instruction followed by on-the-job 
training and increasing caseloads until they receive a full 
caseload which is approximately 2 years from their hire date.
    DAV's training program for new NSOs has a similar structure 
and format. However, we emphasize academic foundation by 
requiring college-level courses in anatomy and physiology, 
medical terminology, and legal research and writing.
    In addition to mandatory testing throughout their initial 
training, NSOs must pass a comprehensive Web-based examination 
for the entire 16-month training period.
    Beyond VBA's initial training, experienced VSRs and RVSRs 
are required to complete 85 hours of training annually. By 
comparison, DAV's structure and continued training program is 
required of all NSOs and managers.
    Training is separated into two separate 16-month training 
periods with monthly testing and aggregate testing at the 
conclusion of each period. All NSOs and managers are 
responsible for successfully completing the training and 
testing. Training and testing are ongoing and repeated every 3 
years for the duration of their careers.
    Upon successful completion of the entire training 
curriculum for the first time, NSOs earn 12 college credits 
from the American Council on Education. This is a major 
incentive to NSOs and one VBA may want to consider for its own 
employees.
    We are not suggesting that VBA match DAV's training program 
nor adopt our curriculum verbatim. However, we do feel that it 
is not possible for VBA claims processors to maximize their 
potential or proficiency level without substantially increasing 
the amount of training beyond the 85 hours currently required.
    Even with this minimal training requirement, as we have 
heard, GAO found that only one regional office actually met 
their training requirement in 2009. And at nine regional 
offices, less than 50 percent of VSRs and RVSRs met their 
training goals.
    GAO also reported that 46 percent of experienced claims 
processors found it difficult to meet their annual training 
requirement due to their increasing workload demands.
    Mr. Chairman, from my personal experience over the past 17 
years, VBA employees are motivated to learn. They want to do a 
good job for veterans, but they are disillusioned by more 
pressure being placed on meeting production goals than that of 
quality, accuracy, and training.
    VBA employees need regular training schedules and managers 
must allow time for training. Also successful completion of the 
training must be an absolute requirement for every regional 
office while being a shared responsibility of every employee 
and manager.
    Just as VBA managers must provide employees with the time 
for training, employees must faithfully complete that training. 
Neither should be able or feel pressured to simply check the 
box when it comes to training.
    It is our understanding that VBA is administering some type 
of certification examination for employees. However, the 
examination being used seems to be for grade level increases 
only and not for aptitude purposes.
    A VSR must pass a certification examination to move, for 
example, to the highest level. However, if they fail the 
examination, they can still remain at their current grade level 
albeit with no requirement to retake the exam or learn the 
material.
    An experienced VBA employee recently told me that the only 
requirement for annual training is to simply attend, but there 
is no tool such as testing to measure whether or not the 
training is understood or the information being retained. In 
fact, when he expressed his opinion about the need for testing, 
he was actually ridiculed and he left the training feeling that 
it was a waste of his time and merely fulfilling a requirement.
    Regular testing, Mr. Chairman, should be a mandatory for 
all VBA employees to include and must include coaches, Decision 
Review Officers (DROs), and managers. Testing measures for 
efficiency and knowledge and can identify subject matters or 
competencies requiring additional training. Equally important, 
testing can also aid in evaluating the effectiveness of 
training programs and ascertain weaknesses in the claims 
process.
    Mr. Chairman, in closing, for the VA to truly reform the 
claims process, it must make an earnest effort and invest the 
time and resources towards getting it right the first time. And 
training is an essential and core component of any reform.
    This concludes my testimony. I will be happy to answer any 
questions.
    [The prepared statement of Mr. Hall appears on p. 42.]
    Mr. Hall of New York. Thank you, Mr. Hall, and thank you 
for your service to our veterans, especially those in New York 
and in the Hudson Valley.
    Ms. Bartley, you are recognized for 5 minutes.

                 STATEMENT OF MEG BARTLEY, ESQ.

    Ms. Bartley. Chairman Hall and Ranking Member Lamborn and 
Members of the Subcommittee, I am honored to provide this 
testimony on behalf of National Veterans Legal Services 
Program.
    I and others at NVLSP read the GAO report on training of 
claims processors. It would be duplicative at this time to 
review the findings and recommendations, but the report was 
very revealing.
    In this testimony, I wanted to step back for a minute from 
the details of the report and look broadly at what we see 
happening at the VA ROs through some other lenses. These lenses 
include talking to current VA employees at American Legion 
quality reviews, talking with former VA employees, reviewing 
files for cases on appeal to the Board, and reviewing files for 
cases that are on appeal at the Veterans Court.
    And based on those lenses, I wanted to just make a few 
points, recommendations, and observations.
    First it seems that many VA errors seem to be caused by the 
perceived need to adjudicate claims quickly and not necessarily 
by a lack of knowledge on the part of the VSRs and RVSRs. The 
need to hurry and always hurry is a strong contributing factor 
at the very least to work not being properly done.
    The work is not brain surgery but neither is it, you know, 
a one plus one equals two. There are complexities involved and 
it takes a lot of time to do these claims. When employees do 
not have that time, sometimes it is not a matter of how much 
they know, they're not going to be doing a good job if they do 
not have the time.
    In our perspective, training is important, but time to do 
the job well from the start is very important also. And the 
VA's emphasis on production at all costs can hinder any kind of 
training that has occurred.
    The second point is that VA needs to, and I am just 
reiterating what others have said here, needs to identify major 
error patterns and work on them. There are common errors that 
are repeated so often that they deserve to be the subject of 
intense focus by the VA in training.
    Some of the errors I have listed in my testimony and I will 
just repeat a few here. Not providing a VA exam or medical 
opinion where one was required or warranted under current law, 
this could easily be a reason for one-quarter to one-third of 
all remands, cases that keep going around the hamster wheel of 
the VA, the Board, and the court.
    So VA needs to identify these major error patterns and work 
on them. It wastes tax dollars trying to fix these cases at 
higher appeal levels. And those errors have to be strongly and 
actively targeted preferably with interactive training where 
trainers use actual files and scenarios to train on this issue.
    One other point is that immediate supervisors of VSRs and 
RVSRs should have technical experience. I know this was 
addressed in the Veterans Benefits Improvement Act of 2008 
requiring certification of employees or managers, but feedback 
we received from VA ROs tells us this is still a problem.
    If the manager does not have technical experience, that 
really deteriorates the whole notion of training and of 
quality. If you cannot ask your boss to answer your substantive 
question about your work, there is something wrong.
    Under-use of DROs as a training tool is also a problem for 
some ROs. Let me say that some DROs do not appear to be real 
highly skilled sometimes in decisions that I read, but 
nevertheless one of the main reasons for the DRO program to 
begin with was not only to lessen the appeal numbers but also 
to use DROs as a tool to target issues that were being done 
wrong by the RVSRs and to target poorly trained employees. And 
the DRO knowledge base is not being used from feedback that we 
get from employees at this time.
    And, finally, the training attitude of some managers has to 
change. The GAO report said that 50 percent thought training of 
80 hours really was not necessary. This attitude should change. 
The manager is seeing only the little picture of their regional 
office, but that mentality really does hinder the VA in doing a 
quality job.
    Mr. Chairman, this completes my statement.
    [The prepared statement of Ms. Bartley appears on p. 48.]
    Mr. Hall of New York. Thank you, Ms. Bartley.
    Let us see. Mr. Hunter, you are now recognized for 5 
minutes.

              STATEMENT OF DAVID E. HUNTER, PH.D.

    Mr. Hunter. First, good morning. Mr. Chairman and Members 
of the Subcommittee, I am pleased to come before you today to 
discuss IDA's assessment of claims adjudication personnel 
requirements, a study we performed for VBA in 2009.
    In November of 2008, as a result of the Veterans Benefits 
Improvement Act of 2008, the VA asked IDA to conduct an 
assessment of the current personnel requirements of the VBA. 
Given the topic of today's hearing, it is important to note 
that the focus of our study was personnel requirements for VBA 
claims adjudication positions.
    IDA was not asked to analyze the adequacy of training 
requirements nor did it do so. We did not make any 
recommendations regarding training.
    We did find that requirements for training are an important 
factor in determining the VBA claims processing capacity, 
however, as the balance of my testimony will discuss.
    The results of our study in entirety have been documented 
in IDA Paper P4471. Our analysis shows that for the rating 
bundle, VBA claims processing capacity is currently limited by 
the number of rating veteran service representatives or RVSRs.
    Our model of the VBA claims processing capacity took into 
account, among other factors, the number and experience levels 
of claims adjudication personnel, particularly RVSRs.
    Newly hired RVSRs are not as effective as fully trained 
RVSRs. They spend a significant portion of their time in the 
classroom and engaged in on-the-job training and they are 
generally less proficient in the performance of their tasks.
    We calculated effectiveness levels for less than fully 
trained RVSRs based on the typical production goals used at the 
regional offices. It takes 2 years for an RVSR to become 100 
percent effective. For less experienced RVSRs, we assume that 
for the first 6 months of employment they did not contribute to 
claims production and they become incrementally more effective 
from 6 months to 2 years.
    We note in our report that VBA added over 600 RVSRs from 
the beginning of fiscal year 2008 to April 2009, the last month 
for which we had actual employment levels.
    Due to the increasing productivity of these RVSRs as they 
gain experience over time, we estimated that production would 
grow by 29 percent from September 2009 levels without any 
additional hiring.
    There is a direct relationship between the number of 
adjudication personnel and the number of completed claims. 
Increases in completed claims do not necessarily translate into 
a decline in the pending inventory, however, because the 
pending inventory is influenced by both completed and received 
claims.
    In fiscal year 2008, completed rating claims exceeded 
received rating claims for the first time since fiscal year 
2003. The result was the number of pending rating claims which 
had been increasing during the preceding several years 
decreased slightly in fiscal year 2008.
    Unfortunately, this trend in pending claims did not 
continue. Our study accurately forecasted that completed claims 
would increase further in fiscal year 2009 and 2010 as the 
RVSRs that were hired in 2007 and 2008 became fully effective. 
Claims received, however, increased even more rapidly and, 
hence, pending claims increased even while VBA capacity 
increased.
    The number of received claims is difficult to predict. It 
can change drastically from year to year due to changes in both 
statute and in veterans' propensity to file claims. Any 
substantive changes from historically observed behavior will 
naturally have direct effects on the requirements for VBA 
claims adjudication personnel.
    Mr. Chairman, Members of the Subcommittee, that concludes 
my remarks and I would be happy to answer any questions that 
you have.
    [The prepared statement of Dr. Hunter appears on p. 50.]
    Mr. Hall of New York. Thank you, Dr. Hunter.
    Mr. de Planque, welcome, and you have the floor for 5 
minutes.

                 STATEMENT OF IAN C. DE PLANQUE

    Mr. de Planque. Good morning, Mr. Chairman and Ranking 
Member Lamborn. I would like to thank you on behalf of the 
American Legion for the opportunity to talk about training 
today.
    This is a particularly opportune time to examine the 
training process at VA owing largely to recent attention to VBA 
operations and the growing backlog. There has been a boom in VA 
hiring unseen in recent history.
    With these growing numbers come greater challenges to VA. 
Nearly half of the workforce processing claims has less than 3 
years of experience. While this infusion of new energy and 
resources has great potential to help VA manage their caseload 
that includes over a million new filings every year, it will be 
wasted if these employees cannot be properly trained and 
brought up to speed to handle claims accurately and with the 
timeliness to meet Secretary Shinseki's stated goals of 98 
percent accuracy and no claim pending longer than 125 days.
    In order to examine this, we want to look at three areas, 
consistency, focus, and measurement of the training process.
    The consistency issue has been highlighted by American 
Legion visits, quality review visits. Over the last decade or 
so, we have conducted between 40 and 50 of these quality review 
visits in conjunction with NVLSP. They consist of a mix of 
examination of recently adjudicated cases as well as in-depth 
interviews with the staff of VA.
    What we have noted overwhelmingly is inconsistency from 
regional office to regional office. Mr. Bertoni from the GAO 
recently mentioned Fast Letters. In some offices, the reading 
of a Fast Letter is counted as training. In other offices, it 
is not counted as training.
    With most of the employees that we have discussed, a Fast 
Letter from VA, a directive on how VA employees should be 
operating, is circulated as an e-mail and they are told to read 
it and if they have any questions, go to a supervisor.
    That is not efficiently getting the training out to the 
people. Regardless of the intention of Central Office, if they 
cannot consistently enforce their training plan at the 
individual regional offices, it will be ineffective.
    In terms of focus, VA has a wealth of data that is out 
there that can tell them where they need to focus their 
training. We have mentioned these STAR reviews, internal 
quality reviews, the DROs reviewing cases, the Board of 
Veterans' Appeals reviewing cases and sending back their 
regular remands.
    We have just heard that the Board sends 37 percent of the 
cases back as remands for avoidable errors. Those avoidable 
errors should be captured and reinforced with employees so that 
they are avoided in the future.
    The American Legion has recommended in the past, and 
continues to recommend, that STAR reviews, DRO decisions, 
remands from the Board of Veterans' Appeals, remands from the 
Veterans Court be captured and used as a focusing mechanism for 
future training for VA employees.
    Finally, I would like to look at the measurement section of 
how VA measures the training. It does not matter if we are 
talking about 45 hours of training, 85 hours of training, or 
105 hours. If it is not effective training, it does not matter 
how many hours they are doing.
    We have just heard again from Mr. Sims of the AFGE 
mentioning that training is tracked as a measure of quantity, 
not quality. Where have we heard this before? This is a 
consistent mantra within the VA. Whether they are doing four 
claims a day without regard to whether you are doing them 
correctly or whether you are meeting your 85 hours a year of 
training, you are simply checking a box. You are not looking to 
see that you are doing the job correctly.
    And so that aspect of the training needs to be addressed 
and it is difficult to say whether 85 hours is enough if you do 
not know if it is the right kind of training. The kind of 
training should be targeted, it should be consistently applied 
to all of the employees, and there needs to be a better metric 
to measure that training.
    This concludes my statement and I would be happy to answer 
any questions that you may have.
    [The prepared statement of Mr. de Planque appears on p. 
54.]
    Mr. Hall of New York. Thank you, Mr. de Planque.
    Thank you all for your testimony.
    I will start by asking Mr. Sims, should experienced raters 
who perform well in their performance ratings be allowed to 
take less training and should VBA require more training for 
those who score poorly on performance evaluations?
    Mr. Sims. Chairman Hall, the aspect of senior rating 
specialists who perform well receiving less training, I do not 
believe that is an adequate way to approach training. Training 
is necessary at all phases of our work because of the nature of 
the work and the rapid changes that take place both in 
legislation and in medical technology. It directly affects how 
we do our job.
    The targeting training for those who are performing poorly 
is something that needs to be looked at. Saying that 85 hours 
across the board is adequate for all personnel is not an 
adequate way to look at training. Training needs to be focused 
on the needs of the employee.
    There are employees that may require a greater amount of 
training to be focused because of their performance whereas 
some employees may not need the same type of training, but 
continual training is necessary in our position.
    Mr. Hall of New York. Is there a way that VBA could better 
tailor the training to produce better outcomes for employees 
and for veterans given the disparity between how quickly 
certain people learn or employees learn their training and they 
take the material in and get it and are ready to go back to--it 
would seem some people are ready to go to work using that new 
information quicker than others. And I am just curious if you 
think VBA should be trying to tailor its training requirements 
depending on the outcome.
    Mr. Sims. Well, the VBA is in one form tailoring the 
training in the fact that there are specific topics that are 
identified for intermediate level and journey level. The 
problem is that the training topics that are identified are 
set. And, unfortunately, there is not enough focus on the areas 
where improvement is necessary.
    We have a quality review program in place both locally and 
nationally, but, unfortunately, the trends identified by those 
reviews are not being targeted as the necessary training during 
that period of time.
    Even at our regional office, it was recommended that the 
local quality reviews be looked at over the past 12 months to 
identify specific trends and our local training be targeted on 
those specific topics. And, unfortunately, that was met with 
resistance.
    And I believe that's also taking place on the national 
level because of the additional work it may require to be able 
to identify those specific trends and develop that training 
specifically to address those needs.
    Mr. Hall of New York. Mr. Hall, could you please elaborate 
on the point in your testimony about the VA's failure to 
implement certification testing for decision review officers 
and supervisory personnel as is required in Public Law 110-389.
    Mr. Jeffrey Hall. Actually, it was based off conversations 
with VBA employees as an example indicating that certification 
examinations, while it might be the intent of Public Law 110-
389, may not be what is actually being done in their estimation 
because those certification examinations, in fact, are being 
used at different regional offices for grade level increases as 
an example and not really to test the proficiency from the 85 
hours or training that they received through the year.
    In their estimation, also in speaking with them, and really 
from a personal experience level as a manager that had to take 
training, deliver training, and develop training for all of my 
employees, managers should never be exempt from a training 
program. You cannot expect them to learn the material on their 
own accord because of the complexities and nature of this 
business. It is way too difficult.
    But if you have managers that are exempt or not involved to 
include decision review officers, if they are not part of the 
training program and a testing or a certification examination, 
then to me it is a failed experiment at the beginning.
    Mr. Hall of New York. Given DAV's vast experience with 
training its service officers, do you have any recommendations 
for improving the challenge program and VA's overall training, 
I am referring specifically to your point in your testimony 
about the error trend analysis, and aggregating and analyzing 
STAR and Inter-Rater Reliability (IRR) data?
    Mr. Jeffrey Hall. All of those reviews are absolutely 
important. If they do not collectively compile the data results 
from each one of those sources, they just have a fragmented 
database that they are drawing from.
    As far as the challenge training, I am not really clear on 
the specifics of what they undergo point for point in the 
challenge training. I do talk to the VBA employees as an 
example and many of them, some of which actually went through 
DAV's training program. It will provide a comparison for me and 
say that they are well advanced beyond what is being done at 
the challenge training. Some also feel that when they reach 
that level of challenge training that it might be well above 
where they feel that they are ready.
    As far as the data analysis portion of the question, I can 
tell you whether it is the IRR or the STAR or coaches' reviews, 
one thing that I have yet to see, at least in my personal 
experiences, where one of the best sources of seeing how well 
they are doing is a service organization.
    We are a wealth of experience and expertise and we will 
tell them exactly where the decision has gone wrong, the 
quality of the decision, and things like that. Yet, they won't 
ask for it. They simply wait for an appeal or a notice of 
disagreement, something of that magnitude.
    Mr. Hall of New York. Thank you.
    Ms. Bartley, NVLSP has testified repeatedly that the 
overemphasis on production by VBA often leads its claims 
processing personnel to commit avoidable errors, which stem 
from the work credit requirements.
    Could you elaborate on your example in your testimony about 
diabetes' secondary conditions, which constitute a large 
portion of VA's current inventory and if work credits are not 
assigned, how might VA count employee production and do you 
think the training should be more vigorous and standardized 
before production is counted?
    Ms. Bartley. Yes. We have frequently, and I know that other 
service organizations have frequently, made the point that an 
emphasis on or overemphasis on production leads to avoidable 
errors.
    Well, what we see in quality reviews is that some things 
that seem to be obvious are not caught by the rater. And as I 
said in my testimony, you could attribute this to a lack of 
knowledge or a lack of skill or you could on the other hand 
attribute it to perhaps they were being rushed and they were in 
a hurry and they knew that they had to get so many cases done 
per week or per day and that that was the reason it was not 
caught. And in many cases, it might be a combination of both 
factors.
    For something that seems fairly obvious, VA has trained 
repeatedly on what the secondary conditions are for diabetes. 
Right as soon as the condition diabetes came presumptive, they 
issued a training letter that listed all of the secondary types 
of issues that they would be facing, retinitis, neuropathy, et 
cetera.
    And so the fact that some of these are missed leads us to 
believe that these are missed with some frequently as shown by 
our quality reviews that are conducted for the American Legion. 
The fact that these are missed really kind of puts you in a 
quandary. And the fact that they have trained on it pretty 
steadily makes us think that at least one factor here is indeed 
the employees need to get their work done quickly, as I said.
    As to what can be done about it or how VA could count work 
differently, it is bothersome that for however many claims the 
veteran has filed, the VA would only get one work credit for 
doing that particular work for that veteran. And I think that 
changing that, I am not an expert in, you know, counting or 
managing a large organization, but it does seem that that is 
the key factor here is the inability to take sufficient credit 
for work done.
    Mr. Hall of New York. Thank you.
    I have run over time, so I am going to recognize Mr. 
Lamborn for his questions.
    Mr. Lamborn. Thank you.
    And I have a question for Mr. Hall, not the Chairman, and 
then a question or two for anyone on the panel.
    Mr. Hall, how would you suggest that the VA create a level 
of accountability in the VBA's training program since you 
implied that you could find little or no evidence of any 
existing accountability?
    Mr. Jeffrey Hall. As far as VA's accountability, I mean, it 
is a very difficult subject or topic because I understand with 
AFGE and a lot of components that go into that. What we are 
suggesting is a simple fact in DAV, we have the highest level 
of accountability from the senior to the newest employee.
    We follow that individual throughout their training and, 
again, because we require our own managers who are delivering 
the training, we hold them to the same accountability level. 
Whether VA can actually achieve that same thing because with 
our accountability we have things like performance reviews 
which may affect salary increases and things like up to and 
possibly including, possible termination of employment if they 
are simply not being compliant or not meeting the training 
requirements and things of that nature. Whether VA can do that 
or not is really not for me to answer, I believe, but I can 
tell you that I think the accountability simply is if you are 
going to have testing and training for an employee, managers 
must be held accountable to the same situation.
    Mr. Lamborn. Okay. Thank you.
    Now, for anyone else or you or anyone on this distinguished 
panel, how well does the VA utilize feedback to ascertain 
whether its training is effective and how might such a 
measurement mechanism be instituted if it is not already in 
place? Anyone care to take a stab at that?
    Mr. Sims. Well, Ranking Member Lamborn, currently the 
training that we receive in the field, each training program 
through the learning management system has a survey that is 
attached to it. That is how we certify whether or not we have 
completed the training is we go in and complete the survey 
attached to it.
    The surveys identify whether or not the training, we felt 
it was beneficial, whether we had problems completing the 
training, whether there were specific issues that needed to be 
addressed through the training that were not. There is a block 
where we can put in suggestions that we have.
    As to whether or not that information is being utilized, 
that is a question that would be better posed to the VBA 
counsel, our panel that is going to be here. We know we provide 
the suggestions, but whether or not they are accepted, that is 
something that is above us.
    Mr. de Planque. One other thing I would like to note in 
terms of a feedback mechanism, and both Mr. Sims and myself 
touched on this and we have pointed this out a number of times, 
there is a mechanism that is already in there.
    If you look at the STAR reviews, if you look at internal 
reviews, if you look at what the Board is remanding for or what 
the court is remanding for, they are your common errors. They 
are the things that you know that you need to work on. If you 
are a third grader taking a math test and you miss all the 
questions on fractions, you have to go back home and study 
fractions so you do not fail that on the next test.
    Mr. Lamborn. I remember that well.
    Mr. de Planque. Yeah. That mechanism is already there. And 
like I said, I know it was brought up there. This should be 
used. It is a no-brainer. It is an easy mechanism that is 
already there that can be captured and put into that training 
that will help get rid of what the Board has been calling 
avoidable errors.
    Mr. Lamborn. Thank you.
    For the sake of time, I will move on to the last question. 
Once again, any one of you feel free to respond.
    Does the VA track remand decisions for the purpose of 
training development so that future remands of that type are 
avoided?
    Mr. Jeffrey Hall. In my opinion, they do not. They track it 
simply for productivity or number sake, statistics, not for 
remedial training, something that, you know, if we had 17 
percent of our cases remanded back at this level, not in my 
personal experience have I seen or had the discussion with any 
senior VBA employee at any of those local regional offices that 
would tell you, oh, yeah, we have a 17 percent remand rate and 
we are training hard on those subjects. It is simply we have a 
remand rate and we need to get these cases back up there.
    Mr. Sims. And I can attest from my experience as a rating 
specialist at our regional office, the only time I see anything 
of a remand is when it is sent to me to deal with. There is no 
discussion on the topics that come back on remand. There is no 
identification of the trends in the remand and there is no 
training that is done on the nature of the remands. It just 
does not take place.
    Ms. Bartley. And I just wanted to point out that with the 
Appeals Management Center coming into existence several years 
ago that we have heard complaints that, of course, the regional 
offices are not getting the benefit of getting all of those 
cases back and seeing actually what they did wrong the first 
time.
    Mr. de Planque. We think there could actually be an 
excellent tool. If you are working in a regional office and you 
get told you had 48 cases remanded this month because of 
improper Veterans Claims Assistance Act (VCAA) letters, that is 
a tool that tells you we need to have some more training on 
VCAA letters. So it is a great tool. To the best of our 
knowledge, we are not hearing that it is being utilized.
    Mr. Lamborn. Okay. Once again, I want to thank you. I know 
the Chairman agrees. You have been very good with the 
information you provided. We appreciate it. And thank you for 
being here.
    And I yield back.
    Mr. Hall of New York. Thank you, Mr. Lamborn.
    I just have a couple more questions first of all for Dr. 
Hunter.
    You have noted that there are no nationwide rules for 
training factors. Do you believe that implementing such 
nationwide regulations would enhance accuracy and timeliness of 
adjudicating claims?
    Mr. Hunter. No. I would think that would not be helpful. 
What we noticed is that these actually vary from individual to 
individual. What we used in our study were averages.
    So RVSRs typically take 2 years. There was no hard and fast 
rule. So it varies not only from region to region but from 
individual to individual within a regional office. So having a 
standard for less than fully trained people to have one or two 
weighted cases that they would have to do would likely not be 
helpful for the goals you suggest.
    Mr. Hall of New York. You also note in your 2009 report 
that the ideal methodology for predicting personnel 
requirements would be to simulate the processing stages for 
each incoming claim and use statistical distributions to 
estimate the time required at each stage, but that this data 
does not exist.
    Why is that the case and what would be necessary to acquire 
this information?
    Mr. Hunter. That is a really interesting question. One of 
the problems you have at looking at the pending inventory of 
claims are some are ready to rate and be done if there was 
available RVSR hours. Others are not. They are somewhere in the 
process either waiting for a medical exam or something else 
that cannot be completed at that time.
    So it is impossible to tell from the available data what 
the limit is on the number of claims that are actually awaiting 
a rating decision versus how many are stuck in the process due 
to other parts of the requirements.
    Knowing that and being able to track a claim through, you 
would be able to figure out what the actual personnel 
requirements were and what the actual minimum inventory you 
could get and be able to suggest improvements to the process.
    I think to implement that, you would have to do a data 
collection effort. I do not think that data exists, so you have 
to go through and actually track claims through the process to 
see what fraction of them are waiting for various additional 
evidence or doctors' exams before they can be declared ready to 
rate.
    Mr. Hall of New York. Based on your studies including the 
IDA study on regional office variances from 2007, do you have 
any recommendations on how VA might improve the quality and 
accuracy of its production?
    Mr. Hunter. Well, IDA is also working on an independent 
assessment, the quality assurance program that is due next year 
that will touch on that as well. But I can talk back to our 
2007 study a little bit.
    What we talked about was the accuracy would be improved and 
the consistencies particularly if training was done the same 
from when people started and then all periodic and recurring 
training across all ROs.
    Right now our experience was that it was being done 
differently for raters of different experience and also 
differently at each of the individual ROs, which was leading to 
potential inconsistencies in rating decisions.
    Mr. Hall of New York. Mr. de Planque, you stated that it is 
essential to develop real benchmarks to illustrate whether 
deficiencies in knowledge and expertise in the workforce are 
being addressed.
    Could you explain what type of benchmarks you would suggest 
that would accurately address this issue?
    Mr. de Planque. Well, I think the most obvious and glaring 
benchmark that is out there is accuracy rate. When you see the 
accuracy rate starting to go up, when you see it start to 
approach that 98 percent goal, then you know that they are 
training effectively. You know that you are eliminating the 
previous errors and mistakes. I think that is a very obvious 
one.
    I think also we heard Mr. Hall from our panel discuss 
testing as a feedback mechanism and understanding that you have 
achieved the goal of training on that.
    When we mentioned the example earlier of the Fast Letter 
just being put out there, ask any questions if you have it, if 
you have some kind of simple testing mechanism and not 
something that is there to instill fear in employees about, oh, 
I have a test and I am very upset, but a simple mechanism that 
tells you did I learn the material, was this presented to me in 
a way that I understand it. You need to have that mechanism 
from the employees, and testing is one way to get it, that says 
I understand what you are telling me, I understand what is 
being presented to me. So the testing and also looking at the 
accuracy rate, looking at it rising and not dropping as it has 
been lately.
    Mr. Hall of New York. Well, thank you very much, sir.
    Thank you to all of our panelists, for your very helpful 
testimony. And we have more questions that we might submit in 
writing to you, but for now for the sake of time and knowing 
that there are votes coming down the road, we will thank you 
and excuse this panel and move on. So thank you all so much for 
the work you are doing.
    Let us call Michael Cardarelli, the Acting Deputy Under 
Secretary for Benefits of the Veterans Benefits Administration, 
U.S. Department of Veterans Affairs as our third panel.
    He is joined by Diana M. Rubens, Associate Deputy Under 
Secretary for Field Operations, the VBA, and Terence Meehan, 
the Director of Employee Development and Training, the VBA, and 
Danny Pummill of the VA, Deputy Director for Policy and 
Procedures, Compensation and Pension Service (C&P) of the 
Veterans Benefits Administration.
    Welcome, and your full written statement is already made a 
part of the record, as you know, so, Mr. Cardarelli, you have 
the floor for 5 minutes.

STATEMENT OF MICHAEL CARDARELLI, ACTING DEPUTY UNDER SECRETARY 
FOR BENEFITS, VETERANS BENEFITS ADMINISTRATION, U.S. DEPARTMENT 
OF VETERANS AFFAIRS; ACCOMPANIED BY DIANA M. RUBENS, ASSOCIATE 
DEPUTY UNDER SECRETARY FOR FIELD OPERATIONS, VETERANS BENEFITS 
 ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; TERENCE 
MEEHAN, DIRECTOR OF EMPLOYEE DEVELOPMENT AND TRAINING, VETERANS 
 BENEFITS ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; 
 AND DANNY PUMMILL, DEPUTY DIRECTOR FOR POLICY AND PROCEDURES, 
      COMPENSATION AND PENSION SERVICE, VETERANS BENEFITS 
      ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS

    Mr. Cardarelli. Thank you, Mr. Chairman.
    Mr. Chairman and Members of the Subcommittee, thank you for 
the opportunity today to appear before the Subcommittee to 
discuss employee training within VBA.
    I am pleased to be accompanied by Diana Rubens, Associate 
Deputy Under Secretary for Field Operations; Terence Meehan, 
Director of Employee Development and Training; and Danny 
Pummill, Deputy Director for Policy and Procedures for C&P 
Service.
    As you know, Secretary Shinseki set the goal of eliminating 
the disability claims backlog by 2015 so no veteran has to wait 
more than 125 days for a high-quality decision that meets a 98 
percent accuracy level. This important goal is at the center of 
our work as we collaborate across VA to improve the delivery of 
benefits to our Nation's veterans.
    VBA has been aggressively hiring claims processing staff 
across the Nation since fiscal year 2007 and continues to hire 
through fiscal year 2010. However, hiring more employees is not 
a sufficient solution.
    The need to better serve our veterans requires bold and 
comprehensive business changes to transform VBA into a high 
performing, 21st Century organization that provides the best 
services available to our Nation's veterans and their families.
    We are attacking the claims process and backlog through a 
focused multi-prong approach. At its core, our approach relies 
on changing our culture, reengineering current business 
processes, and developing our infrastructure with technology 
that supports a paperless claims environment.
    Through VA, we are rededicating ourselves to the mission of 
being advocates for our veterans. One of VBA's strategies to 
improve and expand training available for our employees, we 
focus on high quality timely and relevant training for both new 
and experienced personnel.
    VBA has developed and implemented a standardized training 
curriculum, the challenge training program, for new claims 
processing employees. The challenge program is a national 
technical training curriculum that provides new employees with 
the skills they need to function effectively in their positions 
as veteran service representatives or rating veteran service 
representatives.
    Since fiscal year 2007, VBA has trained more than 7,200 new 
VSRs and RVSRs including more than 2,000 in fiscal year 2010.
    The challenge program is delivered in three phases. Phase 
one is completion of knowledge-based prerequisite training at 
home station using lectures, demonstrations of computer 
applications, and team learning.
    Phase two is centralized classroom training. Newly hired 
VSRs and RVSRs attended 2\1/2\ weeks of resident training. 
Centralized training provides hands-on training with computer 
applications and advances the new employees through 
progressively more challenging practice claims.
    Phase three is completed at home stations lending lectures, 
discussions, and Training and Performance Support System (TPSS) 
training with experiential learning. Trainees work actual 
veterans' cases under the guidance of experienced personnel. 
Instructors in the third phase are experienced VSRs or RVSRs 
with current knowledge of regulations and procedures.
    VBA institutes continuous improvements to its training 
program for experienced personnel. Beginning in fiscal year 
2010, VBA designed national curricula to enhance quality in 
claims processing through standardized training.
    Topics in the national curricula were selected to address 
national quality issues as determined through VBA's Systematic 
Technical Accuracy Review or the STAR program.
    In fiscal year 2010, VSRs and RVSRs are required to 
complete a total of 85 hours of training including 40 hours 
from the appropriate mandatory national technical curriculum, 
20 hours of electives from a national technical curriculum of 
additional topics, and 25 hours of station determined topics 
that include courses required of all VA employees.
    By August 31st, 73 percent of all VSRs and RVSRs had 
exceeded the mandatory 85 hours of training and 80 percent were 
on track to complete the requirement by the end of fiscal year 
2010.
    In fiscal year 2011, VBA is making additional improvements 
in the training for experienced VSRs and RVSRs. The change will 
give supervisors more latitude to tailor the annual training of 
employees to better meet the emerging needs of individual 
employees, their managers, and the RO in this transformational 
environment.
    VBA has improved its training oversight methods to increase 
accountability. Managers at all levels are held accountable for 
ensuring training requirements are met. The VA learning 
management system provides a transparent view of each 
employee's training achievements to managers and supervisors 
from the team through the headquarters level.
    In 2008, VBA created the position of training manager for 
each RO. The training manager is responsible for local training 
reviews as well as analyzing performance indicators to 
determine local training needs and implementing the training 
necessary to meet these needs.
    In response to a GAO recommendation, VBA developed and 
implemented a strategy for systematically assessing the 
content, mode, and timing of training for experienced claims 
processors. Training of claims processors has continuously 
improved in VBA through ongoing evaluation of the training 
program itself. VBA is also collecting and reviewing feedback 
from staff to determine if the 85-hour training requirement is 
appropriate for experienced VSRs and RVSRs.
    In conclusion, since the Subcommittee's last hearing on VBA 
training in 2008, VBA has improved instruction provided to new 
claims processors, enhanced the relevancy and standardization 
of training for experienced claims processors, and expanded 
both oversight and evaluation of training programs.
    VBA will continue its efforts to improve training and 
ensure high quality decisions for our veterans in a timely 
manner.
    Mr. Chairman, this concludes my testimony. I will be happy 
to respond to any questions that you or other Members of the 
Subcommittee may have. Thank you.
    [The prepared statement of Mr. Cardarelli appears on p. 
56.]
    Mr. Hall of New York. Thank you, sir.
    I appreciate the effort that is being made by the Agency to 
solve these problems that is kind of like a moving target as we 
deal with the aging population of veterans from Vietnam, Korea, 
World War II, and more recent veterans including those 
returning from our current conflicts at the same time.
    Congress is trying to do a responsible job of oversight and 
give you the tools and the funding that the Agency and VBA and 
the Veterans Health Administration need and also asking for 
reports when we all know you are really, really busy without 
coming here and reporting to us.
    But thank you for being here and testifying and your 
repeated and helpful testimony.
    I am trying to get a full picture of the VBA personnel and 
capacity. How many claims processing personnel does VBA 
currently have and what is the number breakdown of the 
positions and responsibility? For instance, the number of VSRs, 
RVSRs, and DROs.
    Mr. Cardarelli. Yes, sir. Overall, we have approximately 
14,300.
    Diana, if you want to go into specifics.
    Ms. Rubens. Thank you.
    Yes. The breakdown that we actually saw in Dr. Hunter's 
testimony has increased. One of the key things I think 
particularly, is that he reflected about 2,500 RVSRs. By the 
end of this calendar year, it will be about 3,000.
    We continue to evaluate the needs. Our RVSRs are our key 
decision maker as it comes to those rating claims, 
particularly, and so we will continue to evaluate whether that 
number needs to increase further as we go through fiscal year 
2011.
    For our VSRs, we are in the 9,000 range. For our DROs, we 
are at about 425 as of mid-summer and looking to increase that, 
recognizing that they are our most skilled technicians, 
particularly as we look at the need for succession planning.
    We have been working very hard to make sure we are 
increasing that number to prepare for the attrition we expect 
to come in the next few years.
    Mr. Hall of New York. Is there a quantitative empirical 
relationship between VBA training requirements and national 
claims processing goals such as on quality and accuracy and 
what is the correlation between VBA training requirements and 
VBA's national goals of 125 days, 98 percent accuracy, and 2015 
for breaking the backlog?
    Mr. Cardarelli. Yes, sir. There is a correlation. As you 
aptly stated in your opening statement, our goal, one of the 
things we strive to do is get the claim right the first time. 
The two are intimately entwined.
    As far as our training, the better trained that our 
personnel are will enhance our timeliness and certainly enhance 
our quality of what they actually do. Therefore, the two are 
tied together, and they supplement each other.
    Obviously we place a premium on our training in regards to 
the 80 hours that we have; 40 hours that are dictated at a 
national level, another 20 hours are from a menu of items that 
comes from our national level, and then the final 25 hours 
allow each RO to focus exclusively on those issues.
    So we have a blend. What we are trying to do obviously is 
set our employees up for success the first time, so that as 
they review a case, they review it correctly and in a timely 
manner.
    Mr. Hall of New York. I have noticed during my tenure as 
Chairman of this Subcommittee that VA sends out a number of 
Fast Letters to the field. It actually notes that training has 
still not occurred on rating eye disabilities for a schedule 
change issued in February of 2009.
    Given the number of eye injuries of our returning 
servicemembers, I find this mystifying and disturbing.
    How is training provided for recent changes in the law, 
regulations, and statute? Is there regular training provided on 
Fast Letters?
    Mr. Cardarelli. Sir, our training and curriculum are 
evolving. They change based upon the type of things that we are 
seeing, the type of changes that are required, and where we 
think emphasis needs to be.
    We have 85 hours of training, but we constantly review that 
and determine the right number of hours and the right number of 
topics.
    There was talk in earlier panels about the types of errors 
seen, and we are focused on those. It is a constant review that 
we do. There is a review that is done by the individuals as 
they go through the training. They have a chance to provide 
feedback such as: was the training helpful, worthwhile, what 
other areas do you need to look at.
    We are trying to have standardization through all 57 ROs as 
much as possible, but we want to allow individual ROs to 
address particular issues and be flexible enough so that as 
changes come about in the law and procedure we have a chance to 
put that training into our curricula.
    Mr. Hall of New York. Thank you, sir.
    Reviewing the materials that were sent over by VBA 
outlining the content of the training modules, I came away with 
concerns. I am not a training expert myself, but it seems that 
there is not a lot of variety or breadth in the training topics 
offered. I can see where more experienced personnel might find 
it less than helpful.
    In compliance with GAO's written recommendation, recent 
recommendation, has VBA developed and implemented a written 
strategy for systematically assessing the content, mode, and 
timing of training experienced claims processors in the 
regional offices and are there improvements planned or already 
made? When indicated, how are these modules selected?
    Mr. Cardarelli. Yes. In fact, we are working on a strategy 
now. One of our focuses is to be able to do our basics 
correctly. Sometimes that requires repetition. There is always 
room for improvement. We know that. So we want to keep our 
basic training doctrine consistent.
    We have tried to involve the area directors and the RO 
directors to ask: what is the feedback, what are the areas that 
we are missing, what are the areas that we need to hit on that 
we are not, in fact, hitting on.
    You mentioned earlier that we are in a changing 
environment. We are dealing with World War II era veterans and 
Korea War veterans, but we are also dealing with the most 
recent veterans from Afghanistan and Iraq. The types of claims 
we are seeing are different. We need to make sure that we can 
handle the other claims but also look at new situations as our 
environment changes.
    We have taken an effort here at the headquarters level to 
make sure that we have standardized training, that we are 
looking at all the different training modules that we have, and 
that they are the appropriate ones in the appropriate place at 
the appropriate time.
    As I said earlier, it is evolving. It is something that 
will change year to year. For example, in fiscal year 2011 we 
brought people from the field in at all different levels to 
look at the training, to look at the 40 hours, the 20 hours, 
and the 25 hours, and ask, is this the right mix of things to 
make us ultimately successful.
    I cannot overemphasize, and I came from an environment 
where training is critical to what we did, is that the better 
trained that our employees are in doing different types of 
work, we will set them up for future success and allow them to 
be more effective as they do their job.
    Mr. Hall of New York. When this training strategy is 
complete, could you supply a copy to the Committee, please?
    Mr. Cardarelli. Yes, sir.
    [The VA subsequently provided the following information:]

         VBA's written strategy for systematically assessing the 
        content, mode, and timing of training experienced claims 
        processors follow:

         VBA implemented an evaluation process to gather feedback from 
        experienced claims processors regarding the usefulness, 
        relevance, and quality of training they receive. VBA fielded an 
        on-line evaluation tool in February 2010 to collect evaluations 
        submitted by C&P claims processors on the usefulness, 
        relevance, and quality of national training received in field 
        offices. With 25,614 anonymous responses since March 2010:

        91 percent of respondents considered training at least 
        moderately useful;
        91 percent of respondents considered training relevant to their 
        jobs;
        88 percent of respondents are confident they can apply the 
        training to their jobs; and
        91 percent of respondents considered worthwhile the requirement 
        they complete the training.

         In FY 2010, C&P Service also examined this issue and 
        determined that at a minimum, half of the required annual 
        training hours would be dedicated to addressing national 
        quality trends. Upon review of local quality data and 
        discussions with regional office personnel, VBA increased the 
        hours dedicated to training on quality issues to a minimum of 
        60 hours for FY 2011. Forty hours of this training are 
        identified by specific required topics and assigned training 
        curriculum based on national quality trends and emerging 
        issues. Each regional office selects an additional 20 hours of 
        training based on local quality trends from curriculum 
        available on the C&P training Web site.

         We are working to incorporate survey instruments into our 
        Learning Management System. This will allow supervisors to 
        monitor individual compliance with the completion of the 
        survey. This process is nearing completion and should be rolled 
        out by the second quarter FY 2011.

         Training needs will continue to be reviewed periodically and 
        revised as necessary. Currently, the appropriateness of the 
        Core Technical Training Requirement courses is discussed at 
        both the annual Veterans Service Center Managers (VSCMs) 
        Conference and the annual Training Managers Conference. Monthly 
        calls are held with all VSCMs and local Training Managers 
        concerning changes in training policy.

    Mr. Hall of New York. Thank you very much.
    Many of the previous witnesses testified about premature 
decision-making, particularly as it refers to underevaluation 
of mental conditions and inferred conditions. They also 
discussed VA's failure to aggregate and analyze data collected 
from STAR and inter-rater reliability reviews to spot error 
trends. The VA Office of Inspector General (OIG) has indicated 
a similar finding in its findings in its regional office 
reports.
    How does VA identify major patterns of errors and generate 
interactive trainings to end these patterns?
    Mr. Cardarelli. Sir, actually, it is a decision process. It 
is an ongoing process that is constantly changing. It is 
constantly evolving, constantly occurring. What we want to do 
is evaluate the information we are getting there from STAR and 
the individual ROs, roll up categories of errors, categorize 
them as much as possible, although some you may not be able to 
categorize, and then start looking at the 80 hours of training. 
We will address these issues, find the appropriate mix of 
training, and adjust that based upon the types of errors we are 
seeing.
    It is a constant process, and we need to be vigilant here 
at the leadership level to make sure this occurs every year. 
Every year we are looking at the errors from the previous year, 
and we can better adjust our training schedule, requirements, 
and topics to address those issues.
    Mr. Hall of New York. Do you know what the average tenure 
of a VSR or RVSR is with the Agency?
    Mr. Cardarelli. I do not know, sir. We can get that to you.
    [The VA subsequently provided the following information:]

                       Tenure for VBA C&P & Education Service Employees in the 996 Series
----------------------------------------------------------------------------------------------------------------
                                          Compensation & Pension Service #    Education Service # and % of 0996
                Tenure                        and % of 0996 workforce                     workforce
----------------------------------------------------------------------------------------------------------------
less than 1 year                                                 868 or 8%                           178 or 14%
----------------------------------------------------------------------------------------------------------------
14 years                                                     3,658 or 34%                           586 or 45%
----------------------------------------------------------------------------------------------------------------
59 years                                                     2,376 or 22%                           191 or 15%
----------------------------------------------------------------------------------------------------------------
1014 years                                                   1,266 or 12%                            109 or 8%
----------------------------------------------------------------------------------------------------------------
1519 years                                                      848 or 8%                             86 or 7%
----------------------------------------------------------------------------------------------------------------
2024 years                                                      823 or 8%                             91 or 7%
----------------------------------------------------------------------------------------------------------------
2529 years                                                      442 or 4%                             35 or 2%
----------------------------------------------------------------------------------------------------------------
30+ years                                                        494 or 4%                             35 or 2%
----------------------------------------------------------------------------------------------------------------
                                                              Total 10,775                          Total 1,311
----------------------------------------------------------------------------------------------------------------
Total # of 0996 positions, VBA Wide = 12,086


    Mr. Hall of New York. I am just curious if there is a 
burnout factor, if we are bringing in new people and training 
them, but also losing people who we might be able to hold onto 
if their training and/or production pressure was mitigated 
somehow.
    Mr. Cardarelli. Yes, sir. Interesting point. I am sure 
that, as in any organization, people doing the same job over 
and over get very good at that job, but potentially get burned 
out and less effective.
    That is why we emphasize training at all levels, not only 
for the newcomers, but for experienced RVSRs and VSRs. We keep 
them fresh, motivated, and aware of the change in environment 
because the way you did something 5 years ago may not be the 
same way you do something today or, in the future.
    As you are well aware, the VA is evolving. We are looking 
at different ways of doing things and trying to get smarter, 
more effective, and more efficient. Part of that requires 
people to step away from the way they have been doing business 
at all levels, at the new employee level, at mid-level 
management, at senior management level.
    There is a tendency to rely on what you did in the past to 
be successful in the future, but that is not always the case. 
Sometimes we have to look behind to say, what are we missing. 
That is where our training becomes critical. There is a 
training component here even, for our RO directors. We have two 
conferences a year where we bring them all together and put out 
from a strategic level, what we are trying to do overall, where 
we are trying to take VA and VBA.
    We recently had one in Louisville where we focused 
exclusively on transformation. It was a chance to step back and 
say, okay, look, do not worry about your day-to-day issues, 
you're in a box right now. That is a concern because we are 
actually doing business, but let us step back and project 5 
years in the future, where do we want to be and how are we're 
going to get there.
    But there is also time set aside in both conferences where 
the area directors have a chance to get their RO directors 
together and basically say, okay, this is what is going on in 
the eastern region, and this is what we need to focus on.
    So you can see it is a constant training environment from 
the most senior levels all the way down to the new employee.
    Mr. Hall of New York. Will the Veterans Benefit Management 
System (VBMS) be capable of identifying error trends and 
providing timely training correction? If so, how so? And is the 
development of VBMS on track?
    Mr. Cardarelli. Sir, it is on track. We have a deliverable 
in November. Fifteen November is the deliverable of the first 
pilot. We expect to begin training on VBMS in May of 2012.
    The initial plan is to train up to 300 cohorts from all the 
ROs. They would then train each RO as we started to roll it 
out.
    Our intent is that with VBMS we would be able to roll up 
different types of errors at the different locations so that we 
can look at that data and then apportion our training resources 
to actually address those.
    Mr. Hall of New York. Thank you.
    Just a couple more questions and then I have to run across 
the street and cast some votes.
    But given that the VA OIG found that the accuracy of 
brokered claims is nearly 20 percent lower than national 
accuracy, does VBA plan to offer additional training on 
brokered claims or streamline the type of claims that may be 
brokered? Is VA collecting empirical data on brokered claims as 
suggested by GAO and other stakeholders? And if so, how does 
this tie in with any needed corrective measures?
    Ms. Rubens. Mr. Chairman, if I could address that. Yes, it 
was very beneficial when our STAR folks began to look at 
particularly the resource centers to evaluate exactly what the 
quality errors were. That allowed us then to begin training 
specifically to those within those resource centers to ensure 
that those quality issues were addressed.
    We will be using those resource centers and actually have 
invested a great deal of brokering this year. I am sorry, not 
brokering. We have invested a great deal of training in those 
resource centers this year because they will be helping us work 
the new Agent Orange presumptives that will fall under the 
purview of the Nehmer decision.
    So we are very focused on ensuring that any work that is 
brokered is getting that same attention and that those folks 
doing that work are getting that same and particularly focused 
training as errors have been identified at the national level 
in those individual offices.
    Mr. Hall of New York. Thank you, Ms. Rubens.
    Lastly, are you aware of when a permanent Under Secretary 
for Benefits will be appointed? Where is the VA in that 
process?
    Mr. Cardarelli. Sir, I am not aware of that. I know there 
were names that were sent to the White House and we are just 
waiting for final decision.
    Mr. Hall of New York. Okay. Well, thank you very much.
    We do have some more questions that we will submit in 
writing, but I have a minute and a half to go vote.
    So thank you for the work you are doing for our veterans. 
Thank you for testifying today.
    Thanks to all our panelists.
    I would like to remind Members they have 5 legislative days 
to revise and extend their remarks. I will tell them that when 
I see them across the street.
    On behalf of the Subcommittee, I thank you all for 
participating in this hearing. We greatly value your insight.
    This hearing stands adjourned.
    [Whereupon, at 11:39 a.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

            Prepared Statement Hon. John J. Hall, Chairman,

       Subcommittee on Disability Assistance and Memorial Affairs
    Good Morning Ladies and Gentleman. Would everyone please rise for 
the Pledge of Allegiance? Flags are located at the front and back of 
the room.
    I am grateful that you have been able to join us for today's 
hearing entitled, ``Examining Training Requirements of Veterans 
Benefits Administration Claims Processing Personnel.''
    I think it is indisputable that the quality of the training that 
VBA claims processing personnel receives is critical for the Department 
of Veterans Affairs' (VA) reaching its goal of processing all claims 
within 125 days at 98 percent accuracy and in reaching its overarching 
goal of eliminating the backlog by 2015. As of 2009, VBA received more 
than 1 million compensation and pension related claims annually. Over 
200,000 of these claims take longer than four months for VBA staff to 
fully process, meaning that they are a part of the backlog. Further, it 
is estimated that approximately 20 percent of the claims processed by 
VBA, as many as 200,000, are erroneous. Also, according to information 
provided by the Board of Veterans' Appeals in its annual report, 37 
percent of all appeals that it receives are returned to the VBA due to 
avoidable errors. It should also be noted that the backlog itself 
continues to grow exponentially.
    Since 2007, Congress has appropriated more than $750 million to VA 
to hire over 10,000 new VBA claims processors on an expedited hiring 
timetable. Recognizing that the backlog is not just a ``people'' issue 
and that brute force alone will not bring about transformation, 
Congress passed the Veterans' Benefits Improvement Act of 2008 (P.L. 
110-389), which included sweeping provisions to overhaul the claims 
processing system including efforts to improve the training of VBA 
claims personnel. Recently VA expanded the training requirements for 
each of its claims processors. Today, Veterans Service Representatives 
(VSRs) and Ratings Veterans Service Representatives (RVSRs) are 
required to complete 85 hours of instruction annually, a five-hour 
increase over previous levels. VA has also re-implemented and revamped 
its certification testing program and I look forward to hearing more 
about that today.
    Congress also directed the Government Accountability Office (GAO) 
to examine VA's training program for claims processing personnel. GAO 
answered the call with two reports, one in 2008 and one in 2010 that 
assess VBA's training requirements and practices. From these reports, 
we found that VBA claims processors may be hindered from completing 
their training requirements in order to meet work production goals. We 
also learned that VBA's training may not be sufficient to equip VBA 
claims processors with the skills needed to help them perform their 
duties. Moreover, the GAO indicates that significant improvements might 
be achieved by VBA if it would monitor the claims process, particularly 
during the claims developmental stages, and employ appropriate 
training, management, and other tools to more timely correct staff 
processing errors.
    The Institute for Defense Analyses (IDA), based on its research has 
also issued findings related to VBA's claims processing related 
training, particularly as it pertains to rating variances between ROs. 
I look forward to hearing from both the GAO and the IDA on their 
findings.
    The job of Congress in our oversight capacity is to help VA find 
solutions to the challenges that stand in the way of veterans receiving 
the benefits they are due. Today's hearing is designed to achieve this 
end by shining greater light on the efficacy of VA's training and 
certification of VBA claims processing personnel. I look forward to the 
testimony of Veterans Service Organizations (VSOs) and other 
stakeholders, many of whom for years have offered recommendations for 
improving the training of VBA claims processors.
    Finally, I look forward to hearing feedback from the Acting Deputy 
Under Secretary for Benefits on the critiques and recommendations from 
the earlier witnesses, and to get an action plan for equipping VBA 
claims processing personnel with the skills needed for VA to ``break 
the back of the backlog''.
    As we all know, our Nation provides its military the very best 
training and other resources needed to achieve its mission. Veterans 
understand the necessity of proper training--as they have placed their 
lives in harm's way depending upon the training they and their brothers 
and sisters-at-arms received. Our mission today is to ensure that VBA 
provides meaningful and appropriate training and resources that claims 
processing personnel need to perform their duty so that our veterans, 
their families, and survivors receive the 21st Century, world-class 
service they deserve.
    Thank you, I now yield to Ranking Member Lamborn for his opening 
statement.

                                 <F-dash>
                 Prepared Statement Hon. Doug Lamborn,
               Ranking Republican Member, Subcommittee on
               Disability Assistance and Memorial Affairs

    Thank you Mr. Chairman.
    And welcome everyone, to this hearing on Veterans Business 
Administration training programs.
    A quality training program is the key to any successful 
organization, particularly one like VBA that must adhere to such a 
complex set of laws, regulations, and precedent decisions by the U.S. 
Court of Appeals for Veterans Claims.
    In addition to the aforementioned legal knowledge, a significant 
portion of VBA employees must also have a fair understanding of medical 
terminology and basic anatomy and physiology.
    While these requirements pose a daunting challenge for trainers, I 
want to emphasize my strong desire to ensure that a comprehensive and 
substantive training program is employed at all levels of VBA.
    Over the past several years, Republican members have recommended 
substantial increases for training in our views and estimates.
    We realize the importance proper training and feedback has in 
production of quality rating decisions that are fair and equitable to 
our veterans.
    Throughout my tenure on this Committee, we have discussed a number 
of problems within VBA that my colleagues on both sides of the aisle 
and I recognize could be addressed through better training.
    I believe that the VA's greatest challenge, the claims backlog, is 
largely attributable to hasty decisions made without proper regard for 
accuracy.
    While the recent expansion of its workforce will certainly have a 
positive impact, VA must ensure that newly hired claims workers receive 
training that is commensurate with their responsibilities.
    It is equally important that the results of the training are 
evaluated.
    Without feedback, VA may never know whether or not the training is 
accomplishing its goal.
    Any viable training program should be able to identify deficiencies 
and demonstrate the intended and actual outcome of its curriculum.
    VA training must be connected to its vision and mission, and VA 
managers need to be assured that if employees are pulled off the floor 
for training that it will result in long-term benefits.
    I'm sure that with a growing number of pending claims, there is a 
certain level of trepidation among managers that production will 
decline and they will fall further behind if they have to conduct 
training.
    There must be clear support, from the top down, in order to conduct 
adequate training and acquire the expected outcomes.
    I look forward to hearing from our witnesses today, and I thank you 
all for your participation
    Thank you, I yield back.

                                 <F-dash>
 Prepared Statement of Daniel Bertoni, Director, Education, Workforce,
       and Income Security, U.S. Government Accountability Office
              VETERANS' BENEFITS: Training for Experienced
                      Disability Claims Processors
                             GAO Highlights

Why GAO Did This Study

    GAO was asked to present its views on the training requirements and 
procedures for VA personnel responsible for processing compensation and 
pension claims. This statement is based primarily upon an April 2010 
GAO report on VA's training for experienced disability claims 
processors (GAO-10-445) and includes information on actions VBA says it 
has taken in response to our recommendations. This statement focuses on 
(1) experienced disability claims processors' views regarding training, 
and (2) VBA's efforts to monitor and assess training for experienced 
disability claims processors.

What GAO Recommends

    In its April report, GAO recommended that VBA (1) adopt procedures 
for routinely monitoring and ensuring compliance with annual training 
requirements, including more fully using its Web-based learning 
management system to ensure training requirements are met, (2) develop 
clear written guidance on the types of activities all regional offices 
should and should not count toward completion of annual training 
requirements, and (3) develop and implement a written strategy for 
systematically assessing the appropriateness of the training regional 
offices provide to experienced claims processors. VA concurred with 
these recommendations and has taken some actions in response.

What GAO Found

    Experienced claims processors had concerns about the amount of 
training they were required to complete and their ability to meet that 
requirement. In addition, they had mixed views on the amount of 
training received on specific topics, the way in which training was 
delivered and the timing of training. GAO's survey results indicated 
that 60 percent of experienced claims processors found it difficult to 
meet the 80 hour annual training requirement given their workload. In 
addition, based on its survey, GAO estimates that 45 percent of 
supervisors of experienced Rating Veterans Service Representatives 
(RVSR) and 53 percent of supervisors of experienced Veterans Service 
Representatives (VSR) thought that only some or few, if any, of the 
experienced staff they supervise need 80 hours of training annually to 
perform their job duties effectively.
    Many experienced staff also thought they received too little 
training on some topics and too much on others. For example, 47 percent 
thought they received less training than needed in how to develop 
appeals and remands and 34 percent thought they received more than 
enough training on records management. Finally, opinions varied on how 
helpful the various modes of training were. Nearly all claims 
processors, in general, considered on-the-job experience to be the 
method of training best suited to their needs. An estimated 39 percent 
of all experienced claims processors, in general, felt that the 
training they received was delivered too late, suggesting that regional 
offices may not always deliver the training needed by experienced 
claims processors in a timely manner.
    According to Standards for Internal Control in the Federal 
Government, Federal agencies must have control mechanisms in place to 
help ensure that all employees receive appropriate and consistent 
training. Under its current annual training requirements, VBA delegates 
considerable responsibility for training experienced claims processors 
to each of its 57 regional offices. In particular, regional offices are 
responsible for ensuring that claims processors complete annual 
training requirements. Each office also determines what topics are 
covered for half of the required training hours, what material to 
provide on each of these topics, and how and when the training should 
occur. Regional offices also have considerable discretion in 
determining what activities qualify as training. However, at the time 
of GAO's review, VBA lacked controls to ensure that regional offices 
deliver required training and record completed training in a consistent 
manner, and did little to assess the appropriateness or consistency of 
all training for experienced claims processors. During the course of 
our review and in response to our recommendations, VBA has taken steps 
to improve its monitoring and assessment of training. VBA reports that 
they are developing guidance on what activities qualify as training, 
have begun to require staff to complete course evaluations for some 
training and are exploring the feasibility of requiring evaluations for 
all training.
                               __________
    Mr. Chairman and Members of the Subcommittee:
    I am pleased to have the opportunity to comment on training for 
Veterans Benefits Administration (VBA) disability claims processors. In 
fiscal year 2009, the Department of Veterans Affairs (VA) paid about 
$44 billion to about 4 million veterans and their survivors through its 
disability compensation and pension programs. For years, the claims 
process has been the subject of concern and attention by VA, the 
Congress, and veterans service organizations due, in large part, to 
long waits for decisions, large numbers of pending claims, and problems 
with the consistency of decisions. To help VBA manage its increasing 
workload and replace the growing number of experienced claims 
processors who are retiring, the Congress provided funding which 
enabled VBA to hire several thousand new staff from fiscal year 2005 
through fiscal year 2010. However, more staff alone will not guarantee 
effective disability claims processing. To ensure that decisions in 
disability compensation and pension cases are accurate, consistent, and 
timely, training must enable claims processors to become fully 
proficient and maintain their knowledge and skills.
    In 2008 we reported that VBA's centralized training for new claims 
processors appeared well designed but that some claims processors had 
raised concerns about implementation.\1\ VBA has since evaluated its 
training for new claims processors and made changes based upon that 
evaluation. In April 2010, we again reported on VBA's training as 
mandated in the Veterans' Benefits Improvement Act of 2008.\2\ We 
recommended improved monitoring of annual training requirements, 
standardized recording of training taken, and a review of course 
content and timing for experienced claims processors. My remarks today 
will focus on (1) experienced disability claims processors' views 
regarding training, and (2) VBA's efforts to monitor and assess their 
training. This statement is drawn primarily from our April 2010 report, 
where we obtained information on the training, experience, and views of 
a nationally representative sample of claims processing staff. We also 
interviewed VBA headquarters officials and managers and training 
coordinators in four regional offices--Little Rock, Arkansas; Denver, 
Colorado; St. Petersburg, Florida; and White River Junction, Vermont. 
Our work was conducted in accordance with generally accepted government 
auditing standards. Those standards require that we plan and perform 
the audit to obtain sufficient, appropriate evidence to provide a 
reasonable basis for our findings and conclusions based on our audit 
objectives. We believe the evidence obtained provides a reasonable 
basis for our findings and conclusions based on our audit objectives.
---------------------------------------------------------------------------
    \1\ See GAO, Veterans' Benefits: Increased Focus on Evaluation and 
Accountability Would Enhance Training and Performance Management for 
Claims Processors, GAO-08-561 (Washington, D.C.: May 27, 2008).
    \2\ See GAO, Veterans' Disability Benefits: Expanded Oversight 
Would Improve Training for Experienced Claims Processors, GAO-10-445 
(Washington, D.C.: April 30, 2010).

---------------------------------------------------------------------------
Background

    To process claims accurately, consistently, and in a timely manner, 
Veterans Service Representatives (VSR) and Rating Veterans Service 
Representatives (RVSR) must perform a complex set of tasks. When a 
claim is received, a VSR reviews it and assists the veteran in 
gathering the evidence, or documentation, needed to support it. The 
RVSR then evaluates the evidence to determine whether the claimant's 
medical condition(s) constitutes a disability, and assigns a disability 
percentage rating which determines the amount of benefits the veteran 
is eligible to receive. Finally a VSR calculates the amount of monthly 
benefit payments. VSRs and RVSRs also perform follow-up reviews if, for 
example, there is evidence a claimant's medical condition has changed, 
or a court determines that a claim was incorrectly denied.
    To ensure that VSRs and RVSRs develop and maintain the knowledge 
and skills needed to process disability claims accurately, 
consistently, and in a timely manner, VBA has established annual 
training requirements and developed a structured training program, 
called ``Challenge,'' for newly-hired or promoted claims processors.\3\ 
Beginning in fiscal year 2010, claims processors must receive 80 hours 
of training annually in topics directly related to processing 
disability claims.\4\ VBA requires that 40 of those hours be in topics 
designated by VBA, 20 cover topics selected by each regional office 
from a list of core technical training requirements (CTTR), and 20 
cover topics determined by each regional office.\5\
---------------------------------------------------------------------------
    \3\ Challenge consists of a uniform curriculum that is implemented 
in three phases: initial orientation training provided at a 
participant's regional office, centralized classroom instruction 
typically delivered at VBA's Training Academy in Baltimore, Md., and 
comprehensive on-the-job and classroom training that new claims 
processors receive at their regional offices.
    \4\ The 80-hour annual training requirement is for RVSRs and VSRs 
who have completed the Challenge training program and/or have been in 
their position for six months.
    \5\ At the time of our survey VBA did not designate the 40 hours of 
required training.
---------------------------------------------------------------------------
    In addition to its ``Challenge'' program and annual training 
requirements, VBA issues ``Fast Letters,'' or memoranda on policy 
changes, conducts telephone conferences, and develops ad hoc required 
training on emerging issues to help ensure that disability claims 
processors have the information they need to do their job. VBA issued 
100 Fast Letters in calendar years 2008 and 2009, on topics ranging 
from cost-of-living adjustments in disability benefits to rating the 
effects of traumatic brain injury (TBI). Monthly or quarterly telephone 
conferences with regional offices concentrate on claims processing 
issues identified through VBA's quality reviews or on new management 
priorities or initiatives that may affect how claims processors do 
their jobs. VBA officials also told us the agency periodically requires 
training on emerging topics such as rating post-traumatic stress 
disorder (PTSD) and spinal, neck, and joint injuries.

Experienced Claims Processors Had Concerns With Various Aspects of the 
        Training They Received

    Experienced staff responding to our survey expressed concerns with 
the amount of training they were required to take and their ability to 
meet those requirements. Based on the results of our survey of claims 
processors, many believed that 80 training hours each year were too 
many, particularly for experienced staff.\6\ An estimated 45 percent of 
supervisors of experienced RVSRs and 53 percent of supervisors of 
experienced VSRs thought that only some or few, if any, of the 
experienced staff they supervise need 80 hours of training. Most of the 
regional office officials we interviewed also said 80 hours are too 
many for at least some experienced staff and one regional official told 
us it would make sense to vary the required number of hours based on 
the training needs of individual claims processors.\7\ In 2008 we 
recommended that VBA collect and review feedback from staff to 
determine if the 80-hour training requirement was appropriate for all 
VSRs and RVSRs. VBA has not yet implemented this recommendation.
---------------------------------------------------------------------------
    \6\ Unless otherwise indicated, the margin of error for estimates 
based on this survey cited in this report are within plus or minus 15 
percentage points at the 95 percent confidence level.
    \7\ An 80-hour annual training requirement may be appropriate for 
some, in particular new staff. An estimated 70 percent (ranging from 52 
to 84 percent at a 95 percent confidence level) of all supervisors of 
new RVSRs and 62 percent of supervisors of new VSRs thought that all or 
almost all of the new staff they supervise needed 80 hours of training.
---------------------------------------------------------------------------
    Our survey results also indicated that it was challenging for many 
experienced claims processors, in general, to meet the 80-hour annual 
training requirement, given their workload. Sixty percent found it 
somewhat or very difficult to meet the requirement. Moreover, 61 
percent of experienced RVSRs' supervisors and 76 percent of experienced 
VSRs' supervisors thought it was somewhat or very difficult for 
experienced staff to complete 80 hours of training each year.
    While many experienced claims processors thought that 80 hours of 
training per year was too much and difficult to complete, they had 
mixed views on the amount of training they received on specific topics. 
For example, an estimated 47 percent thought they received less than 
sufficient training in developing appeals and remands, and 42 percent 
thought they received less than needed in how to rate claims involving 
special monthly compensation. On the other hand, in each case, about 
one-third thought they received more than enough training in records 
management, rating disability compensation claims, and calculating 
payment amounts based on disability ratings.
    Experienced claims processors' views on the helpfulness of various 
training modes and the timing of training also varied. Training for 
disability claims processors can be delivered in a number of ways: 
formal classroom training, online instruction, and video or satellite 
conferences. Claims processors can access online training courses 
through VBA's Training Performance Support System (TPSS), and learning 
resources such as VBA training materials, published guidance, and 
technical information are available to them on VBA's internal Web site. 
Regional offices also provide claims processors with individual 
coaching and mentoring, and may hold weekly meetings for claims 
processing teams.
    Based on our survey results, experienced claims processors, in 
general, found certain training modes and learning resources more 
helpful than others. Nearly all thought that on-the-job experience, to 
a great or very great extent, helped them learn what they needed to 
know to perform their jobs. However, only about 20 percent indicated 
TPSS and other online training, and video or satellite training had, to 
a great or very great extent, helped them become familiar with even the 
basic information needed to handle claims.
    Survey results also indicated that regional offices do not always 
deliver necessary training in a timely manner. An estimated 39 percent 
of all experienced claims processors felt that the formal training, in 
general, they received in the last 12 months was delivered too late to 
help them effectively perform their job duties. For example, although 
the regulation governing ratings decisions on the effects of traumatic 
brain injury (TBI) was changed in October 2008,\8\ one RVSR wrote in a 
comment to the survey that, ``TBI training is not projected to come out 
until [2010.]'' \9\ Another wrote that introductory leadership training 
was not received until two years after a promotion to a supervisory 
position.
---------------------------------------------------------------------------
    \8\ 73 Fed. Reg. 54,693 (September 23, 2008).
    \9\ A presentation on TBI was available on VBA's Intranet site.

VBA Did Little To Systematically Monitor or Assess Training for 
        Experienced Claims Processors but Has Begun To Take Steps To Do 
---------------------------------------------------------------------------
        So

    VBA headquarters does not ensure that experienced claims processors 
receive all required training. It is important for Federal agencies to 
have mechanisms in place to ensure their employees actually receive 
required training and we have reported in the past that tracking the 
actual receipt of required training calls for reliable data from a 
comprehensive learning management system.\10\ While each regional 
office is responsible for recording completed training hours for each 
claims processor in VA's Web-based Learning Management System (LMS), 
VBA officials told us that VBA headquarters did not use it to centrally 
monitor the specific types of training individual claims processors 
have completed. Based on our survey results, we found some claims 
processors did not receive training they should have. An estimated 24 
percent of all RVSRs with more than one year of experience, who should 
have received mandatory training on rating spinal, neck, and joint 
injuries, never did.\11\ To improve VBA headquarters' ability to 
systematically monitor regional office compliance with its annual 
training requirements, we recommended that it adopt procedures to 
routinely do so, including more fully utilizing its LMS to ensure that 
claims processors received required CTTR and ad hoc training on 
emerging issues. In their comments to our report, VBA noted that it had 
begun to use LMS to determine what percentage of claims processors at 
each office were meeting annual training requirements. However, it is 
not clear if they are tracking whether staff receive required CTTR 
training or ad hoc training on emerging issues such as the training on 
rating spinal, neck, and joint injuries.
---------------------------------------------------------------------------
    \10\ See GAO, Human Capital: A Guide for Assessing Strategic 
Training and Development Efforts in the Federal Government, GAO-04-546G 
(Washington, D.C.: March 2004).
    \11\ This training, delivered in September 2008, was undertaken to 
clarify requirements resulting from DeLuca v. Brown, 8 Vet. App. 202 
(1995), in which the court held that under Federal regulations defining 
joint and spine impairment severity in terms of limits on range of 
motion, VA claims adjudicators must consider whether range of motion is 
further limited by factors such as pain and fatigue during ``flare-
ups'' or following repetitive use of the impaired joint or spine.
---------------------------------------------------------------------------
    In addition, we found that VBA lacked controls to ensure that 
regional offices record completed training in a consistent manner. Each 
regional office has considerable discretion in determining what 
activities qualify as training and we noted that they were not all 
defining training consistently. For example, some regions counted the 
time claims processors spent reading ``Fast Letters'' as training while 
others did not. This raises questions about the reliability of the data 
that regional offices enter into the LMS. We recommended that VBA 
develop clear written guidance on the types of activities all regional 
offices should and should not count toward completion of annual 
training requirements. According to VBA, the agency is developing such 
criteria and expects to complete this process by September 30, 2010.
    VBA also has not systematically assessed the appropriateness or 
consistency of training regional offices provide to experienced claims 
processors. In prior work, we have noted that Federal agencies should 
have mechanisms in place to ensure that training for employees is 
appropriate and consistent.\12\ However, we found that VBA did little 
to determine if all regional offices provide training to experienced 
claims processors that (1) covers topics relevant to what they do; (2) 
helps them do their job; (3) is delivered in the most useful and 
efficient way; and (4) is provided when needed.
---------------------------------------------------------------------------
    \12\ See GAO-04-546G.
---------------------------------------------------------------------------
    In the past, VBA has evaluated some mandatory training to improve 
the consistency of ratings, assessed training for newly-hired claims 
processors, and solicited feedback from staff on TPSS. VBA officials 
told us that teams from VBA headquarters also periodically visit 
regional offices to monitor their compliance with VBA policies and 
procedures. Since July 2009, such visits have included a training 
specialist responsible for reviewing some aspects of training in the 
regional office, such as training records and materials, and whether 
new claims processors have completed the last phase of Challenge 
Training at their regional office. Although examining some aspects of 
training for claims processors during these visits may provide VBA with 
some information on the appropriateness and consistency of training, 
each office is only visited about once every three years.
    Finally, VBA has not yet systematically collected feedback from 
experienced claims processors on training received at the regional 
offices even though feedback from training participants, supervisors, 
instructors and other stakeholders can provide agencies with valuable 
information to assess the appropriateness and consistency of their 
training. VBA recently developed a training evaluation tool that all 
VSRs and RVSRs are required to complete, but only for CTTR courses. As 
a result, we recommended that VBA develop and implement a written 
strategy to systematically assess the appropriateness (content, mode 
and timing) of all training for experienced claims processors. Such a 
strategy should include a standardized approach for obtaining feedback 
from experienced claims processors and regional office managers and 
training coordinators. VBA says it is assessing the feasibility of 
requiring staff to complete an evaluation tool for all training and 
expects to complete this assessment by September 30, 2010.

Concluding Observations

    Veterans who have been injured in service to their country deserve 
accurate and timely disability determinations. VBA claims processors 
perform a vital role in helping the nation respond to the needs of 
these veterans. Through its training program for claims processors, VBA 
can ensure that they develop and maintain the skills required to do 
their job efficiently and well. However, VBA could do more to monitor 
the training received by experienced claims processors. VBA cannot be 
sure all staff are receiving the type of training the agency believes 
is essential for success on the job. Furthermore, there are questions 
about the reliability of the training data regional offices record in 
VA's LMS. VBA has indicated that they are developing criteria to define 
the types of activities that should and should not count toward meeting 
training requirements. However, it is yet to be seen if this will 
result in consistent reporting of what counts as training by regional 
offices.
    Furthermore, according to our survey, both experienced claims 
processors and their supervisors had a number of concerns regarding the 
training that experienced claims processors receive. Thus, it is 
important that VBA continue to explore options to assess the 
appropriateness of the training provided to staff.
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to respond to any questions that you or other Members of the 
Subcommittee may have. Thank you.

GAO Contact and Staff Acknowledgments

    For further information about this testimony, please contact Daniel 
Bertoni at (202) 512-7215 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="472522353328292e23072026286920283169">[email&#160;protected]</a> Contact points for our 
Offices of Congressional Relations and Public Affairs may be found on 
the last page of this testimony. In addition to the contact named 
above, key contributors to this statement include Clarita Mrena, Martin 
Scire, Regina Santucci and Susan Aschoff.

Related GAO Products

    Veterans' Disability Benefits: Expanded Oversight Would Improve 
Training for Experienced Claims Processors. GAO-10-445. Washington, 
D.C.: April 30, 2010.
    Veterans' Disability Benefits: Further Evaluation of Ongoing 
Initiatives Could Help Identify Effective Approaches for Improving 
Claims Processing. GAO-10-213. Washington, D.C.: January 29, 2010.
    Veterans' Disability Benefits: Preliminary Findings on Claims 
Processing Trends and Improvement Efforts. GAO-09-910T. Washington, 
D.C.: July 29, 2009.
    Veterans' Benefits: Increased Focus on Evaluation and 
Accountability Would Enhance Training and Performance Management for 
Claims Processors. GAO-08-561. Washington, D.C.: May 27, 2008.
    Veterans' Benefits: Improvements Needed in VA's Training and 
Performance Management Systems. GAO-08-1126T. Washington, D.C.: 
September 18, 2008.
    Veterans' Disability Benefits: Claims Processing Challenges 
Persist, while VA Continues to Take Steps to Address Them. GAO-08-473T. 
Washington, D.C.: February 14, 2008.
    Veterans' Benefits: VA Needs Plan for Assessing Consistency of 
Decisions. GAO-05-99. Washington, D.C.: November 19, 2004.
    Human Capital: A Guide for Assessing Strategic Training and 
Development Efforts in the Federal Government. GAO-04-546G. Washington, 
D.C.: March 2004.
    Veterans' Benefits: Improvements Needed in the Reporting and Use of 
Data on the Accuracy of Disability Claims Decisions. GAO-03-1045. 
Washington, D.C.: September 30, 2003.
    Veterans' Benefits: Training for Claims Processors Needs 
Evaluation. GAO-01-601. Washington, D.C.: May 31, 2001.

                                 <F-dash>
   Prepared Statement of Jimmy F. Sims, Jr., Rating Veterans Service
 Representative, Winston-Salem, NC, Regional Office, Veterans Benefits
  Administration, and Shop Steward, Local 1738, American Federation of
  Government Employees (AFL-CIO), and AFGE National Veterans Affairs 
                                Council

    Dear Chairman and Members of the Subcommittee:
    Thank you for the opportunity to testify on behalf of AFGE and the 
National VA Council regarding VBA training requirements for claims 
processing personnel. Training is an issue of paramount importance 
which has a direct impact on the VBA's ability to meet its operational 
goals and mission. Effective training is an essential component of any 
VBA effort to increase the timeliness, accuracy and consistency of 
claims processing. Ultimately, a weak training program for claims 
processing personnel is a disservice to veterans whose claims are 
determined with greater delay and less accuracy.
    Based on my experiences as a Rating Specialist and Shop Steward, 
and a participant in several joint labor management committees, I 
concur with GAO's findings in its April 2010 report of multiple 
deficiencies in VBA's mandatory training program for experienced claims 
processors. As discussed below, new employee training also suffers from 
shortcuts and quality gaps.

        I. Training for Experienced Claims Processors

    Consistent with GAO's findings, the mandatory annual training 
program at the Winston-Salem Regional Office (RO) is deficient in terms 
of the amount of training provided, content of the curriculum and 
timeliness.

Amount of Training Provided:

    Currently, it is very difficult for employees to receive their full 
85 hours of mandatory training, given the constant production pressures 
they face. VBA mandates 85 hours of annual training for all claims 
processing employees who have completed Challenge Training. Of these 85 
hours of mandatory training, 40 hours are devoted to Core Technical 
Training Requirement (CTTR) topics selected by VBA (covering 72 topics 
for Veterans Service Representatives (VSR) and 47 topics for Rating 
Specialists (RVSRs)) and 20 hours for topics selected by the Regional 
office (RO) from the CTTR topics. The remaining 25 hours are topics 
which the individual ROs elect to train on as well as ancillary 
administrative requirements such as cyber security and ethics. In some 
cases, training may also be provided at Team Meetings to cover issues 
that have been identified during a Veteran Service Center Manager 
conference call.

Curriculum Content:

    The GAO survey found that an average of 46 percent of employees 
experienced difficulties in completing this training. Based on my 
experience, I would dare say this percentage is actually greater and 
was merely under reported. Specifically when asked, a majority of 
employees at my office report concerns on achieving the mandatory 
training requirements when faced with increased workload and 
production.
    The current CTTR training which is mandated for Claims processors 
is often times too remedial, specifically it focuses on issues such as 
common law marriage for VSRs and building a glossary for RVSRs. The 
majority of this CTTR training is conducted via self directed written 
materials with no interaction with Subject Matter Experts (SME). The 
employee merely completes the review of the information and certifies 
through the Learning Management System (LMS) that the training was 
completed. When faced with the dilemma of completing the training or 
completing work to meet production requirements, employees feel 
compelled to complete the additional production.
    The RO based mandatory training program also fails to target 
specific complex issues which are necessary for claims processors to 
ensure accuracy of the work being produced. While continued training is 
necessary to ensure the effectiveness of the workforce, the need for 
training quality surpasses the quantity of training. The majority of 
the issues I was tasked with this year were items which were more 
appropriately identified for employees within the first two years of 
employment such as how to write a clear and concise rating decision and 
review of local quality findings, but omitting more complex issues such 
as evaluating demyelinating diseases and residuals of blast injuries.

Too little classroom training:

    Online training should not fully replace classroom training. 
Currently, the majority of Core Technical Training Requirements 
training is provided via self directed computer based materials with no 
interaction with Subject Matter Experts. This requires the claims 
processor to review, interpret and understand the material alone. 
Validation of this training is also completed through LMS self-
certification.
    Another troubling training shortcut is the use of emails to explain 
complex new concepts, in lieu of more detailed, effective instruction. 
AFGE members have reported that they have been asked to learn new 
concepts via email with only a fraction of the excluded time actually 
needed to effectively learn and accurately apply these training 
materials.

Quality of Instruction:

    This quality of training issue is further impacted by the limited 
formal training provided to instructors. GAO found that only one in 
four claims processors who participated in training had received formal 
instructor training. This is true at the VARO Winston-Salem, as merely 
being promoted to the Decision Review Officer or Super Senior VSR 
position automatically requires performance as instructors.
    Given the growing problem of inexperienced instructors to provide 
training to claims processing personnel, it is all the more urgent that 
instructors receive sufficient instructor development. Unfortunately, 
at my RO, there is no Instructor training for employees who are thrust 
into this position.

Timeliness of training:

    Timing of training is not adequate to meet the demands of the work 
performed. In some cases training has been delayed for months to years 
following significant changes, and in some cases, no training was 
received. This puts the claims processors, and veterans, at a 
substantial disadvantage. With the changes in the presumptive 
disabilities associated with Agent Orange exposure, VBA directed 
ischemic heart disease training. To date, this training has not 
occurred at my RO.
    Another example pertains to the change in the schedule for rating 
eye disabilities. That schedule was issued on February 13, 2009 but to 
date, no formal training has been conducted at my RO.

        II. New Employee Training

    Since 2005, VBA has increased staffing by over 4,000 new 
individuals to assist with the claims process. This enormous influx of 
new employees makes it all the more critical that VBA improve both its 
new employee training and ongoing training programs.
    New employees participate in VBA's Challenge Training, which 
consists of three phases. Phase 1 is based at the RO; for RVSRs the 
focus is on introducing the employee to aspects of claims processes and 
for VSRs, on the basics of the claims process and the programs 
utilized. Phase 2 is centralized classroom training which focuses more 
on the essential aspects of performing the assigned tasks.
    Phase 3 is more topic focused and conducted at the individual 
employee's station. Phase 3 involves working with live claims with half 
of the day focused on training and the other half focused on 
production. The bulk of new employee training is conducted during Phase 
3 at the individual's station based on centralized curriculum 
identified by VBA. (I am currently participating in a VBA Training Site 
Visit Team commissioned by the Undersecretary for Benefits that is 
focusing on implementation of and compliance with Phase 3 training; the 
work of this group is still in the early stages.)
    One of the most significant flaws in the Challenge Training program 
is the absence of any system to effectively monitor the completion of 
the two RO-based portions of the training (Phases 1 and 3). Prior to 
participation in Centralized Phase 2, employees are required to 
complete and certify that they have received specific training, but 
many participants are not able to do so. Similarly, when they return 
from centralized training, they are often unable to certify completion 
of Phase 3 training.
    As long as managers are under pressure to meet production quotas at 
all costs, they will rush new employees who have not been adequately 
trained into production. AFGE has received reports of new employees 
processing cases independently only six weeks after returning from 
Phase 2 classroom training. Managers exacerbate this by providing new 
employees with a limited range of easier cases, depriving them of 
valuable experience over the long run.
    AFGE members also report problems with the curriculum in Phase 2. 
First, time is wasted teaching them concepts that they already learned 
in Phase 1. Second, the curriculum includes live cases that are out of 
date, and therefore, have been decided incorrectly, yet they are still 
used for new employee instruction.
    Phase 3 training is designed to be instructor lead, and topic 
specific. The problem lies within the certification and validation of 
completion of the training. Too often, when new employees return to the 
RO for Phase 3 training, they get too little supervision or face to 
face training. Instead, they are left on their own to review complex 
materials. More generally, over the years, VBA has significantly 
reduced the amount of classroom training conducted at the ROs.
    It is also troubling that often the cases processed by new 
employees are not reviewed on a timely basis. AFGE members from other 
ROs report that senior employees are regularly taken off production to 
conduct these reviews and because of competing pressures, many new 
employees have to wait three to four months to find out if they are 
making accurate determinations.

Conclusion

    If the VA is to become a model 21st century agency, then this must 
begin at the base level with the training provided to the employees. 
The Agency must alter the mindset, and begin to focus on the quality of 
training, versus the quantity of training. Unless the agency is willing 
to invest the time and energy to meet the needs of the employees, the 
agency is doomed to fail in meeting our mission. AFGE offers the 
following recommendations to the Subcommittee:

        <bullet>  Establish performance measures and incentives to 
        ensure that managers avoid training shortcut in order to boost 
        production. I cannot recall a single instance of any VBA 
        manager who has ever been disciplined, demoted, or formally 
        reprimanded for failing to adequately train an employee.
        <bullet>  Commission a group of Subject Matter Experts, 
        including front line employees, veterans' groups and other 
        stakeholders, to review all current training programs and 
        provide recommendations for improvement. (The team recently 
        commission by the VBA Undersecretary is only reviewing Phase 3 
        of the Challenge training program).
        <bullet>  Develop a standardized plan to annually review and 
        update training topics to better reflect the trends in claims 
        processing.
        <bullet>  Establish an effective monitoring system for tracking 
        compliance with training. The current LMS certification program 
        is faulty as self certification does not validate completion.
        <bullet>  Develop clear guidelines on what should and should 
        not be credited toward training requirements. Frequently, 
        during team meetings at my RO, one issue is identified from a 
        recent Office of Field Operations or Veteran Service Center 
        Manager call and at the completion of the meeting, the 
        supervisor requires that the meeting be listed as training.

    Thank you.

                                 <F-dash>
            Prepared Statement of Jeffrey C. Hall, Assistant
       National Legislative Director, Disabled American Veterans

    Mr. Chairman and Members of the Subcommittee:
    On behalf of the 1.2 million members of the Disabled American 
Veterans (DAV), I am honored to appear before you today to discuss the 
effectiveness of the Department of Veterans Affairs (VA) training 
program for Veterans Benefits Administration (VBA) employees who 
process disability claims.
    In line with our congressional charter, DAV's mission to ``advance 
the interests, and work for the betterment, of all wounded, injured, 
and disabled American veterans'' is as vital today as it has been 
throughout our 90 year history. In line with our core values of 
``Service, Quality, Integrity and Leadership,'' I am pleased to offer 
DAV's views regarding VBA's training program and its role in helping to 
reform the benefits claims process.
    Although this is my first time testifying before Congress, it is 
not the first time that DAV has testified on the state of the VA 
benefits claims processing system. As my colleagues have stated 
countless times, but it bears repeating, the backlog of pending claims 
is not actually the problem; it is only a symptom of the larger 
problem: a broken veterans benefits claims processing system resulting 
in too many veterans waiting too long for decisions on claims for 
benefits that are too often decided incorrectly.
    Unfortunately, the tremendous attention paid to the backlog and the 
understandable tendency to focus only on the number of claims pending--
many estimates put it over 1 million in total--has led to an over-
emphasis on production to the detriment of quality and accuracy. 
However, simply finding ways to increase production will result in more 
claims being decided wrongly, which only leads to notices of 
disagreement, appeals, remands and more appeals, further clogging up 
the system and exacerbating the existing problems.
    The only sensible and long term to way to reform this system is to 
rebuild it in a way that focuses principally on getting claims done 
right the first time. This will require VBA to invest sufficient time 
and resources to build a new modern, paperless claims processing 
system. Although this path could potentially result in longer 
processing times during the transition and implementation of the new 
claims system, with proper training and quality control, processing 
times will shorten, error rates will drop, and the backlog will slowly 
but steadily decline and eventually disappear. We urge this 
Subcommittee to keep the pressure on VBA to stay true to this path and 
remain focused on quality and accuracy, not just the backlog.
    Mr. Chairman, over the past year, VBA has been moving in this 
direction, launching dozens of new initiatives and pilot programs that 
could help to modernize the claims process. The most important of these 
is the Veterans Benefits Management System (VBMS), the new IT system 
that will serve as the backbone of the VA claims process. VBA recently 
announced that the first pilot of the VBMS will take place at the 
Providence, Rhode Island Regional Office beginning this November.
    While we applaud the continuing progress of this essential IT 
system, and are pleased to see the first pilot is now scheduled, we 
continue to be disappointed that no veterans service organization (VSO) 
experts, nor any service officers from DAV or other VSOs, have been 
involved in the development of this system. Since more than half of all 
claims are represented by VSO service officers, we collectively offer a 
wealth of expertise that is essential to finding long term solutions, 
and we continue to stand ready to work with VBA in the further 
development of this system.
    VBA also has more than four dozen other pilots and initiatives 
ongoing at various regional offices around the country. To fully 
benefit from all this experimentation, VBA must develop and implement 
an effective plan to analyze the results so that they can synthesize 
the best practices into a new claims process. Most importantly, VBA 
must resist the temptation to focus on those initiatives that provide 
only short term production increases, rather than enhance accuracy and 
quality, which must be one of the cornerstones of a 21st century claims 
process.
    One of the other cornerstones is proper training of employees and 
managers involved in the processing of veterans claims for benefits. 
Having just come from the field after 17 years of working for DAV as a 
National Service Officer (NSO) and Supervisor in Louisville, Kentucky, 
Chicago, Illinois and New York City, I have seen firsthand many of the 
challenges facing VBA. I have been able to observe VBA's employees, 
learn about their training programs and hear from them what they 
believe works and what does not.
    Having also had the benefit of DAV's extensive and life-long 
training programs, I'd like to provide an overview of DAV's on-the-job 
training program for new NSOs, and especially the Structured and 
Continued Training (SCT) program that all NSO's must continue 
throughout their careers at DAV. In our view, no other organization 
places more emphasis on training and its vital role in quality and 
accountability than DAV. While VBA and DAV necessarily have different 
training programs designed to meet similar but distinct needs, we 
believe there are lessons that could be applied from the DAV training 
program which could strengthen VBA's training program, and ultimately 
the claims process.
    The training program in VBA is basically a three-stage system, 
which requires new Veterans Service Representatives (VSRs) and Rating 
Veterans Service Representatives (RVSRs) to complete orientation 
training at their respective VA Regional Office (VARO). Next, they 
participate in a two- to three-week centralized or ``Challenge'' 
training course at VA's training academy in Baltimore, Maryland, which 
provides a basic introduction to job responsibilities. When they return 
to their respective VARO, new VSRs and RVSRs spend several more months 
in training, which includes completing a required curriculum by way of 
online learning known as the Training and Performance Support System 
(TPSS), as well as on-the-job training and/or instructor-led classroom 
training. It is our understanding there are currently eleven training 
modules in the TPSS, each consisting of multiple sections, and each 
with some testing requirements. Subjects range from very general 
orientation to more in-depth subjects such as how to utilize VBAs 
computer-based programs, medical terminology, how to review and 
interpret medical evidence, as well as understanding and applying the 
law and regulations when evaluating evidence and rendering decisions.
    The assignment of supervised, individual case review is introduced 
later in the training program. While this initial training for new VSRs 
and RVSRs provides a sound core of knowledge, there seems to be 
imbalanced emphasis placed on production over training. DAV NSOs have 
been told by many VBA employees that meeting production goals is the 
primary focus, whereas training and quality is secondary. So, while we 
feel VBA's training program for new employees is sound, and while 
production is certainly important, productivity must not interfere with 
the training of new employees who are still learning their job.
    Once these individuals have successfully completed their initial 
training, they begin their on-the-job-training (OJT) phase, in which 
they will be moved into productive roles in developing and rating cases 
with supervision. They will continue this OJT phase with mentoring and 
supervision, slowly increasing the number and complexity of cases until 
they are assigned a full case load approximately two years from their 
hire date.
    From that point forward, they will have the same training 
requirements as all other experienced VSRs and RVSRs, which requires 
all employees to complete 80 hours of training annually, along with an 
additional 5 hours on VA's online Learning Management System (LMS) for 
cyber security and ethics. VBA's training is broken down to 40 hours of 
standardized training on VBA selected subjects and 40 hours of training 
on subjects selected by the VARO from the Core Technical Training 
Requirements (CTTR) and other subjects of their choosing.
    In 2008, Congressed approved Public Law 110-389, the ``Veterans' 
Benefits Improvement Act of 2008'', which required VBA to develop and 
implement a certification examination for claims processors and 
managers. Now codified, 38 U.S.C. Sec. 7732A states:

         (a) DEVELOPMENT OF CERTIFICATION EXAMINATION.--(1) The 
        Secretary shall provide for an examination of appropriate 
        employees and managers of the Veterans Benefits Administration 
        who are responsible for processing claims for compensation and 
        pension benefits under the laws administered by the Secretary.
         (2) In developing the examination required by paragraph (1), 
        the Secretary shall----
         (A) consult with appropriate individuals or entities, 
        including examination development experts, interested 
        stakeholders, and employee representatives; and
         (B) consider the data gathered and produced under section 
        7731(c)(3) of this title.
         (b) EMPLOYEE AND MANAGER REQUIREMENT.--The Secretary shall 
        require appropriate employees and managers of the Veterans 
        Benefits Administration who are responsible for processing 
        claims for compensation and pension benefits under the laws 
        administered by the Secretary to take the examination provided 
        under subsection (a).

    However, almost two years later, there are still gaps in the 
implementation of this section. While tests have been developed and 
piloted for VSRs and RVSRs, additional tests need to be developed and 
deployed for Decision Review Officers (DROs) and supervisory personnel. 
None of these certification tests are mandatory, nor are they done on a 
continuing basis. It is our understanding that only when employees seek 
to move up to the highest GS-level for their position are they required 
to take and pass a one-time certification test. If they take but fail 
the test, they can simply remain in their current position and GS 
level. Moreover, VBA has no remedial training programs for employees 
that fail certification tests, nor are they required to re-take the 
test to show that they have mastered the skills and knowledge required 
to do their job.
    The Government Accountability Office (GAO) recently conducted a 
study (GAO-10-445, April 2010) to determine the appropriateness of 
training for experienced claims processors and the adequacy of VBA's 
monitoring and assessment of such training. Of particular interest are 
the GAO findings that experienced claims processors' had concerns with 
the training received; specifically the hours, amount, helpfulness, 
methods and timing of training. Likewise, as the GAO report points out, 
there is very little done by VBA to ensure the required training is 
completed or to assess the adequacy and consistency of the training, 
nor is the VA's LMS being utilized to the fullest extent to properly 
ascertain the total number of VSRs and RVSRs who have met the annual 
training requirement. In fact, data received indicated a dismal outcome 
of only one (1) VARO meeting the annual training requirement and nine 
(9) other VARO's with less than half meeting the annual training 
requirement. It is simply unacceptable to have only one VARO meeting 
the simple requirement of ensuring that all employees complete 80 hours 
of training. VBA must place greater emphasis on training by 
implementing stricter monitoring mechanisms for all VAROs and ensure 
that they are held accountable for failure to meet this minimal 
standard.
    Mr. Chairman, when DAV speaks about training, we do not do so just 
as an interested stakeholder, but because DAV takes pride in the fact 
that we have the foremost training program and the largest National 
Service Officer program, representing almost 25 percent of all claims 
before VA. In 88 offices throughout the United States and in Puerto 
Rico, DAV employs a corps of approximately 250 NSOs who provide free 
representation to veterans and their families with claims for benefits 
from the VA, the Department of Defense and other government agencies. 
Last year alone, DAV NSOs worked tirelessly on behalf of nearly a 
quarter million veterans and their families in their claims before the 
VA, obtaining nearly $4.5 billion in new and retroactive benefits.
    DAV NSOs function as attorneys-in-fact, assisting veterans and 
their families in filing claims for VA disability compensation and 
pension; vocational rehabilitation and employment; education; home loan 
guaranty; life insurance; death benefits; health care and much more. 
Outside of the office, DAV NSOs provide free services, such as 
information seminars, counseling and community outreach. NSOs also 
represent veterans and active duty military personnel before Discharge 
Review Boards, Boards for Correction of Military Records, Physical 
Evaluation Boards and other official panels.
    The expertise required for the outstanding assistance provided by 
NSOs involves extensive training. It begins with a rigorous 16-month 
on-the-job training program, which provides the foundation for new 
trainees. Trainees are instructed by tenured supervisory NSOs with 
subject matter expertise. Throughout their training, progress and 
knowledge retention of the NSO is closely monitored through web-based 
testing and monthly evaluations. In addition to the training received 
in the office, NSO trainees must successfully complete academic 
instruction in Anatomy & Physiology, Medical Terminology, Composition 
and/or Legal Research & Writing, and Public Speaking, from an 
accredited college or university. The National Service staff at the 
National Service and Legislative Headquarters, administers and monitors 
the program, as well as the instructor's behavior and the progress of 
each NSO trainee.
    Due to the intensity of the training in the first four months, NSOs 
trainees are ready for an individual caseload in their fifth month and 
must pass a comprehensive web-based examination every four months on 
the topics covered from that given period; an all-inclusive web-based 
examination for the entire training period is administered at the 
conclusion of the 16th month.
    Beyond their initial training, all NSOs participate in a 
comprehensive SCT program designed to keep them up-to-date on changes 
to the laws and regulations affecting veterans' benefits. NSOs are 
required to pre-test and successfully complete 32 monthly training 
modules with post-testing on each.
    DAV training--which includes all NSOs, Supervisors and Area 
Supervisors--is separated into two books, one for Adjudication and 
Appeals, and the other for the Schedule for Rating Disabilities. Each 
book contains 16 modules and NSOs are required to complete the workbook 
research, questions, and case studies each month. Training utilizes 
multi-media resources and is administered through an instructor-led 
classroom environment and individual workbooks.
    At the end of each month, NSOs must successfully pass web-based 
testing in order to move forward in training. At the end of the 16 
months a comprehensive 160 question web-based test must be passed in 
order to move forward to the second 16-month training period, which is 
delivered in the same manner as the first 16-month period. Once an 
individual successfully completes the entire 32 months of training, not 
only have NSOs gained a wealth of knowledge and become more proficient 
in their duties, they earn 12 college credits provided through the 
American Council on Education (ACE), which provides additional 
incentive for successful completion. DAV is the only veterans service 
organization to have a training program certified for college credit by 
ACE.
    DAV's SCT is ongoing and it will continue throughout an 
individual's career at DAV. When an NSO completes the entire SCT 
program a new training cycle begins again, but with changes, updates 
and new information provided by DAV's national training staff. For 
example, an experienced NSO with 15 years of service will have 
completed the SCT training four times.
    DAV's SCT program is effective because it provides in-depth review 
of laws, regulations, VA M-21 and similar manuals, VA Fast Letters, 
Board of Veterans' Appeals practices, as well as opinions of the VA 
Office of the General Council and holdings from the U.S. Court of 
Appeals for Veterans Claims. Moreover, the DAV SCT program delves 
deeply into the VA Schedule for Rating Disabilities (VASRD) by 
providing a meticulous breakdown of each anatomical system and 
correlating diagnostic codes and ratings. When dealing with the 
complexities of the VASRD, the SCTs accompanying CD-ROM collection, 
Special Monthly Compensation ``slide rule'' and case studies prove to 
be extremely useful throughout the NSOs career. In fact, there are many 
outside DAV who have benefited from our SCT program; this includes 
other VSOs and VA employees, as well as DoD Physical Evaluation Board 
members, who have utilized our SCT materials to enhance their 
knowledge.

DAV Recommendations for VBA's Continuing Training Program

    Training Should Be Conducted at Regularly Scheduled Intervals in a 
Structured Format

    VBA's failure to meet the hourly training requirements for its 
employees can be corrected by requiring greater structure to the 
training program with regularly scheduled training. Adequate time for 
training must be allowed in order for the employee to gain the maximum 
benefit of the training and improve their overall knowledge and skill. 
In order to accomplish this, VBA managers must ensure scheduled time 
for training is in place and that employees attend training. VBA's 
annual training should be structured and scheduled with consistency so 
employees can plan and prepare for training.
    Although training time for employees is excluded from the 
calculation of their workload requirements and performance standards, 
it is clear that the pressure to produce creates disincentives for 
fully completing training. In GAO's survey for their report on 
training, 60 percent of experienced claims processors found it 
``difficult'' to meet their annual training requirement due to their 
workload. VBA must find new ways to separate out time and space for 
employees to assist them in meeting their training requirements.

    VBA Should Significantly Increase the Total Annual Hour Requirement 
for Continuing Training for All Employees

    Given the complexities and duties of VSRs and RVSRs, more extensive 
training is necessary in order to gain the appropriate level of 
knowledge and skill to perform those duties with quality and accuracy. 
DAVs SCT training program is continuously ongoing and provides a 
constant learning environment for NSOs. Although NSOs are trained on 
virtually the same subjects as VSRs and RVSRs, NSOs are required to 
successfully complete 32 months of training about every three years, or 
approximately 400 hours a year, nearly five times the amount of 
training provided to VA claims processors. DAV also provides additional 
training on new and emerging issues that is outside the curriculum of 
the SCT training program, whereas VBA counts it as part of the 80-hour 
requirement. Annual training should not include emerging topics; this 
type of training should be provided separately and should vary each 
year depending on the number and complexity of the new and emerging 
issues.
    We are not suggesting VBA match hour-for-hour DAV's training 
program, nor adopt the content verbatim. However, it is not possible 
for a claims processor to achieve the required proficiency level 
without significantly increasing the amount and intensity of training 
currently provided by VBA.

    All VBA Employees, Coaches and Managers Must Undergo Regular 
Testing to Measure Job Skills and Knowledge, as Well as the 
Effectiveness of the Training

    Mandatory, regular and continuing testing programs for all VBA 
employees, supervisors and managers would serve several related 
purposes:

        <bullet>  It could be used to measure the proficiency and 
        knowledge required for promotion or be used as a factor in 
        determining other incentives.
        <bullet>  It could be used to identify subject matters or 
        competencies that need required additional training of the 
        test-taker.
        <bullet>  It could help evaluate the effectiveness of the 
        training programs; and
        <bullet>  It could help identify weaknesses in the claims 
        process that may require systemic improvements.

    VSRs and RVSRs are currently required to complete 80 hours of 
annual training, but there is no testing to measure whether the 
material was understood or is being retained. Attendance is the main 
instrument used to verify if training is being completed, and even in 
that minimal measure VBA is failing miserably.
    VBA has begun administering certification examinations for some 
employees; however, the examination is primarily being used for grade 
level increases, not for proficiency purposes. For example, if a VSR 
desires to elevate their grade level from a 10 to 11, they must pass a 
certification examination; however, they may opt out of the examination 
and remain at their current level. Conversely, if that same VSR fails 
the certification examination, there is no penalty and they may remain 
in their current position. A VBA employee also told DAV that a VSR 
``work around'' to avoid taking a certification examination for a grade 
level increase would be for a VSR to apply for an RVSR position; if 
selected, the individual could be elevated from a grade level 10 to 
grade level 11 without the requirement of a certification examination.
    By comparison, DAV NSOs engaged in the SCT program are trained and 
tested each month, concluding with a comprehensive 160 question web-
based test at the end of the SCT program. Likewise, NSO supervisors 
have the flexibility to implement additional testing, which is often 
the case depending on the complexity of the SCT material, or with 
emerging topics, such as a particular CAVC case or VA Fast Letter.
    DAV takes our commitment to disabled veterans, their families and 
survivors very seriously; and in order to provide competent, proficient 
representation, training is vital. Our goal is to deliver the most 
relevant material and information to an individual, monitor their 
progress through testing, and hold managers and NSOs accountable for 
completing the training, while increasing their competency and 
proficiency to perform their duties. We believe there is absolutely no 
way for VBA to accurately assess its training or measure an 
individual's knowledge, understanding or retention of the training 
material without regular testing. It is important, however, that all 
testing and certification be applied equally to both employees and to 
the people who supervise and manage them.

    VBA Must Aggregate the Results of All Employee Testing, Coaches 
Reviews, Quality Assurance and Quality Control Programs and Regularly 
Analyze This Data to Develop New Training Curriculum and Claims Process 
Improvements

    Training and quality control are interrelated and should be part of 
a continuous improvement program, both for employees and for the claims 
process itself. Quality control programs should identify areas and 
subjects that require new or additional training for VBA's employees; 
better training programs for employees and managers should improve the 
overall quality of VBA's work.
    VBA has mountains of data about the quality and accuracy of work 
performed under the current system that comes from the Systematic 
Technical Accuracy Review (STAR) program, ``coaches'' reviews of 
employees, Inter-Rater Reliability (IRR) reviews and employee 
certification testing. However, there is currently no process or system 
that is capable of aggregating or analyzing this data to spot error 
trends or breakdowns in the claims process that need improvement or 
additional training of employees or managers. The new VBMS system 
should include the capability to aggregate and analyze the data from 
the results of all employee and manager training, testing, IRR, STAR 
and Coaches reviews. Such analysis can then be used to modify training 
programs and the claims process itself to reduce errors.

    Training Must Be a Shared Responsibility of Both VBA Employees and 
Managers, and VBA Must Provide Accountability and Incentives for 
Successfully Completing Training

    Successful completion of training must be an absolute requirement 
for every VARO and must be a shared responsibility of both employees 
and management. Managers must be held responsible for ensuring that 
training is offered and completed by all of their employees. However it 
is also the responsibility, as well as part of the performance 
standard, for employees to complete their training requirements. 
Managers must provide employees with the time to take training and 
employees must fully and faithfully complete their training as offered. 
Neither should be able or pressured to just ``check the box'' when it 
comes to training.
    Training is essential to the professional development of an 
individual and tied directly to the quality of work they produce, as 
well as the quantity they can accurately produce. In fact, a senior VA 
official recently told DAV that new employees who just completed 
training were receiving some of the highest marks for quality and 
accuracy. One explanation is that new employees are more accountable 
for the quality of their work because they are more closely reviewed, 
have recently been trained and are up-to-date on the latest 
information.
    Mr. Chairman, DAV believes wholeheartedly in the vital role of 
training and the primacy of quality over quantity. We believe the only 
way that VBA can make any tangible and lasting gains towards decreasing 
the backlog will be by producing better quality decisions the first 
time. As we have said over and over again, the claims backlog is not 
the problem; rather it is a symptom of a much larger problem: the 
failure to accurately process claims. One of the keys to solving this 
problem is training. VBA must undergo a cultural change that focuses on 
the accountability of managers and employees to ensure the training is 
being accomplished on time and with consistency.
    At DAV, accountability for training and quality is present at every 
level and tied directly to performance reviews and monetary increases 
of employees as well as supervisors and managers. VA must infuse the 
same level of accountability within its VAROs, and they will be most 
successful if they adopt a ``carrot and stick'' approach which can be 
done both through performance standards (``the stick'') and by linking 
training requirements to advancement, bonuses and awards (``the 
carrot''). This simple change could be a catalyst to producing better 
quality decisions for veterans and their families. We urge VBA to be 
firm in holding managers and employees to a much higher level of 
accountability in ensuring that training requirements are being met.
    Mr. Chairman, that concludes my testimony and I would be happy to 
respond to any questions the Committee may have.

                                 <F-dash>
            Prepared Statement of Meg Bartley, Esq., Senior
        Staff Attorney, National Veterans Legal Services Program

    Chairman Hall, Ranking Member Buyer, and Members of the 
Subcommittee, I am honored to provide this testimony on behalf of the 
National Veterans Legal Services Program (NVLSP).
    NVLSP is a nonprofit veterans service organization founded in 1980 
that has been assisting veterans and their advocates for thirty years. 
We publish numerous advocacy materials, recruit and train volunteer 
attorneys, train service officers from such veterans service 
organizations as The American Legion and Military Order of the Purple 
Heart in veterans benefits law, and conduct quality reviews of the VA 
regional offices on behalf of The American Legion. NVLSP also 
represents veterans and their families on claims for veterans benefits 
before VA, the U.S. Court of Appeals for Veterans Claims (CAVC), and 
other Federal courts.
    Our testimony is primarily based on reviews of over a thousand VA 
regional office decisions during our work with The American Legion 
(Legion), for whom we conduct quality reviews of VA regional offices. 
We have also spoken with current and former VA employees, including a 
former senior VA manager who is now working as a service officer, and 
with other veterans service officers. We also speak from the benefit of 
having reviewed hundreds of VA claims files in connection with our 
representation of veterans and their survivors at the Board and the 
Court.
    We acknowledge that there are many generally equally effective ways 
to train VA adjudicators. Our intent is not to micromanage the Veterans 
Benefits Administration (VBA) but to provide the subcommittee with 
information and ideas concerning the training of VA's Claims Processing 
personnel, so that those responsible for making decisions on benefit 
claims learn to take appropriate actions to develop claims and make 
legally correct and fair decisions, resolving all reasonable doubt in 
favor of the veteran or claimant as required by law.
    Our suggestions as to training are as follows:

        <bullet>  First, many VA errors may be caused by the perceived 
        need to adjudicate quickly and not by lack of knowledge on the 
        part of raters. Investing taxpayer money in better VA training 
        programs may be a waste if VA management continues to 
        overemphasize production over quality.
        <bullet>  Second, well-trained first-line supervisors are 
        needed throughout the system. When immediate supervisors don't 
        have sufficient technical experience and cannot answer the 
        questions of those they supervise, the quality of decisions 
        declines.
        <bullet>  Third, the VA should make better use of decision 
        review officers' (DRO) experience to identify widespread 
        problems and poorly-trained employees.
        <bullet>  Fourth, the VBA must develop and use a package of 
        trainings targeted to end the VA's most common error patterns. 
        There should be proactive interaction between management and 
        staff regarding these error patterns that are repeated over and 
        over in case after case.
        <bullet>  Fifth, the VA must change the anti-training attitude 
        of some VA managers.
        <bullet>  Finally, training modules should be retrofitted and 
        tailored to the experience level of the trainee.

        1. Many VA Errors May Not Be Caused by a Lack of Effective 
        Training But by VA Management's Overemphasis on Production

    We acknowledge that the VA is faced with a very difficult task. 
Obviously, good training is essential if the VA wishes to produce a 
quality product. However, our experience is that many VA errors seem to 
be caused by the perceived need to adjudicate claims quickly and not by 
an actual lack of knowledge. For example, one common VA error is that 
conditions that appear to be secondary to service-connected type 2 
diabetes are often not caught and rated. It is difficult to believe 
that most VA raters do not know that diabetes can cause these common 
secondary conditions. It is the opinion of NVLSP that because the extra 
work that is required to generate a decision on secondary service 
connection might not receive work credit, secondary service connection 
issues remain unadjudicated.

        2. Immediate Supervisors Should Have Technical Expertise

    Immediate supervisors should have sufficient technical experience 
to answer the questions of employees they supervise. For example, a 
rater who inquires whether a VA examination is required in a particular 
case should be able to rely on the knowledge and guidance of their 
supervisor as to whether a VA exam is warranted. The supervisor should 
be able to answer that question. If not, the rater may begin to believe 
that technical expertise is unimportant, to cut corners, and to make 
his or her decisions without adequate knowledge and direct supervision.

        3. Use DROs To Identify Problem Areas and Poorly-Trained 
        Employees

    There were originally two reasons for the DRO program. First, the 
program was designed to give veterans de novo review and hopefully 
reduce the number of appeals. Second, DROs were to identify problem 
areas among decision makers and to identify poorly-trained employees. 
This second reason for the DRO program could be a very effective 
training tool. However, in the experience of NVLSP, in some ROs the DRO 
knowledge base is not being used consistent with this original 
objective. When a DRO decides upon de novo review to grant the benefit, 
the DRO should be required or encouraged to use their special skills 
and knowledge to explain their thought process to the rater so that 
this type of error does not recur. These errors can be discussed in 
trainings so that raters learn from DROS and DRO decisions and begin to 
gain the knowledge base that sets DROs apart from and ahead of other VA 
decision-makers.

        4. Identify Major Error Patterns and Generate Interactive 
        Trainings To End These Error Patterns

    There should be strong and focused interaction between management 
and staff regarding error patterns that are repeated over and over in 
case after case. The VBA must develop and use a package of trainings 
targeted to put an end to common error patterns. This is absolutely 
crucial--these errors ``muck up'' the VA adjudication system for years 
on end, often require multiple appeals and multiple remands, waste 
thousands of tax dollars, and frustrate many deserving veterans up 
until the day of their death.
    As the members of this subcommittee are aware, many veterans die 
with their claims for VA benefits not finally decided. In many cases, 
this occurs because the VA has failed to stem a tide of relatively 
simple development errors. It has failed to properly identify these 
errors and properly train employees to vigilantly guard against these 
errors. For example, the VBA's Office of Performance Analysis and 
Integrity releases data compiled from VACOLS regarding the reasons for 
remand of claims from the BVA to the ROs or the AMC. Figures from the 
first quarter of FY 2010 show that about 3,200 claims were remanded 
because of problems with a VA medical examination or opinion; over 
2,300 claims were remanded because the ROs failed to obtain all VA 
medical records relevant to the appealed case; and over 1,100 claims 
were remanded because a VA examination was not provided where 
warranted. These cases all involve a premature decision--``premature'' 
meaning ``occurring before a state of readiness or maturity has 
arrived.'' As noted earlier, this problem with ``premature'' VA 
decisions may be partially caused by VA management's overemphasis on 
production numbers--but whatever the cause, VA employees should be 
trained to recognize and combat these errors.
    In addition to the above errors, some of the major errors 
identified by Legion quality review teams and review of files on appeal 
include the failure to consider conditions secondary to type 2 diabetes 
mellitus, the under-evaluation of mental disabilities, and the failure 
to consider claims that should have been inferred. Testimony from other 
veterans service organizations point out many methods that VBA can use 
to compile a comprehensive list of common errors. As noted earlier, 
some of these common errors may be caused by the VA's emphasis on 
production and work credit over quality. Some may be caused by the 
rater's or DROs' lack of understanding of legal requirements. In 
particular, we find the large number of claims involving the under-
evaluation of mental disabilities striking and suggest that any list of 
common errors include the under-evaluation of mental conditions.

        5. Change the Anti-Training Attitude of Some Managers

    Some VA managers see training requirements as just one more 
impediment to meeting production numbers. These managers are not anti-
training so much as they are pro-production. Their perception is that 
it is preferable to meet production goals than to take training 
requirements seriously. Unfortunately, the attitude of such managers 
could defeat even the most ambitious, perfect, and comprehensive 
program of education and training. The cure for this problem attitude 
has little to do with improving training. Instead, the VA management 
must change its overemphasis on work credit and production and give 
equal emphasis to quality, full development of evidence, and resolving 
all reasonable doubt in favor of the veteran or claimant as required by 
law.

        6. Tailor Trainings to the Experience Level of the Trainees

    A Government Accountability Office Report first released in April 
2010 and revised in September 2010 recommended that the VA ``develop 
and implement a written strategy for routinely assessing the 
appropriateness of the training regional offices provide to experienced 
claims processors.'' In its comments, the VA generally concurred with 
GAO's conclusions and concurred with all of GAO's recommendations. It 
goes without saying that trainees should receive training that is 
commensurate to their level of experience, and we encourage the 
subcommittee to ensure strong oversight of this area.
    We are particularly concerned that the more experienced claims 
processors continue to receive training at a level appropriate to their 
expert knowledge, skills and abilities. With nearly one-half of the VA 
workforce having less than three years of experience, providing high-
level training to experts might easily fall by the wayside. Those with 
considerable expertise are perhaps the most valuable VA employees 
because due to this expertise many veterans enjoy the benefit of quick 
and correct decisions on their benefit claims. To prevent these more 
experienced claims processors from gaining even greater knowledge would 
be shameful. To allow them to stagnate or lose their edge due to 
deficiencies in the training system would also be shameful. Therefore, 
we encourage the subcommittee to ensure supervision and oversight in 
this area.
    I appreciate the opportunity to provide the Subcommittee with this 
testimony and stand ready to answer any questions the members may have. 
Thank you.

                                 <F-dash>
             Prepared Statement of David E. Hunter, Ph.D.,
        Assistant Director, Cost Analysis and Research Division,
                  Institute for Defense Analyses (IDA)

    Mr. Chairman and Members of the Subcommittee, I am pleased to come 
before you today to discuss IDA's Assessment of Claims Adjudication 
Personnel Requirements, a study we performed for the Veterans Benefits 
Administration (VBA) in 2009.
    In November 2008, as a result of the Veterans Benefits Improvement 
Act of 2008, the VA asked IDA to conduct an assessment of the current 
personnel requirements of the VBA. The study is described in Section 
104.b.2 of the Act as follows:

         An assessment of the current personnel requirements of the 
        Veterans Benefits Administration, including an assessment of 
        the adequacy of the number of personnel assigned to each 
        regional office of the Administration for each type of claim 
        adjudication position.

    Given the topic of today's hearing, it is important to note that 
the focus of our study was personnel requirements for VBA claims 
adjudication positions. IDA was not asked to analyze the adequacy of 
training requirements, nor did it do so. We did not make any 
recommendations regarding training. We did find that requirements for 
training are an important factor in determining the VBA claims 
processing capacity, however, as the balance of my testimony will 
discuss.
    My testimony today will describe the relevant results of the study, 
with particular attention to the effect of the training requirements on 
the VBA claims processing capacity. The results of our study, in 
entirety, have been documented in IDA paper P-4471.
    Our study considers the inventory of pending claims in the rating 
bundle. (The ``rating bundle'' is composed of all disability 
compensation and pension claims, and other claims that involve a rating 
decision.) The future pending inventory will primarily be driven by two 
top-level considerations:

        <bullet>  The VBA's claims processing capacity; and
        <bullet>  The number of new claims received each year.

    Of these, the number of claims adjudication personnel will affect 
only the VBA's capacity to process claims.
    The three types of employees directly involved in claims 
adjudication are:

        <bullet>  Veterans Service Representatives (VSR),
        <bullet>  Rating Veterans Service Representatives (RVSR), and
        <bullet>  Decision Review Officers (DRO).

    VSRs assemble the documentation submitted in support of claims in 
the rating bundle and process claims that do not require a rating 
decision; RVSRs evaluate and issue decisions on rating claims; and DROs 
process veterans' appeals of VBA decisions, among other 
responsibilities.
    Figure 1 shows levels of VBA claims adjudication personnel by type 
from FY 2000 to FY 2008. As the chart indicates, VBA personnel levels 
have grown since FY 2006, after remaining essentially flat from the end 
of FY 2002 to FY 2006.

Figure 1. VBA Claims Adjudication Personnel by Type, FY 2000-FY 2008

[GRAPHIC] [TIFF OMITTED] T1756.001


    The graph shows that VSR levels started to increase at the end of 
FY 2005, while RVSR levels started to increase during FY 2007. DRO 
levels increased only slightly over this time period.
    Claims in the rating bundle typically require actions from both 
VSRs and RVSRs. DROs are primarily responsible for appeals. Our 
analysis shows that there are sufficient VSR resources available, and 
that, for the rating bundle, VBA claims processing capacity currently 
is and for the next several years will be limited by the number of 
RVSRs.
    We developed a model of the VBA's claims processing capacity. We 
took into account, among other factors, the number and experience level 
of claims adjudication personnel, particularly RVSRs.
    Newly hired RVSRs are not as effective as fully trained RVSRs. They 
spend a significant portion of their time in the classroom and engaged 
in on-the-job training, and they are generally less proficient in the 
performance of their tasks. Based on typical production goals used at 
the regional offices, we calculated effectiveness levels for less than 
fully trained RVSRs. Nationally, the minimum daily quota for fully 
effective RVSRs is 3.5 weighted claims, although some regional offices 
have set higher production quotas. (A ``weighted claim'' is a metric 
created by the VA to account for varying difficulty levels among 
claims.)
    Table 1 shows our estimates for employee effectiveness by 
experience level. We used these values to calculate the number of fully 
trained equivalent personnel, which we called Effective RVSRs.


                     Table 1. RVSR Training Factors
------------------------------------------------------------------------
                                                         Equivalent
      RVSR Experience           Production Goal         Effectiveness
------------------------------------------------------------------------
               0-6 months                0.0/3.5                    0%
------------------------------------------------------------------------
              7-12 months                1.0/3.5                   29%
------------------------------------------------------------------------
                1-2 years                2.2/3.5                   63%
------------------------------------------------------------------------
                 2+ years                3.5/3.5                  100%
------------------------------------------------------------------------


    The results provided in our report were based on actual VBA 
employment figures through April 2009 and used the VBA FY 2009 hiring 
plan for May 2009 through September 2009. We note that the VBA added 
over 600 RVSRs from the beginning of FY 2008 through April 2009, the 
last month for which we had actual employment levels.
    Our study forecasts future levels of fully trained equivalent 
personnel under various hiring policies. The case presented in Figure 2 
is a no-growth case, with future hiring limited to replacing attrition 
starting in October 2009.
    As this figure shows, even with no additional growth in the total 
number of employees after September 2009, the number of Effective RVSRs 
continues to grow in the near term due to the increasing productivity 
of the recently hired personnel as they gain experience over time. We 
estimated that the number of Effective RVSRs would grow by 29 percent 
from September 2009 levels without any additional hiring.

Figure 2. Total and Effective RVSRs

[GRAPHIC] [TIFF OMITTED] T1756.002


    There is a direct relationship between the number of adjudication 
personnel and the number of completed claims. Increases in completed 
claims do not necessarily translate into a decline in the pending 
inventory, however, because pending inventory is influenced by both 
completed and received claims. This point is not just of hypothetical 
importance.
    Figure 3 presents historical data on received, completed, and 
pending claims. In FY 2008, completed rating claims exceeded received 
rating claims for the first time since FY 2003. The result was that the 
number of pending rating claims, which had increased during the 
preceding several years, decreased slightly in FY 2008.

Figure 3. Received, Completed, and Pending Rating Claims, FY 2000-FY 
        2008

        [GRAPHIC] [TIFF OMITTED] T1756.003
        

    Unfortunately, this trend in pending claims did not continue. Our 
study accurately forecasted that completed claims would increase 
further in FY 2009 and FY 2010 as the RVSRs hired in FY 2007 and FY 
2008 became fully effective. Claims received, however, increased even 
more rapidly, and hence pending claims increased even while VBA 
capacity increased.
    The number of received claims is difficult to predict and can 
change drastically from year to year due to changes both in statute and 
in veterans' propensity to file claims. Any substantive changes from 
historically observed behavior will naturally have direct effects on 
the requirements for VBA claims adjudication personnel.
    Mr. Chairman and Members of the Subcommittee, that concludes my 
remarks. I would be happy to answer any questions.

                                 <F-dash>
       Prepared Statement of Ian C. de Planque, Deputy Director,
    Veterans Affairs and Rehabilitation Commission, American Legion

    Mr. Chairman and Members of the Subcommittee:
    I appreciate this opportunity to express the views of the 2.5 
million members of The American Legion on the current state of training 
at the Veterans Benefits Administration (VBA) of the Department of 
Veterans Affairs (VA). Training is one of the most important aspects of 
any plan for improvement in the VA at this time, especially in light of 
the fact that nearly half the VA workforce has less than three years of 
experience on the job. If VA is to achieve Secretary Shinseki's stated 
goal of ``no claims pending longer than 125 days and an accuracy rate 
of 98%'' then training is going to be one of the most important tools 
to achieve that promise. If accuracy is to increase, and The American 
Legion strongly believes that this component is essential to any reform 
of VA, then the training must improve to bolster the workforce that has 
grown so dramatically in recent years.
    The American Legion has examined this problem through direct, 
firsthand action in the Regional Offices (ROs), as a component of our 
Quality Review visits of those Regional Offices. Furthermore, the 
studies of the Government Accountability Office (GAO) in August of this 
year, and others, have provided further insight that identifies some of 
the problems faced by VA's training system as currently implemented.
    In our Quality Review visits, as in our System Worth Saving visits 
of the health care system, The American Legion has encountered one of 
the greatest problems facing VA today--inconsistency. Simply put, 
regardless of the intentions of Central Office, how programs are 
implemented varies widely from region to region. Each individual RO 
functions more like a semi-autonomous fiefdom, and little consistency 
is apparent among the ROs as a whole.
    This need for better oversight was confirmed not only by our in-
person site visits, but also in the findings of a GAO report entitled 
``Veterans' Disability Benefits: Expanded Oversight Would Improve 
Training for Experienced Claims Processors'' published just last month. 
That testimony paints a picture of a ``one size fits all'' training 
program that fails to meet the needs of more experienced processors. If 
a reason were to be assigned to why the program is not meeting the 
needs for this group of claims processors, The American Legion would 
suggest that these needs are actually being met in offices where 
training is a priority, and seriously addressed by those responsible to 
make the training work. In other offices, where the training is planned 
by individuals seeking merely to ``check a box,'' then the training 
suffers and is poorly tailored to the needs of the employees. Again, 
this all stems from inconsistent implementation within ROs that vary in 
quality far too much from region to region.
    Training is seldom viewed as a priority. All too often it falls far 
behind the driving goal behind the majority of VA operations--the 
endless march towards reaching production requirements. VA is so driven 
by the need to churn out numbers by a dysfunctional work credit system, 
that the time needed for training is simply not available. When faced 
with the choices of not meeting production numbers and not adequately 
meeting the training hour requirements, time and time again we see that 
the individual offices choose to ensure that production numbers do not 
drop. The vast majority of VA employees interviewed by The American 
Legion over the past decade in Quality Review visits have continually 
reinforced the frustration that meeting production numbers is the 
single greatest factor in determining how they are able to do their 
jobs.
    Clearly, if VA is to adequately bring online their new and 
inexperienced workforce in a manner that will enable them to process 
claims without common errors, then training to eliminate those errors 
must be an essential component of that plan. These simple, procedural 
errors keep claims bouncing around the system through the appeals and 
remand process; they must change this attitude to reflect a commitment 
to appropriate and targeted training. Furthermore, they must ensure 
that regardless of how strongly this new commitment is expressed by 
Central Office, that implementation is enforced in the Regional 
Offices. VA must strive to improve consistency and oversight to make 
sure that their aims are being implemented equally from coast to coast.
    GAO indicated that claims processors may not be getting the 
training they need, even when they do receive training. Common 
complaints included too little training on some topics, too much on 
other topics. Specific topics such as Special Monthly Compensation 
(SMC) where not enough training was received and Records Management as 
a topic on which they received far too much training were identified. 
The American Legion has found in our Quality Review visits that often 
times the training is repetitive, dealing with the same topics year in 
and year out, with little helpful additions. Simply put, the training 
they are receiving does not match the target areas that are actually 
needed. But how is VA to identify what areas are really needed by their 
employees.
    The American Legion has previously testified that there is a 
mechanism already existing and waiting to be harnessed to just this 
end. Annually, VA conducts their internal STAR review to identify 
accuracy issues with individual work and identify problems that need to 
be addressed by employees when they process claims incorrectly. 
Furthermore, every day the Board of Veterans Appeals (BVA), the Court 
of Appeals for Veterans Claims (CAVC) and the Appeals Management Center 
(AMC) return hundreds of cases to lower jurisdictions after identifying 
errors in the lower level of processing. This could even be said for 
Decision Review Officer (DRO) examination of appeals, a process wherein 
the most experienced claims workers in the ROs may review a veteran's 
claim when that veteran elects to appeal the decision made on the 
original claim. These decisions are made by better trained and more 
experienced personnel, and can be a great tool in identifying common 
errors.
    VA could collect the aggregate data from STAR review, remands, and 
overturned decisions of the higher authorities, compile them into 
analytical reports, identifying common errors and trends would become 
apparent; training programs could be implemented specifically targeting 
the areas of greatest need.
    For example, American Legion sampling of cases in Quality Review 
visits indicates VA is having a problem rating mental health claims 
consistently. This could be identified and turned into a training 
program to increase consistency in these ratings. If VA is churning out 
improper exams, or exams that inadequately address the proper 
provisions for repetitive movement or other factors, then remedial 
training on these exams would be necessary.
    This could even be targeted to the regional level. Consistency 
across regions does not have to mean the exact same training in each 
office. However, each office has a robust plan that is targeting their 
individual deficiencies and working to raise their accuracy rate. There 
is a gold mine of data on the common errors available, and VA would be 
foolish to ignore this valuable research tool to develop their training 
plans on both a national and regional level.
    Finally, it would be premature to discuss whether or not the 
current 80-85 hours of required training is meeting the needs of the 
employees, when it is being inconsistently implemented among the 
regional offices. You cannot determine if 80, or 85, or 45 hours is the 
``right'' amount of training until you can determine that it is 
consistently implemented as the right kind of training.
    This falls victim to the same fallacy that drives VA's production 
goals. By evaluating success or failure solely on the ability to meet a 
numerical benchmark, you fail to evaluate whether the quality component 
is being met. VA needs a better mechanism. Simply punching a card for 
80 hours of the same, lackluster and undirected training no better 
serves the veterans of America than processing 4 claims a day with 
little regard to whether or not they are done properly. Again, the 
quality of the training must be of equal import to the quantity of 
training.
    It is essential to develop real benchmarks that illustrate not only 
where VA is complying with the minimum number of hours of training 
required, but also that this training is addressing the deficiencies in 
knowledge and expertise so that it raises the skill level of the 
workforce.
    In summation, VA must implement a training program that is 
universally consistent regardless of region, is targeted to areas of 
need identified by common errors denoted in collected data from VA's 
various internal mechanism for identifying mistakes and inaccuracy, and 
finally evaluates the worth of the training not with mere numerical 
benchmarks, but also accurately assesses and affirms that the overall 
knowledge base of the employees is growing and that they are becoming 
more proficient and adept at their jobs.
    As previously stated, this is one of the most inexperienced 
workforces that VA has ever fielded. Congress has admirably provided VA 
with the resources to grow their workforce to meet the needs of a 
caseload volume that exceeds a million new cases a year. Patience must 
exist to some extent as new employees come up to speed. However, these 
new employees, nearly a full half of VA's workforce, could not 
underline the need for effective and robust training more clearly.
    VA is building the core of their 21st Century operational structure 
in this workforce and through other infrastructure means such as their 
computer technology. The time to address these training issues is now, 
at the ground floor level, not years down the road when the aggregate 
effects of years of lackluster training and poorly targeted and 
implemented plans have done their damage.
    The American Legion stands ready to answer any questions of this 
Subcommittee and thanks you again for this opportunity to provide 
testimony on behalf of our members.

                                 <F-dash>
               Prepared Statement of Michael Cardarelli,
          Acting Deputy Under Secretary for Benefits, Veterans
      Benefits Administration, U.S. Department of Veterans Affairs

    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity today to appear before the 
Subcommittee to discuss employee training within the Veterans Benefits 
Administration (VBA). I am pleased to be accompanied by Diana Rubens, 
Associate Deputy Under Secretary for Field Operations; Terence Meehan, 
Director of Employee Development and Training; and Danny Pummill, 
Deputy Director for Policy and Procedures for the Compensation and 
Pension (C&P) Service.

Breaking the Back of the Backlog

    As you know, Secretary Shinseki set the goal of eliminating the 
disability claims backlog by 2015 so no Veteran has to wait more than 
125 days for a high quality decision that meets a 98 percent accuracy 
level. This important goal is at the center of our work as we 
collaborate across the Department of Veterans Affairs (VA) to improve 
the delivery of benefits for our Nation's Veterans. We define the 
``claims backlog'' as claims that have been pending in our inventory 
longer than the 125-day goal. VA currently has approximately 530,000 
pending disability claims, 37 percent of which have been pending longer 
than 125 days and are therefore considered to be part of VA's claims 
backlog. We are currently at 83.5 percent rating quality which is below 
our fiscal year (FY) 2010 target of 90 percent.
    VBA has been aggressively hiring claims processing staff across the 
Nation since FY 2007, and continues to hire through FY 2010. However, 
hiring more employees is not a sufficient solution. The need to better 
serve our Veterans requires bold and comprehensive business changes to 
transform VBA into a high-performing 21st Century organization that 
provides the best services available to our Nation's Veterans and their 
families. VBA's transformation strategy leverages the power of 21st 
Century technologies applied to redesigned business processes. We are 
examining our current processes to be more streamlined and Veteran-
focused. We are also applying technology improvements to the new 
streamlined processes so that the overall service we provide is more 
efficient and timely. We are using the knowledge, energy, and expertise 
of our employees, other administrations in VA, Veterans Service 
Organizations, Congress and the private and public sectors to bring to 
bear ideas to accomplish this claims process transformation.
    One of VBA's strategies is to improve and expand training available 
to our employees. We focus on high-quality, timely, and relevant 
training for both new and experienced personnel. To that end, VBA has 
deployed training tools and centralized training programs to improve 
standardization of training across all regional offices (ROs). My 
testimony will address training of new and experienced employees who 
process Veterans' claims. I will describe the training programs as well 
as the methods of training evaluation and oversight VBA is using to 
ensure employees are continuously prepared to accomplish their mission.

New Employee Training

    VBA has developed and implemented a standardized training 
curriculum, the Challenge training program, for new claims-processing 
employees. The Challenge program is a national technical training 
curriculum that provides new Veterans Service Center employees with the 
skills they need to function effectively in their positions as Veterans 
Service Representatives (VSRs) or Rating Veterans Service 
Representatives (RVSRs). Since FY 2007, VBA has trained more than 7,200 
new VSRs and RVSRs, including more than 2,000 in FY 2010.
    The Challenge program is delivered in three phases. Phase 1 is 
completion of knowledge-based prerequisite training at home stations 
using lectures, demonstrations of computer applications, and team-
learning through VBA's Training and Performance Support Systems (TPSS). 
Post-tests built into TPSS confirm that students have learned the 
material.
    Phase 2 is centralized classroom training. Newly hired VSRs and 
RVSRs attend two-and-a-half weeks of resident training. These courses 
are offered at the Veterans Benefits Academy in Baltimore, Maryland, 
and selected VA regional offices when the volume of newly hired VSRs 
and RVSRs exceeds the centralized training capacity. All training sites 
use standardized curricula. Area offices recommend trained instructors 
to VBA Headquarters where selections and instructional assignments are 
made. The quality of the training is enhanced by using no greater than 
an 8:1 student-to-instructor ratio. Centralized training provides 
hands-on training with computer applications and advances the new 
employees through progressively more challenging practice claims. All 
new employees handle sample claims just as they will when they return 
to their home stations.
    Phase 3 is completed at home stations, blending lectures, 
discussions, and TPSS training with experiential learning. Trainees 
work actual Veterans' cases under the guidance of experienced 
personnel. Instructors in the first two phases are subject matter 
experts who have completed either an instructor development course 
designed to provide platform-delivery skills or a TPSS Training 
Coordinator course taught to effectively use team learning with 
standardized lesson materials. Instructors in the third phase are 
experienced VSRs or RVSRs with current knowledge of regulations and 
procedures. Many of the Phase 3 instructors have also received formal 
instructor training.
    From FY 2008 through FY 2010, 1,642 VBA employees have attended a 
VBA-sponsored instructor course. Our goal remains to provide every 
field employee identified as a potential instructor an opportunity to 
receive instruction on design and delivery of training.

Experienced Employee Training

    In response to Government Accountability Office (GAO) 
recommendations and internal evaluations, VBA instituted continuous 
improvements to its program for training of experienced personnel. 
Beginning in FY 2010, VBA designed national curricula to enhance 
quality in claims processing through standardized training. Topics in 
the national curricula were selected to address national quality issues 
as determined through VBA's Systematic Technical Accuracy Review (STAR) 
program.
    The national curricula were used by ROs to deliver required 
training for VBA employees based upon experience level. The 
intermediate curriculum was used for employees with 6 to 24 months of 
experience, and the advanced curriculum was used for employees with 
more than 24 months of experience. Lesson materials supporting the 
national curricula were published by the C&P Service to increase 
standardization of training across all ROs.
    In FY 2010, VSRs and RVSRs are required to complete a total of 85 
hours of training, including 40 hours from the appropriate mandatory 
national technical curriculum (intermediate or advanced), 20 hours of 
electives from a national technical curriculum of additional topics, 
and 25 hours of station-determined topics that included courses 
required of all VA employees. By August 31, 73 percent of all VSRs and 
RVSRs had exceeded the mandatory 85 hours of training, and 80 percent 
were on track to complete the requirement by the end of FY 2010.
    In FY 2011, VBA is making additional improvements in the training 
for experienced VSRs and RVSRs. The change will give supervisors more 
latitude to tailor the annual training of employees to better meet the 
emerging needs of individual employees, their managers, and the RO in 
this transformational environment. In FY 2011, experienced Veterans 
VSRs and RVSRs will be required to complete 85 hours of training from 
multiple curricula.
    All VSRs and RVSRs will complete VA-mandated courses on an annual 
or biennial basis to promote diversity and emphasize information 
security awareness. They will be required to complete 40 hours from a 
C&P Service technically-oriented curriculum that addresses national 
quality concerns and regulation changes. They will also complete an 
additional 40 hours from a combination of curricula depending upon the 
needs of the RO and the developmental needs of individual employees.
    For employees who require greater technical growth, some or all of 
the 40 hours may be chosen from the C&P curriculum of technically 
oriented ``elective'' courses. Employees who have mastered their trade, 
exhibit high production and quality, and have expressed both the 
potential and interest in personal growth may be ready for development 
in skills that prepare them for higher levels of responsibility. For 
employees with non-technical needs, such as critical thinking and 
effective writing, courses will also be available through VA's new 
``ADVANCE'' Program. The purpose of this program is to invest in 
employee development, workforce engagement, and talent management. This 
program will support the learning needs of a transformational 
organization and includes courses such as critical thinking, effective 
team operations, oral and written communications, and managing change 
at the individual and group levels.

Training Oversight

    VBA has improved its training oversight methods to increase 
accountability. Managers at all levels are held accountable for 
ensuring training requirements are met. The VA Learning Management 
System (LMS) provides a transparent view of each employee's training 
achievements to managers and supervisors from the team through the 
Headquarters level. Using LMS, the Headquarters generates periodic 
reports to indicate whether ROs are progressing satisfactorily to meet 
published training requirements for VSRs and RVSRs. The reports are 
shared within Headquarters and with RO leaders.
    In 2008, VBA created the staff position of Training Manager for 
each RO. The Training Manager is responsible for local training 
reviews, as well as analyzing performance indicators to determine local 
training needs and implementing the training necessary to meet those 
needs. In each year since the positions were established, VBA has 
provided multiple venues for collaboration of Training Managers with 
Headquarters personnel and other Training Managers. The keystone is an 
annual workshop for training and collaboration that is reinforced with 
monthly telephonic meetings and on-line collaboration using social 
networking tools.

Training Evaluation

    In response to a GAO recommendation, VBA developed and implemented 
a strategy for systematically assessing the content, mode, and timing 
of training for experienced claims processors. Training of claims 
processors is continuously improved in VBA through ongoing evaluation 
of the training program itself.
    During Challenge Phase 2 (centralized) training, Challenge students 
provide anonymous evaluations, using a web-based tool, of each lesson 
and the performance of their instructors, as well as the training 
facilities and support. Evaluation feedback is reviewed daily by the 
C&P Service training staff to facilitate rapid corrective actions if 
participants or instructors need improvements.
    Upon their return to home stations for Challenge Phase 3, employees 
provide weekly evaluation of their continuing training. Employee 
feedback is reviewed weekly by Headquarters personnel for potential 
intervention if training is not proceeding successfully. Additionally, 
VBA initiated a Challenge Phase 3 site-visit program to gather feedback 
from participants and their managers about how that phase of Challenge 
is being implemented.
    VBA is also collecting and reviewing feedback from staff to 
determine if the 85-hour training requirement is appropriate for 
experienced VSRs and RVSRs. Similar to the feedback mechanism used with 
employees in Challenge training, VBA is using a web-based evaluation 
tool to gather feedback from experienced claims personnel regarding 
their training. In more than 22,000 responses from experienced 
personnel since initiating the evaluation in March 2010, VBA has 
collected feedback on the usefulness, relevance, and quality of the 
training received in their ROs using the national lesson materials. 
Headquarters personnel who authored the training materials and RO 
managers have direct access to the feedback and can quickly update 
lesson materials and publish the changes.
    VBA's formal training system, TPSS, has an integral feedback 
mechanism to encourage users to recommend improvements, changes, and 
corrections to lesson materials. Recommendations are screened routinely 
and prioritized for incorporation into the life cycle project 
management plans, with the goal of keeping all materials complete and 
accurate.

Conclusion

    Since the Subcommittee's last hearing on VBA training in 2008, VBA 
has substantially and continuously improved the entry-level instruction 
provided to our new claims processors. VBA has also taken many positive 
actions to enhance the relevancy and standardization of training for 
experienced claims processors. VBA expanded its training oversight and 
implemented an evaluation program to increase quality and consistency 
and support a continuing dedication to improving training. VBA has made 
continuous efforts to improve training and ensure high quality 
decisions for our Veterans in a timely manner.
    Mr. Chairman, this concludes my testimony. I will be happy to 
respond to any questions that you or other Members of the Subcommittee 
may have.

                                 <F-dash>
                Statement of Carol Wild Scott, Chairman,
             Veterans Law Section, Federal Bar Association

    Congressman Filner, Congressman Buyer and Members of the Committee:
    Thank you for the opportunity to present this statement on behalf 
of the Veterans Law Section on behalf of the Federal Bar Association. 
The Federal Bar Association is the foremost national association of 
private sector and government lawyers engaged in the practice of law 
before the Federal courts and Federal agencies. Sixteen thousand 
members belong to the Federal Bar Association. The Veterans Law Section 
(``VLS'') is comprised of lawyers who are associated with all aspects 
of veterans and military law. The comments herein are exclusively those 
of the Veterans Law Section and do not necessarily reflect the views or 
official position of the entire Association.
    The growing backlog of veterans' disability claims pending before 
the Department of Veterans Affairs and the U.S. Court of Appeals for 
Veteran Claims has been the subject of numerous written submissions, 
testimony and commentaries. The Claims Summit in March and a further 
hearing before the House Committee on Veterans' Affairs in June all 
addressed the same issues--what is wrong with the claims process and 
how can it be fixed? Several facts are inescapable. The backlog is out 
of control, symptomatic of a process out of control. The operative term 
is ``control.'' There is as much need for vertical accountability in 
the area of training as in administration of the Veterans Benefits 
Administration.

The problems

    The statistics from the Board and the CAVC give a strong indication 
that there are and will continue to be serious training issues in both 
the rating and appeals process. CAVC routinely remands 70-80 percent of 
the cases coming before it. Another 5 percent are reversed and then 
remanded. The Court agrees with the Board only 20-25 percent of the 
time, according to Judge Kasold's testimony of May 2009. Even if one 
attributes a portion of the remands to philosophical differences 
between the Board and the Court, a 70-80 percent remand rate is 
strongly indicative of a significant level of error in the proceedings 
below. In a system in which the Board has claimed an accuracy rate of 
in excess of 90 percent, there is clearly a disconnect. Similarly, the 
Board, in FY 2009 either remanded or allowed 61 percent of the 48,800 
appeals in which they made decisions, thus finding that the Regional 
Office decision was correct in only 39 percent of the cases.
    This level of error is strongly suggestive of serious training 
deficiencies from the Benefits Academy to the continuing education 
which every rating employee is required to receive annually. Training 
issues were addressed in the April, 2010 GAO study, ``Veterans 
Disability Benefits, Expanded Oversight Would Improve Training for 
Experienced Claims Processors.'' GAO determined that the VBA delegates 
a considerable amount of control to the individual Regional Offices, 
while providing a fairly standardized curriculum for about half of the 
required eighty hours of annual training. They found that a majority of 
the experienced personnel (over two years experience) had difficulty 
meeting the eighty hours of required training with their workload 
requirements.
    Because of the uniform level of subject matter addressed in the 
training, many of the rating personnel either felt that they did not 
need it or the training did not meet their specific needs. Two examples 
were identified by personnel as inadequate: case management and special 
monthly compensation. Clearly ``one size fits all'' does not fit within 
the context of continuing education, which is what the requirement of 
yearly training is intended to be. Rating employees have expressed the 
need for additional education in the rating for TBI. Decisions from the 
Court and the Board demonstrate a significant error rate with PTSD and 
toxic exposures. The conclusion was that the training component of VBA 
lacked controls to ensure the content and quality of the eighty hours 
of instruction required annually and thus did not meet the standards 
cited. In the area of training as well as in administration, it is 
essential to have a vertical chain of command with accountability for 
the quality of instruction, content and availability of information to 
every rating employee.
    In a sense, a well-trained cadre is a happier cadre. There are very 
few in the VBA who do not do the best job they can to ensure that the 
veteran is allocated appropriate compensation for the harm suffered. 
There have been numerous complaints reflected in IG reports and 
Congressional testimony to the effect that poor training and lack of 
experience on the part of supervisory and executive personnel has 
affected morale in the workplace. Education and testing for leadership 
skills to develop a well trained, qualified cadre of supervisory and 
executive personnel is essential to the maintenance of the high 
standards required across the board. Inadequate training has apparently 
led to the early dismissal of some of the new hires, thus reducing the 
number of new rating personnel when the real problem was lack of 
adequate training.

Some suggested solutions

    VLS recommends that vertical accountability be established with a 
directorate of training within the Office of the Secretary, as a 
separate entity. Within this entity should be located the Academy and 
under the Academy a vertically organized network of adult education 
specialists with expertise in education, medical issues and regulatory 
process. The Director of the Academy should be directly accountable to 
the Secretary.
    VLS encourages VBA to re-examine the curriculum and the 
qualifications of the instructors at the Academy, with the result that 
specific protocols be in place for appointment as an instructor. We 
also urge that advances in adult education methodology and recruitment 
of experts and consultants external to VA be utilized. The statistics 
indicate that the instructional and training entities have become 
cocooned, such that too often errors are repeated through instruction. 
The Academy should be the focal point and resource for all instruction 
agency-wide.
    VLS encourages education and testing for leadership skills to 
develop a well trained, qualified cadre of supervisory and executive 
personnel, which would have a significant, positive effect on employee 
morale. Supervisory personnel lacking knowledge of ``what they do'' has 
been noted in earlier hearings and reports as sources of low morale in 
the workplace. Supervisory personnel should receive continuing 
education in regulatory and case law developments as do the rating 
personnel along with leadership and administrative skills. The 
institution of results-oriented performance protocols rather than the 
``work credit'' system should apply equally to supervisory and 
executive personnel and rating personnel. The quality of the decisions 
in the Regional Office should be the measure of performance.
    VLS recommends that should the POD modality be adopted (and 
continues to recommend that this be the case) that it include a full-
time training coordinator situated in each Regional Office reporting 
directly to the Director of Training. The primary duty would be 
monitoring on-site, the training needs and requirements, setting a 
curriculum consistent with those universal to the agency, and ensuring 
that instruction and Q&A are available consistently to the individual 
employee. Additionally, on-site proficiency testing is then available 
for VSRs ready for promotion to RVSRs and RVSRs aspiring to the 
position of DRO. (The exam certifying the DRO should equate with the 
Agent's exam and re-certification should be required bi-annually to 
ensure currency with case law and regulatory changes.) Uniformity in 
the programs across all the ROs is critical, with standardized 
performance objectives and outcomes. Innovations in the field of adult 
education and the use of outside consultants as advisors in the 
development and evaluation of educational and training programs should 
also be utilized.
    VLS recommends that training programs be thoroughly evaluated for 
accuracy and thoroughness by resources both internal and external to 
VA. A complex array of disabilities affect the veteran population 
residual from Vietnam, the Gulf War, and OIF/OEF. Rating employees have 
expressed the need for instruction in TBIs, and a significant error 
rate has been found with PTSD and herbicide exposure. VBA must ensure 
that the medical instruction blocs meet the needs of the demographics 
of the veteran population. The medical issues of exposure to toxins 
from Vietnam, the Gulf War and the burn pits in Iraq along with the 
sequelae of TBI and multiple amputations must be included as these 
affect multiple body systems and may lie latent for years before 
becoming symptomatic (such as hepatitis C). Medical training is 
critical, as it is necessary to orient lay personnel to the vastly 
complex array of medical issues inherent in the average claim for 
compensation arising from conflicts of the last three decades.
    VLS recognizes the complex issues presented by rapid acquisition of 
new personnel and the necessity of providing adequate, but concentrated 
training to these employees. The Agency can ill afford to discharge new 
hires as the result of inadequate training. The utilization of every 
resource both in and outside of VA is required, thus VLS strongly 
recommends the establishment of training protocols that also utilize 
resources and expertise external to VA with instructors selected 
through a certification process and recruited from the Veterans Law Bar 
as ``Visiting Professors.'' Similarly, recruitment of ``Visiting 
Professors'' from entities experienced in educating laity in medical 
issues, protocols and processes should be implemented. Efforts such as 
these ensure dissemination of information which is accurately 
consistent with current case law, regulatory developments and 
appropriate medical knowledge.
    We thank the Committee for the opportunity to share the foregoing 
views and recommendations. We must all take whatever actions are 
necessary to make as whole as we can, without regard for ethnicity, the 
men and women who have put their lives on the line in order that we may 
have the luxury of this discussion. We owe them not only treatment of 
wounds seen and unseen but as much restoration of their quality of life 
as is humanly possible. With now over a million pending claims, it 
matters not who represents whom, or on whose shoulders the blame 
properly lies. Only through thorough and accurate education as well as 
closely monitored implementation of the material learned will the 
quality of claims process improve. Until the quality of performance 
attains the level that precludes innumerable remands the backlog will 
persist. Increasing the quality of education and training and rewarding 
adequately the performance that implements it is the challenge VA now 
faces. The views expressed herein are solely those of the Veterans Law 
Section and not necessarily those of the entire Association.
    Respectfully submitted.

                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                    October 6, 2010
Daniel Bertoni
Director, Education, Workforce, and Income Security Issues
U.S. Government Accountability Office
441 G. Street NW
Washington, DC 20548

Dear Mr. Bertoni:

    Thank you for testifying at the House Committee on Veterans' 
Affairs' Subcommittee on Disability Assistance and Memorial Affairs' 
oversight hearing on, ``Examining the Training Requirements of Veterans 
Benefits Administration Claims Processing Personnel,'' held on 
September 16, 2010. I would greatly appreciate if you would provide 
answers to the enclosed follow-up hearing questions by Tuesday, 
November 9, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Cecilia Thomas by fax at (202) 226-4691. If you have any questions, 
please call (202) 225-9164.
            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________

                              U.S. Government Accountability Office
                                                    Washington, DC.
                                                   October 28, 2010
The Honorable John J. Hall
Chairman
Subcommittee on Disability Assistance and Memorial Affairs
Committee on Veterans' Affairs
U.S. House of Representatives
Washington, DC 20515

    The enclosed information responds to the post-hearing questions in 
your letter of October 6, 2010, concerning testimony before the 
Subcommittee on September 16, 2010, on the Veterans Benefit 
Administration's (VBA) training for disability claims processors. If 
you have any questions or would like to discuss this information, 
please contact me at (202) 512-7215.
            Sincerely yours,

                                           Daniel Bertoni, Director
                   Education, Workforce, and Income Security Issues
    Enclosure

    This enclosure details Chairman Hall's questions and our response, 
which supplement information in our testimony before your Committee, 
Veterans' Benefits: Training for Experienced Claims Processors (GAO-10-
1029T, Washington, D.C. September 16, 2010).

                               __________

      Questions for the Record, Honorable John J. Hall, Chairman,
               Subcommittee on Disability Assistance and
           Memorial Affairs, Committee on Veterans' Affairs,
                     U.S. House of Representatives

    Question 1: Has the Government Accountability Office (GAO) 
conducted any evaluations or assessments of the Veterans Benefit 
Administration (VBA) certification testing program?

    Response: The Government Accountability Office has not conducted 
any evaluations or assessments of the VBA's certification testing 
program. However, as part of our ongoing review of the VBA's Decision 
Review Officer (DRO) program we will be obtaining the opinions of VBA 
regional office managers and DROs about the effectiveness of the 
recently implemented DRO certification exam in assessing Decision 
Review Officers' ability to do their jobs.

    Question 1(a): If so, please elaborate on this program and whether 
your assessment showed any connection between test results and the 
quantity or quality of training.

    Response: Our review of the DRO program is in process. The final 
report will contain the results of the limited assessment of the DRO 
certification exam included in this review.

    Question 1(b): If GAO has not studied this issue, has it considered 
doing so in the future?

    Response: Currently, we have no other plans to study the VBA's 
certification testing program. We are available, at your convenience, 
to discuss additional work GAO could do in this area.

                                 <F-dash>

                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                    October 6, 2010
Jimmy Sims, Jr.
AFGE Local 1738 Steward
c/o John Gage
American Federation of Government Employees
80 F Street, NW
Washington, DC 20001

Dear Mr. Sims:

    Thank you for testifying at the House Committee on Veterans' 
Affairs' Subcommittee on Disability Assistance and Memorial Affairs' 
oversight hearing on, ``Examining the Training Requirements of Veterans 
Benefits Administration Claims Processing Personnel,'' held on 
September 16, 2010. I would greatly appreciate if you would provide 
answers to the enclosed follow-up hearing questions by Tuesday, 
November 9, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Cecilia Thomas by fax at (202) 226-4691. If you have any questions, 
please call (202) 225-9164.
            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________

           QUESTIONS FROM THE COMMITTEE ON VETERANS' AFFAIRS
    DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS SUBCOMMITTEE HEARING
           ``Examining the Training Requirements of Veterans
         Benefits Administration Claims Processing Personnel''
                           September 16, 2010

    Question 1: AFGE has testified repeatedly that the over-emphasis on 
production deadlines by the Veterans Benefit Administration (VBA) often 
hinders claims processors from completing training requirements and 
ultimately leads to avoidable claims processing errors. What 
recommendations does AFGE have for incentivizing prompt yet quality 
performance by VBA claims processors?

    Response: VBA's current focus on production capacity drives the 
claims process. Employees are driven to produce numbers versus 
producing quality. Current VBA Director's Performance Standards drive 
this process in the field. These standards are focused on increasing 
the number of claims produced which in turn reduces the Average Days 
Pending (ADP), Average Days to Completion (ADC) and Average Awaiting 
Development Time (ADT). These cycle times are not focused on the 
quality of the work performed, but the quantity of the work performed.
    While the overwhelming statements from the claimants are ``I just 
want a decision'' it is incumbent on the VBA to ensure that the 
decision rendered is accurate. By continuing to focus all metrics on 
the amount of work produced, there is an increasing gap between the 
amount of cases produced and the quality of these cases.
    VBA must begin to change the focus of the production standards from 
the amount of work produced, to the correctness of the work produced. 
Incentive awards need to be focused on meeting and maintaining a metric 
of quality versus meeting and exceeding a production number.

    Question 1(a): If VBA's work credit system is not working, what 
other approach would AFGE recommend for motivating VBA staff to meet 
production goals?
    Response: In the Center for Naval Analysis study conducted pursuant 
to Section 226 of Public Law 110-389, it was recommended that a study 
be conducted to determine the time required to perform each action at a 
specific level of quality (Time-Motion study). This study would require 
the incorporation of the differing levels of experience to determine 
the amounts of time required to achieve the specified level of quality.
    The current work credit system does not adequately account for the 
effect of experience on quality and productivity. The current work 
credit system is a cookie cutter approach based on anticipated 
Journeyman level experience. VBA has been transitioning to a work 
credit system which allows crediting for the claims process only when 
specific milestones are met. This system does not take into 
consideration the full level of work required during the life cycle of 
a claim, nor does it provide consideration for the quality of work 
associated with the experience level of the claims processor. This 
manner of crediting work only drives employees to take shortcuts in the 
process, reducing the quality of the work performed, in order to 
achieve the milestones whereby credit for work may be taken.
    In order to adequately address this need to motivate employees to 
meet production goals while achieving specific quality levels, there 
needs to be an adequate consideration of the time required in the 
process.
    A scientific evaluation of the claims process, such as the time-
motion study recommended by CNA, is essential to development of an 
effective motivating system to meet the needs of the Agency while 
meeting those of our claimants.

    Question 1(b): Should VBA reward staff for completing required 
training or meeting work quality benchmarks?

    Response: VBA's current award system places greater emphasis on 
increasing productivity. Many stations provide bonuses only for 
employees whose productivity exceeds the required production standards 
by a percentage from 20 to 50 percent, while only requiring achievement 
of the minimum quality standard.
    The ability for increasing productivity while maintaining a 
specific level of quality should be commended. However, increases in 
quality and productivity should generate greater rewards.
    The Fiscal Year 2010 national quality target for VBA claims 
processing was set at 90 percent. The end of year quality for Rating 
was measured at 83.8 percent. Quality for development of claims is not 
measured independently. Authorization of the awards was measured at 
96.1 percent which exceeded the 90 percent target.
    Prior VBA production standards did not consider training as an 
element for evaluating performance. The VBA production standards for 
the Veterans Service Representatives (VSR) which were implemented in FY 
10 include Training as a Critical Element thereby tying the completion 
of training to a satisfactory performance level. Proposals for changes 
to the performance standards for Rating Veterans Service 
Representatives (RVSR) and Decision Review Officers (DRO) have included 
Training as a critical element. While this creates a mandate to 
complete training in order to be rated fully successful, there is no 
incentive to go beyond the required training of 85 hours. At the same 
time, there continues to be a serious problem with the quality of 
training, because of an overreliance on online training instead of 
classroom training, and the lack of experience and expertise of 
trainers.
    As experience and quality are closely related to training, it would 
be to the Agency's benefit to develop incentives for increased quality 
and completion of additional training.

    Question 1(c): Should VBA provide its staff with adequate time to 
complete required training and ensure that the training is both timely 
and targeted to their needs before enforcing strict claims processing 
production quotas?

    Response: In order to effectively measure an employee's 
performance, there must be certainty that employees have received the 
training required to accomplish the task set before them. In the 
current VBA performance standard structure, employees are immediately 
held to a production standard upon completion of a minimum training 
program. This immediate requirement of production standards results in 
a decrease in the time spent on learning and retaining the information 
necessary to accurately and efficiently complete the claims process.
    As VBA has reported in prior testimonies, it takes an average of 
two years to adequately learn the tasks associated with the positions 
in the claims process.
    A moratorium on production standards during this two year period 
would increase the knowledge and experience level of all claims 
processors as it would allow for increased focus on obtaining quality 
work versus quantity of work.
    Continued training beyond the initial two year training period 
should be focused on meeting the needs of the claims processors. The 
current continued training (Core Technical Training Requirements) is a 
one-size-fits all system. Knowledge and experience are individualized 
aspects; training should likewise be individualized to address the gaps 
in this knowledge base. While training programs may never be able to 
address all types of claims encountered by claims processors during 
their tenure, training programs should be better tailored to encompass 
a greater range of issues.
    Upon completion of the 2 year training program, a more 
individualized training program should be developed in consultation 
with the immediate supervisor and the quality review specialist 
reviewing the work of the claims processor.
    This individualized training program would then be re-evaluated at 
the end of each year to better focus on the areas of improvement needed 
to be made.

    Question 2: Are VBA claims processors and their managers penalized 
if training requirements are not met? Are both rewarded for meeting 
annual training requirements?

    Response: Under the current performance standard system in place 
for VSRs, the assignment of a fully successful evaluation is predicated 
upon completion of all assigned training. The performance standard 
system for RVSRs and DROs does not include training completion as a 
critical element. As such, there is currently no incentive in place for 
employees other than VSRs to complete training requirements.
    Unfortunately, AFGE is not afforded information on the reward and 
punishment programs which VBA has instituted for management officials. 
Therefore, we are unable to comment on the repercussions of failure of 
management or their assigned employees to meet mandatory training 
requirements.
    The performance standard system for RVSRs and DROs should include 
training completion as a critical element.

    Question 3: What are your specific assessments of VBA's classroom 
versus online training and do you believe there is a proper mix of each 
one in order to ensure high quality delivery of training?

    Response: As a Journeyman Rating Veteran Service Representative, I 
have participated in the training in a classroom and online setting. 
The current classroom training programs are adversely impacted by VBA's 
lack of qualified and trained instructors. In the field stations, 
employees are selected for training, not based on past ability or 
experience, but by their relationship with management. There is a 
significant disparity in the quality of the classroom training provided 
by station, as well as by which individual is conducting the training.
    Online training programs are centrally created, thus ensuring the 
level of quality of the information presented. However, the shift 
toward more online training means that employees are left on their own 
to review and interpret a significant portion of the curriculum. There 
is currently no measurement in place to determine if the information 
presented is understood or retained. The structure of the management 
staff eliminated the need to be a Subject Matter Expert over the area 
of supervision. Thus employees with questions have no supervisor to 
whom they can turn. Employees are left to either form their own 
interpretation or to seek out assistance from other employees thus 
impacting their ability to meet mandatory production requirements.
    The current training delivery process needs to be revamped so that 
the quality of training takes priority over expedience.

    Question 3(a): What is AFGE's assessment of the Training 
Performance Support System (TPSS)?

    Response: TPSS is again a centrally designed computer based 
training program which requires individual employees to review and in 
many cases interpret and apply information presented on their own. 
While this training system has a built in system of testing the 
understanding and retention of information, the utilization of this 
system is inadequate. VBA has data which reports the failure of 
stations to comply with the requirements associated with TPSS during 
the initial training of new employees.
    Management should more closely monitor utilization of the TPSS 
training program.

    Question 4: How often are VBA claims processors briefed or provided 
feedback on the quality of their work?

    Response: As a Journeyman RVSR I am only provided feedback on cases 
in which there is an error of omission or commission. RVSRs are 
continually provided feedback during the initial stages of training 
leading up to the release to single signature authority. Following this 
release to single signature authority, feedback is provided only in 
cases containing an error or minimally during performance meetings with 
supervisors.

    Question 4(a): Are VBA claims processors required to complete 
additional training based upon poor work quality according to the 
Systematic Technical Accuracy Review (STAR) quality ratings?

    Response: The current VBA claims processor training at VARO Winston 
Salem is not tailored to effectively utilize findings of the STAR 
process. Training at this facility is a ``one size fits all'' approach 
which does not take into consideration the knowledge gaps of employees. 
When AFGE recommended that quality data for the past 12 month period be 
reviewed for determination of trends and/or gaps in training, 
management's response was that this would be too time consuming.
    VBA's STAR review program is designed to be a training tool which 
can identify the training needs of individuals as well as stations.
    Data generated by the STAR review program should be used to 
identify training needs of individual employees and stations.

    Question 4(b): Does AFGE think that the quality of VBA claims 
processing could be improved by dedicating more resources to retaining 
experienced claims personnel?

    Response: The current rate of attrition of VBA is a direct outcome 
of ineffective training programs as well as the ever increasing 
performance standards and complexity of the work required.
    Experienced claims processing personnel are necessary if VBA 
intends to reach the projected goals of ``No claim over 125 days old'' 
and ``98 percent quality.''
    Experience lends itself to speed and quality of work produced. 
Senior managers at VARO Winston Salem have been heard making the 
statement: ``Any employee can be replaced, if they unable to do the job 
assigned get rid of them and get someone in here that will work.'' 
Unfortunately, this attitude permeates management at VARO Winston 
Salem, and it causes employees to face the realization that management 
does not see them as a vital resource. That attitude by management 
results in a decrease in morale and a desire to do only that which is 
required to maintain employment, thereby, resulting in lesser 
performance of the station as a whole and decrease in service to the 
claimants. As the VARO Winston Salem is in the forefront of National 
initiatives, this predicament affects more than the veterans and 
dependents of North Carolina. Until management begins to change this 
perception of the employees, there will continue to be large numbers of 
senior employees who elect to leave the VA for employment opportunities 
with other agencies and the private sector.
    Management should change its perception of front line employees. 
The Agency may also wish to consider retention bonuses for high 
performing employees with greater than five years of experience within 
their field.

    Question 5: The Committee understands that VBA was slated to end 
its contract with Human Resources Research Organization (HumRRO) on 
September 22, 2010. What are AFGE's thoughts on VBA's certification and 
testing program?

    Response: The current VBA certification testing program does not 
accurately reflect the ability of employees to perform the daily 
functions required by their positions. Under the Claims Processing 
Improvement staffing model, VSRs were specialized and worked only in 
one aspect of the claims process. The certification testing for VSRs is 
designed to take into consideration all phases of the claims process. 
Testing VSRs on job functions that have not been part of their work 
requirements inaccurately reflects the knowledge and experience of the 
employee.
    The current Certification examinations evaluate only the Journeyman 
VSR; RVSR testing evaluates the level of knowledge at completion of 
training as well as at the Journeyman level.
    The approach of evaluating the level of knowledge at completion of 
training should be implemented for both VSR and RVSR.

    Question 5(a): Do deficiencies in training impact the results of 
these tests?

    Response: As stated, the current certification testing does not 
accurately reflect an employee's knowledge and experience in the 
performance of the claims process. This directly reflects deficiencies 
in the claims processor training program currently utilized by VBA. 
More specifically, much of the certification examination focuses on the 
employee's ability to look up information in the reference material 
versus the employee's understanding of the material being tested. As is 
evident by the low pass rates of claims processors, employees are not 
receiving adequate training to be able to meet the expectations of 
management.
    While AFGE does not support the concept of training employees to 
merely pass an examination, we do support the training of employees in 
such a fashion that the ability to pass the examination would be 
inherent in the completion of this training. Management must review the 
past certification testing and identify the areas of lowest 
performance, and tailor the training to address these deficiencies.

    Question 5(b): Have the certification process deficiencies been 
corrected? Please elaborate.

    Response: The deficiencies of the certification program have not 
been properly identified by management. Based on past performance of 
the employees, management has returned to the question banks and 
reformulated questions. By this, management has been tailoring the 
questions to meet the knowledge base of the employees versus tailoring 
the training to address the deficiencies of the employee's knowledge.

    Question 5(c): Is the VBA complying with certification requirements 
as mandated in P.L. 110-389?

    Response: Section 225 established the requirement for VBA to 
provide for examination of employees and managers responsible for 
processing VA compensation and pension benefit claims. This also 
directed the Comptroller General to evaluate these training programs 
and provide reports to Congress.
    These examination processes have continued to be delayed in 
implementation. There have been pilot testing of certification 
examination of managers and Decision Review Officers, but 
implementation of a standard testing has not been made.
    Certification of the training of RVSRs has been implemented and is 
mandatory for newly hired RVSRs. However, certification of Journeyman 
RVSRs is only minimally being performed with no requirement of these 
employees to certify.
    VSR certification examination is linked directly to promotion to 
the GS-11 level and is not performing the function of validating 
training. There is no certification test required upon completion of 
the initial training program as with RVSRs.
    Decision Review Officers certification examination is not utilized 
in the validation of the employees' ability to perform the functions of 
this position. As with the VSR certification examination, employees 
should certify prior to promotion to the DRO position.
    As management continues to stress actions of management which are 
provided for under 5 U.S.C. 7106(a) are outside of the Union's right to 
know. Management has stressed that examination of management is outside 
of their obligation to negotiate. As such, AFGE has limited information 
on the certification program implemented for management. AFGE is only 
aware of a pilot having been performed, but the implementation of a 
standard certification program is not known.
    Based on the limitations of the information provided in association 
with the certification requirements, it would have to be determined 
that VBA has failed in the requirements to meet the statutory 
requirements as implemented by PL 110-389.

    Question 6: What steps should VA take to improve its overall 
training and testing program for VBA claims processors, managers, and 
trainers?

    Response: First, VBA must ensure that employees utilized in the 
training programs have been adequately trained for providing training. 
As was reported in the GAO report, only 1 in 4 trainers have received 
formal training.
    Second, VBA must begin to utilize the data available through the 
STAR system to tailor training to address the deficiencies in knowledge 
base of the employees.
    Third, VBA must tailor the certification examinations to accurately 
measure knowledge and experience, and utilize the results of past 
examinations to tailor training to address the deficiencies as 
identified through the results of the examinations.
    Fourth, VBA must ensure that certification examinations are 
properly administered during the life cycle of the claims processors. 
By this, it is imperative that VBA certify the training of the 
employees at completion of the initial training of the personnel, and 
again at the Journeyman level. VBA must also ensure the certification 
of DROs prior to promotion to this position.
    Fifth, VBA must comply with the statutory requirement for 
management certification. Management's current view is that it does not 
have to comply with this requirement. More specifically, management 
refuses to provide AFGE with results from management certification 
exams. This attitude directly impacts the employees who serve under 
them. AFGE needs these test results to ensure that all employees are 
receiving adequate supervision. Employees who serve under certified 
managers have the benefit of knowing their supervisors have proven 
their knowledge and ability to perform the requirements of the claims 
process. This affords employees greater comfort when dealing with their 
managers on issues that arise during the claims process.
    Finally, VBA must begin to increase the involvement of AFGE in the 
development and implementation of the training programs in the initial 
training phase as well as the continued training of claims processing 
personnel. Until Management and Labor begin to collaboratively address 
issues as directed by E.O. 13522--Creating Labor-Management Forums to 
Improve Delivery of Government Services, the training program will 
continue to flounder in mediocrity and fail to effectively address the 
needs of the Agency and employees.

                                 <F-dash>

                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                    October 6, 2010
David E. Hunter, Ph.D.
Assistant Director, Cost Analysis and Research Division
Institute for Defense Analyses
4850 Mark Center Drive
Alexandria, VA, 22311

Dear Mr. Hunter:

    Thank you for testifying at the House Committee on Veterans' 
Affairs' Subcommittee on Disability Assistance and Memorial Affairs' 
oversight hearing on, ``Examining the Training Requirements of Veterans 
Benefits Administration Claims Processing Personnel,'' held on 
September 16, 2010. I would greatly appreciate if you would provide 
answers to the enclosed follow-up hearing questions by Tuesday, 
November 9, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Cecilia Thomas by fax at (202) 226-4691. If you have any questions, 
please call (202) 225-9164.
            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________

                                                   November 5, 2010
           INSTITUTE FOR DEFENSE ANALYSES (IDA) RESPONSES TO
           QUESTIONS FROM THE COMMITTEE ON VETERANS' AFFAIRS
               DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS
                         SUBCOMMITTEE HEARING:

    ``Examining the Training Requirements of Veterans Benefits 
Administration Claims Processing Personnel'' held on September 16, 2010

    Question 1: In your testimony, you noted that there are no 
nationwide rules for training factors. Do you believe that implementing 
such nationwide regulations would enhance accuracy and timeliness of 
adjudicated claims? Please elaborate.

    Response: Our study did not address the effect of training 
protocols on accuracy or timeliness of claims adjudication. The 
training factors referred to in our report are a modeling tool used to 
estimate the relative effectiveness of employees with different levels 
of experience. We do not believe that accuracy or timeliness of claims 
adjudication would be enhanced by instituting nationwide training 
factors.
    In our study, we note that in order to accurately forecast the 
productivity of a particular staffing level, we must account for the 
experience levels of the employees. Newly hired employees are not as 
effective as fully trained employees. They spend a significant portion 
of their time in classroom and on-the-job training, and are generally 
less proficient in the performance of their tasks.
    The metric we called training factors was developed to estimate the 
relative claims processing effectiveness for different levels of 
trainees. Rating Veteran Service Representatives (RVSRs) with at least 
2 years of experience are considered in our model to be fully trained 
and fully effective and are assigned a training factor of 100 percent. 
Less experienced RVSRs are assigned a training factor less than 100 
percent. In our model, RVSRs with less than 6 months experience are 
assigned a training factor of 0 percent, those with 6-12 months 
experience are assigned a training factor of 29 percent; and those with 
1-2 years experience are assigned a training factor of 63 percent.
    These training factors represent our estimate of the relative 
claims production capabilities of each group of employees. They are 
averages derived from typical production goals used at regional offices 
for trainees. The actual production goals for individual trainees are 
at the discretion of regional office management and are largely based 
on demonstrated performance. Regulating training factors nationwide 
would not be an effective tool to improve either the accuracy or 
timeliness of adjudication claims.

    Question 2: Based on what has actually happened in terms of growth 
in the Veterans Benefits Administration's (VBA) inventory and in its 
significant increase in hiring since your 2009 study, do you have any 
new forecasts on VBA's production capacity?

    Response: The IDA Assessment of Claims Adjudication Personnel 
Requirements for the Veterans Benefits Administration was completed in 
September 2009. We have not been asked, nor have we performed any 
additional forecasts since the completion of the study.
    It is important to note that there is a lag between the time VA 
hires new raters and the time when they become fully effective. We 
found the lag to be about two years. Thus, the effect on capacity of 
raters hired in FY10 will not be fully felt until FY12.
    It also should be noted that these projections of increases in 
rating capacity are based on the assumption that the RVSRs are fully 
utilized for claims processing. This assumption, though true during the 
time of our study, may not continue to hold in the future. In 
particular, RVSRs may not be fully utilized if there are insufficient 
claims ready to rate. This could be due to a number of factors, such as 
claims awaiting doctors' exams or service records, or a deficiency in 
the number of Veteran Service Representatives (VSR) available to 
prepare claims for rating. If this becomes the case, additional RVSRs 
will not translate into increases in claims processing.
    As noted in our report, a better methodology for predicting claims 
processing personnel requirements (and the resulting production 
capacity) is to model the flow of claims through the claims 
adjudication process in a discrete event simulation model. Such a model 
would simulate each of the processing stages (triage, VSR processing, 
waiting for evidence, RVSR processing, promulgation, etc.) for 
individual claims and use statistical distributions to estimate the 
time required at each stage by claim type. To perform such an analysis, 
the data required to develop the statistical distributions would have 
to be collected over time. Such a data collection effort was not 
possible in the time frame provided for this study.
    The simulation approach would provide additional insight into the 
process that the current modeling does not allow. For example, 
bottlenecks in the claims production process could be easily 
identified, allowing Department of Veterans Affairs (VA) leadership's 
improvement efforts to be focused on the areas most likely to improve 
the system. Additionally, the effect of potential solutions could be 
tested and evaluated in the model prior to real world implementation. 
These are just a few of the advantages that simulation, with the 
appropriate input data, can offer the VBA.

    Question 3: Based on your studies, including the Institute for 
Defense Analyses study on Regional Office variances from 2007, do you 
have any recommendations that you can offer on how VA might improve the 
quality and accuracy of its production?

    Response: Specific recommendations for improving quality and 
accuracy of production were not made in any of our previous studies. We 
are currently conducting a 3-year independent assessment of the VA's 
Quality Assurance Program, in response to Section 224.c.1-2 of the 
Veterans Benefits Improvement Act of 2008 (PL 110-389). The final 
report from this study is due to Congress in October 2011.

    Question 4: In your studies, what deficiencies did you find in the 
Department of Veterans Affairs' (VA) claims processing paradigm, the 
Claims Processing Initiative (CPI) model, that would best improve 
accuracy, consistency, and help VA to get the claim right the first 
time?

    Response: IDA has not been asked to perform any studies that 
directly analyze the CPI model. Therefore, we are not in a position to 
comment on any deficiencies in the CPI model.

    Question 5: You stated that Decision Review Officers (DROs) are 
considered fully effective at the start of their terms. However, your 
2009 study projected that the efficiency of DROs are not expected to 
grow in the near future. Based upon this assessment, do you recommend 
that VBA offer DROs additional specialized training to help them become 
more efficient?

    Response: DROs are senior personnel usually hired from the pool of 
experienced RVSRs. In our study, we assumed that, unlike VSRs and 
RVSRs, DROs are not required to undergo a lengthy training process. We 
consider all DROs to be equally effective--a DRO with 1 year of DRO 
experience is considered as effective as a DRO with 15 years 
experience. For this reason, we do not consider DRO experience levels 
when projecting their claims production capacity.
    Our projection of DRO capacity showed no increases in the future 
due to our modeling assumption of no future growth in the number of 
DROs. Rather than specialized training, to increase the DRO claims 
processing capacity, we concluded that an increase in the total number 
of DROs is required.

                                 <F-dash>
                                     Committee on Veterans' Affairs
         Subcommittee on Disability Assistance and Memorial Affairs
                                                    Washington, DC.
                                                    October 6, 2010
Michael Cardarelli
Acting Deputy Under Secretary of Benefits
Veterans Benefits Administration
U.S. Department of Veterans Affairs
810 Vermont Avenue, NW
Washington, DC 20420

Dear Mr. Cardarelli:

    Thank you for testifying at the House Committee on Veterans' 
Affairs' Subcommittee on Disability Assistance and Memorial Affairs' 
oversight hearing on, ``Examining the Training Requirements of Veterans 
Benefits Administration Claims Processing Personnel,'' held on 
September 16, 2010. I would greatly appreciate if you would provide 
answers to the enclosed follow-up hearing questions by Tuesday, 
November 9, 2010.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
committee and subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your responses 
to Cecilia Thomas by fax at (202) 226-4691. If you have any questions, 
please call (202) 225-9164.
            Sincerely,

                                                       John J. Hall
                                                           Chairman

                               __________

 Questions for the Record, The Honorable John J. Hall, Subcommittee on
    Disability Assistance and Memorial Affairs, House Committee on 
                               Veterans'
 Affairs, ``Hearing on Examining the Training Requirements of Veterans
 Benefits Administration Claims Processing Personnel,'' September 16, 
                                  2010

    Question 1: I understand that the Veterans Benefit Administration 
(VBA) employs approximately 14,000 claims processors, how many claims 
processing managers and trainers are on VBA's staff?

    Response: VBA currently has 732 claims processing managers. From FY 
2008 through FY 2010, 1,642 VBA employees have attended a VBA-sponsored 
instructor course. Our goal remains to provide every field employee 
identified as a potential instructor an opportunity to receive 
instruction on design and delivery of training.

    Question 1(a): What is the manager to claims processor ratio 
nationally?

    Response: There is one claims processing manager for approximately 
every 19 claims processors.

    Question 1(b): List the descriptions of all claims processing staff 
members and the total number of employees designated in each position 
(e.g., number of VSRs, RVSRs, and Decision Review Officers (DROs)).

    Response: As of November 5, 2010, VBA had 7,748 Veterans service 
representatives (VSRs), 2,734 rating Veterans service representatives 
(RVSRs), and 536 decision review officers (DROs). VSRs develop for 
evidence and process compensation awards. RVSRs determine whether a 
claimed disability is service connected and, if so, what amount of 
compensation is appropriate based on rating schedule regulations. DROs 
review and attempt to resolve appealed decisions.

    Question 2: The Committee staff has reviewed the training 
requirements for VBA claims processors. Does VBA have similar training 
requirements for its claims processing managers and supervisors? Please 
detail the training program for VBA claims processing managers and 
supervisors.

    Response: VBA has a standardized National Training Curriculum for 
its claims processing managers and its supervisors. Additionally, we 
are currently utilizing the FY 2009 Veterans Benefits Administration 
Core Technical Training Requirements (CTTR) for VBA Managers and 
Supervisors. Regional office directors and assistant directors have an 
80-hour annual training requirement, while training managers and 
support services division chiefs have an annual requirement of 40 
hours. The division chief, assistant division chiefs, coaches and 
assistant coaches have a 16-hour annual training requirement. Stations 
are not limited to the minimum required number of hours and can always 
provide any additional training they feel is pertinent for enhanced job 
performance. For the purpose of the National Training Requirement, both 
new and experienced supervisors must select topics from the VBA 
National Training Curriculum list to complete their minimum 
requirements.

    Question 3: What is the training regimen for VBA trainers? How are 
they selected and is there a dedicated cadre of training personnel?

    Response: The training regimen for VBA trainers includes at least 
one of four VBA-funded venues for employees selected to be trainers:

        1.  Up to 180 employees annually attend VBA's one-week 
        Instructor Development Course at the Veterans Benefits Academy 
        in Baltimore, Maryland, where they learn characteristics of 
        adult learners, principles of training development, and 
        presentation skills. Each course participant presents three 
        lessons as practical application and has an opportunity to 
        receive constructive feedback from the course instructors and 
        other class participants. The feedback includes a videotape of 
        their presentations to reinforce feedback. The Instructor 
        Development Course is used to prepare employees as instructors 
        for Challenge Centralized Training, which is entry-level 
        training to teach VSRs and RVSRs the basic skills of their 
        jobs.
        2.  Up to 300 employees annually attend VBA's Basic Instructor 
        Clinics delivered at their regional offices. Basic Instructor 
        Clinics provide an eight-hour block of instruction focused on 
        creating learning objectives, techniques for interaction, and 
        training evaluation and presenting training content. Basic 
        Instructor Clinics are used to prepare employees to deliver 
        instructor-led training within the regional offices to both new 
        and experienced employees.
        3.  Up to 120 employees annually attend VBA's Training and 
        Performance Support System (TPSS) Training Coordinators Course. 
        In this ten-day course, participants learn how to guide new 
        employees in the use of VBA's TPSS using cooperative learning 
        with teams of new employees. The Training Coordinators Course 
        is used to provide each regional office with employees who are 
        familiar with the TPSS training materials, how to effectively 
        employ cooperative learning with small teams, and how to record 
        students' successful practical applications in the learning 
        management system.
        4.  In addition to the instructor courses, trainers selected to 
        deliver claims processor training to new employees as part of 
        Challenge Centralized Training also receive curriculum-specific 
        instructor standardization training so they understand how to 
        effectively use the training materials and practice cases 
        developed for centralized training.

    Regional office directors select VBA trainers and nominate them for 
courses listed above. Trainers are selected based upon expertise in 
their jobs and willingness to teach others. Employees who learn 
instructional skills through one of VBA's courses often use those 
skills to present classes to experienced personnel within the regional 
offices.
    VBA does not have a dedicated cadre of instructors for teaching 
claims processors. VBA uses employees who are engaged daily in the 
business of processing Veterans' claims and are current in practices 
and procedures. VBA uses the dedicated staff of the Compensation and 
Pension (C&P) Service to provide Challenge instructor standardization 
training, and to oversee Challenge classroom instruction. VBA also has 
a full-time staff to operate its major training facility at the 
Veterans Benefits Academy.

    Question 3(a): How many employees are VBA trainers generally 
required to train?

    Response: The number of employees that VBA trainers are generally 
required to train varies based on the method of instruction and the 
type of student population.
    Instructors of new claims processors in Challenge Centralized 
Training typically teach at a ratio of seven students to each 
instructor. Using this student-to-instructor ratio, teams of three to 
six instructors are assigned to classes of eighteen to forty students. 
With multiple instructors, students have easy access to expert 
assistance and quick review of their performance in classroom 
exercises.
    Training of new employees using TPSS is normally performed in teams 
of three students with a TPSS Training Coordinator as the instructor/
facilitator. Depending upon other job tasking and the number of new 
employees enrolled in TPSS, Training Coordinators may guide multiple 
teams simultaneously through TPSS lessons.
    Training of experienced personnel occurs in both small and large 
groups depending upon the topic, the population being trained, and the 
method of instruction selected by the regional office. Consequently, a 
single instructor may lecture 20-30 employees simultaneously or may 
instruct a group of less than ten employees when high levels of 
interactivity are necessary, such as teaching the use of computer 
applications or teaching with practical applications to reinforce 
learning.

    Question 4: Is there a quantitative/empirical relationship between 
VBA training requirements and national claims processing goals, such as 
on quality and accuracy? Please elaborate.

    Response: VBA does not have data on quantitative or empirical 
comparisons between training requirements and specific results 
pertaining to national goals for quality and accuracy. VBA considers 
various elements when determining training requirements, and quality is 
our primary objective in these decisions. Data from the previous fiscal 
year on national quality drives the topics to be considered when 
identifying training requirements. Information derived from reviewing 
quality data for regional offices and discussions with training 
managers are also taken into consideration. The primary focus is to 
ensure the correct training is being administered from both the 
national perspective as well as what is applicable for each individual 
office.
    In conjunction with reviewing quality data, compliance with 
mandated training is reviewed utilizing Learning Management System 
(LMS) Learning History reports. During the past year, evaluation tools 
were established to obtain feedback from the regional office employees. 
These evaluations are being reviewed to identify any potential training 
trends that may be hampering effective instruction and subsequent 
claims processing quality.
    VBA strives to recruit and select candidates for claims processor 
positions that meet the experience, knowledge, skill, and ability 
requirements necessary to successfully perform in these positions. VBA 
makes every effort to provide employees with the opportunity to develop 
and demonstrate their proficiency. VBA's comprehensive national 
training plan is designed to continually build upon previous knowledge 
and provide new training for legislative changes and improvements in 
our business processes. The combination of recurring training and 
technological improvements will result in a streamlined process that is 
more efficient, timely, and accurate.

    Question 4(a): What is the correlation between the VBA training 
requirements and VBA's national goals of processing claims within 125 
days with 98 percent accuracy and breaking the back of the backlog by 
2015?

    Response: Ongoing training improvements and Systematic Technical 
Accuracy Review (STAR) will help VBA reach Secretary Shinseki's goals 
of eliminating the disability claims backlog by 2015 and of processing 
disability claims so no Veteran has to wait more than 125 days for a 
quality claims decision (98 percent accuracy rate).
    VBA is taking steps to improve training for claims processing staff 
through a comprehensive national training program. This training 
program includes pre-requisite, centralized, and home-station training 
phases. The integration of a national training program has resulted in 
standardized training modules for all phases of claims processing. 
Additionally, VBA created training modules for recurring training for 
journey-level claim processors. This national training program will 
allow VBA to increase both accuracy and production as employees 
continue to increase their individual knowledge and proficiency.
    The primary mission of C&P's STAR program is to address quality 
issues. The C&P Training Staff analyzes error trends and incorporates 
them in the Core Technical Training Requirements (CTTR) mandatory 
topics for regional offices.

    Question 5: Are VBA claims processors, and their managers, 
penalized if annual training requirements are not met? How are these 
training requirements enforced? Conversely, are there any incentives 
for completion?

    Response: VBA's managers are responsible for ensuring that the 
minimum requirement of 85 hours per year is met by claims processors. 
Training requirements were recently written into VSR Performance Plans, 
and VBA plans to incorporate training requirements into other claims-
processor performance plans.
    VBA has improved its training oversight methods to increase 
accountability. Managers at all levels are held accountable for their 
subordinates' training requirements. If employees do not meet the 
requirement of 85 hours per year, it is reflected in both the managers' 
and employees' performance evaluations. In 2008, VBA created the 
position of Training Manager for each regional office. The Training 
Manager uses LMS to track training and ensure each regional office is 
compliant with requirements. Training Managers work with regional 
office management to supervise the completion of training. While there 
are currently no national incentives in place to motivate employees to 
complete training requirements, completion of the mandatory training is 
required for each claims processor. Failure to complete required 
training is reflected in both the manager's and the employee's year-end 
performance.
    For employees who seek to increase their knowledge and develop 
additional non-technical skills, courses are now available through the 
VA's new ``ADVANCE'' program. This program supports the development of 
employees in areas such as critical thinking, effective team 
operations, written communications, and change management.

    Question 6: Many of the hearing witnesses testified about premature 
decision-making, particularly the under-evaluation of mental conditions 
and inferred conditions, contributing to VBA's high claims processing 
error rate. They also discussed VA's failure to identify error trends 
by aggregating and analyzing data collected from Systematic Technical 
Accuracy Review (STAR) and Inter-Rater Reliability Reviews. The VA 
Office of Inspector General (OIG) has indicated similar findings in its 
Regional Office Reports. As such, what steps is VBA taking to address 
these critiques by identifying major error patterns and generating 
interactive trainings to end these error patterns?

    Response: VBA identifies major error patterns through a rigorous 
quality assurance program managed by the C&P STAR staff in 
collaboration with the C&P Training Staff. Analysis of STAR error 
trends led to the inclusion of mandatory training topics in the CTTR 
for the regional offices for FY 2011. The C&P Service Training Staff 
uses the results from these types of studies and a monthly analysis of 
error patterns identified by national accuracy reviews to generate 
interactive training lessons for claims processors.
    For example, in October 2009, a new training lesson was created on 
the topic of establishing service connection for Posttraumatic Stress 
Disorder and Other Mental Disorders. Additionally, a new training 
lesson on Inferred Issues was posted to the C&P Service Training 
intranet site in December 2009. These courses are mandatory lessons 
that must be completed as part of the CTTR hours for RVSRs.

    Question 7: Several hearing witnesses have testified about how the 
VBA's over-emphasis on production deadlines, manifested in work-credit 
performance requirements, often hinders claims processors from 
completing training requirements and ultimately leads to avoidable 
claims processing errors. How does VA plan to address this concern?

    Response: Employee training is a top priority for VBA. Each year, 
VBA sets a requirement for training hours to be completed with relevant 
training materials specific to that employee's job. Regional office 
directors are held accountable if their employees do not reach the 
annual content and hour requirements. Failure to complete required 
training is reflected in year-end performance appraisals for both the 
regional office management staff and the employees.

    Question 7(a): Is the VBA exploring additional mechanisms for 
incentivizing prompt yet quality performance by VBA claims processors?

    Response: VBA is constantly striving to improve our quality and 
timeliness to better serve our Veterans. In addition to work standards 
that mandate an employee to perform at set levels of both quality and 
production, VBA has several award programs at a National level to 
recognize employees providing outstanding service within their regional 
offices. Some of the awards VBA currently provides are: Special 
Contribution Awards, On-the-Spot Awards, and Quality Step Increases 
(QSI). Regional offices currently provide Special Contribution Awards 
to employees who have contributed to the goals and mission of the 
regional office above the standard level required by their position. 
On-the-Spot awards are given to recognize exceptional courtesy and 
responsiveness that results in high quality service to Veterans. A QSI 
is an increase in an employee's basic rate of pay, which can be 
provided to an employee in recognition of excellence in performance 
during the last appraisal year.
    A recent example of a new mechanism created to inspire prompt and 
quality work is the ``Who's Who'' list, which recognizes VSRs and RVSRs 
that obtain an outstanding level of both quality and production. This 
incentive program will both motivate employees that are not meeting 
their current goals as well as reward employees that are providing 
outstanding service to Veterans.

    Question 8: VA currently has over 30 claims processing related 
pilots underway. Is VBA seeking to harness best practices from these 
pilots by offering its claims processing staff training based upon the 
lessons learned from these studies?

    Response: VBA is capturing the best practices gleaned from our 
claims processing initiatives. Many of VBA's claims processing 
initiatives are still in the pilot phase; however, based on their 
initial success, VBA nationally implemented five of these initiatives. 
For nationally implemented initiatives, we provided comprehensive 
training to our claims processing staff based on the lessons learned 
during each initiative's pilot phase. We conducted the training using a 
variety of methods, including live meetings, teleconferences, and 
written instruction.
    As we continue with our pilots, we recognize the importance of 
capturing critical techniques and processes for inclusion in our 
training program. VBA leadership and regional office management 
continue to ensure all personnel have sufficient knowledge of 
performance expectations stemming from each initiative; associated 
training, tools, and resources; and proper oversight to ensure 
successful transformation. VBA's training curriculum is continuously 
updated to incorporate legislative and regulatory changes as well as 
new initiatives and technological advances. We currently require at 
least 85 hours of refresher training annually for experienced 
employees. Ongoing training is essential to maintain a high performing 
workforce.

    Question 8(a): While I am excited by the innovative thinking, I am 
concerned about whether these pilots are leading to improvements in 
quality and consistency of the claims process. What is VA's strategic 
plan for utilizing the lessons from these studies to improve training, 
if any?

    Response: VBA's Strategic Plan for FY 2010-2014 states that, ``VA 
will recruit, hire, train, develop, and retain a diverse VA workforce 
to meet current and future needs and challenges.'' VBA invests a 
tremendous amount of resources to ensure its employees are well trained 
and able to provide the best service possible to Veterans. Part of our 
strategic planning for the initiatives is the requirement to capture 
the critical lessons learned during the pilot phase to help improve 
VBA's training programs. It is especially critical to capture the 
lessons learned for pilots identified for national implementation; VBA 
ensures the initial lessons are captured in subsequent training for the 
field.
    Prior to the national deployment of these pilots, we completed a 
comprehensive training program to ensure our claims processing staff 
fully understood the new process or capability being fielded and the 
value it added to their work. This training incorporated the lessons 
learned from the pilot phase. For example, in coordination with VHA, we 
recently fielded three Disability Benefits Questionnaires. Working 
collaboratively with the Veterans Health Administration (VHA), we 
developed a comprehensive training plan, to include a short video, and 
over a period of several weeks, presented the training to both VHA and 
VBA staff. This is just one example of the importance we place on 
training our staff to ensure we meet the Secretary's quality goal for 
2015.

    Question 9: What efforts are being undertaken by VBA to determine 
the types of activities all regional offices should and should not 
count toward completion of annual training requirements?

    Response: A Fast Letter addressing training requirements for FY 
2011 is expected to be released to the field by December 1, 2010. VBA 
has mandated that 85 hours will be dedicated to training each VSR/RVSR. 
Forty of these hours have topics and specific training material 
identified which will address new guidance to the field and national 
quality issues. This block of training is referred to as mandated 
training. The remaining 45 hours are split, with 20 hours of electives 
from a national technical curriculum of additional topics addressing 
the station's quality and 25 hours of station-determined topics that 
included courses required of all VA employees. For technical training 
to count toward the employee's annual requirements, the training must 
have utilized lesson material available on the C&P training Web site 
and must be documented in LMS.

    Question 10: When will the VBA's Veterans Benefits Management 
System (VBMS) be fully and formally launched?

    Question 10(a): Upon its launch, will VBMS be capable of 
identifying error trends and providing timely notice to managers of 
need for corrective training correction, and if so, how? Is the 
development of VBMS on track?

    Response: The development of VBMS is on track, and we will have a 
monitoring process in place to be able to identify trends and provide 
feedback to managers.
    In FY 2010, the VBMS initiative began with development of the 
Virtual Regional Office (VRO). The VRO concept involved subject matter 
experts (SMEs) working with a vendor to develop business requirements 
and detailed specifications. The vendor used the input from SMEs to 
create a graphical user interface, which became a means of validating 
the requirements as well as building the front-end interface for the 
business user.
    VA will deploy the first iteration of VBMS software for testing at 
a site, the Providence Regional Office, in November 2010. Claims 
processors at the Pilot I site will use the new software to validate 
and harden the business requirements, as well as to generate new 
business requirements for future software releases. Pilot 1 will 
utilize a new electronic claims repository and scanning solution, as 
well as new claims processing software, which will integrate with 
existing core business applications (VETSNET) that support claims 
processing.
    VBMS will be released incrementally through three pilots prior to 
nationwide deployment of full system capabilities. This iterative 
approach will allow claims processors to provide real-time input into 
the development of the application, as well as improved business 
processes. The use of Agile development will enable VBA to respond 
rapidly to new requirements, such as those captured from nationwide 
initiatives. VBMS will help VA eliminate many errors caused today as a 
result of the dependence on paper moving through the claims process. 
Additionally, VBMS, once fully developed, will provide managers the 
information needed to identify trends and areas where additional focus, 
business process improvement, and training may be needed to improve 
service delivery to Veterans.

    Question 11: What training is provided to the VBA's fiduciary 
division personnel? Is it structured like the VBA's Training and 
Performance Support System (TPSS), how is it different, how is it the 
same? What is being done to integrate this business function in VBA 
performance and accountability metrics?

    Response: National training for the fiduciary program was developed 
and implemented beginning in March 2010. This training is comprehensive 
and provides 36 hours of on-site instruction to all positions within 
the fiduciary activity staff. Thus far, on-site training by 
Headquarters' staff has been conducted at 13 regional offices and the 
fiduciary hub. A TPSS module currently exists for the position of field 
examiner, and a TPSS module is being developed for the legal instrument 
examiner position, with implementation anticipated in FY 2011.
    VBA's fiduciary program has also enhanced its internal Web site to 
include training materials. National teleconferences are held monthly 
to provide training and disseminate information on areas requiring 
attention as identified by program staff.
    The C&P Fiduciary Staff conducted a Fiduciary Manager's Training 
Conference in June 2010 to provide in-depth training on workload 
management, misuse of funds, accounting follow-up, field examinations, 
surety bonds, and other fiduciary topics. A similar conference is 
scheduled for April 2011 to address these and other topics with the 
field examiners.

    Question 12: The Committee understands that VBA was slated to end 
its contract with Human Resources Research Organization (HumRRO) on 
September 22, 2010. Did this contract end, and if so, what has been the 
impact of this change? What services did HumRRO offer?

    Response: The contract with HumRRO ended, and a new contract 
commenced with Camber Corporation on September 27, 2010. An initial 
meeting was held on October 6, 2010 with VBA management, VBA 
contracting staff, and Camber's team assigned to work on this contract.
    The only significant impact from changing contractors is the time 
limit in administering the first Skills Certification Test. The 
contractor is allowed 180 days to deliver the first task, 
administration of the RVSR Skills Certification Test. C&P has stressed 
to Camber that the RVSR Skills Certification Test is a priority due to 
the requirements of administering the four Skills Certification Tests 
by the end of FY 2011.

    Question 12(a): Has VA fully undertaken the certification 
requirements as outlined in P.L. 110-389? Please elaborate.

    Response: VA continues to follow the requirements outlined in PL 
110-389, by administering tests for each position handling a Veteran's 
claim. Currently, we have skills certifications for VSRs, Pension 
Management Center VSRs, basic RVSRs, journey RVSRs, DROs and coaches. 
We have also informed Camber of the possibilities for additional skills 
certification tests for other positions, which may come about during 
the contract period, September 27, 2010 through September 26, 2015.

    Question 13: How do the VBA training requirements affect the 
certification testing outcomes for VSRs and RVSRs? Do they help with 
success/failure rates? Are there any correlations? When will VA 
implement testing of DROs and claims processing supervisory staff?

    Response: VBA training increases success rates on skills 
certification tests because it provides the required skills, knowledge, 
and abilities for each participant to successfully pass his or her 
certification test. A Skills Certification Readiness Guide is available 
on the training Web site, which references such as regulations, 
directives, and job aids to review in preparation. Under the newly 
awarded contract, Camber will prepare an on-line preparatory tool, 
which will provide access to information about certification testing 
and an application that facilitates preparation by permitting practice 
with items similar to those on the test. This Web site will be 
accessible within VBA.
    The Skills Certification Operational Test for supervisory VSRs 
(coach level) and DROs has been completed. Testing was held on January 
13, 2010 for coaches and June 16, 2010 for DROs. Both tests are 
considered fully implemented, and VBA plans to offer each test twice a 
year.

    Question 14: The VA OIG has noted in many of its Regional Office 
(RO) Inspection Reports, most recently in the Nashville Inspection 
Report, that VA should have a more objective, systematic, and 
disciplined approach to rotating personnel under the CPI model. The 
VBA's current CPI implementation plan indicates that VBA personnel 
should be rotated to handle peak workloads (i.e., where experienced 
VSRs will rotate from specialized teams to another) at least once every 
2 years. As such, what is VBA doing to ensure that this rotation occurs 
in all ROs so that VBA personnel can maintain and improve their skills 
for optimal claims processing competency?

    Response: The Claims Processing Initiative (CPI) model is directed 
by VBA manual M21-1MR, Part III, subpart i chapter 1. All regional 
offices follow this model unless a deviation is approved as outlined in 
VBA Letter 20-04-29. Overall, control and timely claims processing are 
considered first before rotation of VSRs. Local management has 
discretion on actual rotational schedules. The procedures governing the 
VSR Certification Test encourages rotation and cross training of 
employees. Regional offices also incorporate local special missions and 
emerging national concerns when determining employee rotations. VBA is 
continually reviewing workload-management processes to identify best 
practices and determine if adjustments to the CPI model will result in 
increased quality and productivity.

    Question 15: The Institute for Defense Analyses (IDA) notes in its 
2009 Report (P-4471) that VBA developed a Capacity Model in 1998-1999 
to determine the VBA's claims production capacity. Would you elaborate 
on the inputs in this model and how it determines employee 
effectiveness? Has it changed or been updated since 1998/99 (e.g., 
experience vs. equivalent effectiveness)?

    Response: The Capacity Model was developed in 1998 and 1999. The 
model compared expected man-hours with estimated available man-hours, 
and if the latter exceeded the former, there was enough capacity to 
cover the work. It assumed all fully trained employees were available 
to work 1,502 hours per fiscal year and incorporated time for standard 
leave, administrative absences, training, and development. RVSRs and 
VSRs were considered fully trained after two years and one year of 
employment, respectively.
    Since the initial tasking in September 1998, the model has changed. 
It initially forecasted the number of Veterans submitting and 
resubmitting disability compensation claims over six future fiscal 
years. The updates to the model forecasted claims received, completed, 
and pending over a seven-year time period. With a July 2005 update, the 
name of the model changed to Workload Forecasting Model and added the 
capability to display yearly forecasts as well as monthly levels. The 
last follow-on task to the VBA Workload Forecasting Model by IDA was 
delivered in June 2007. It added features to print from the 
application, calculate full-time FTE needed to complete a user-
specified number of claims, forecast for average days pending and 
average days to complete, determine employee effectiveness, and explore 
new performance metrics for VBA.

    Question 16: What guidance does VBA offer its claims processing 
supervisors to ensure that ROs record training activities consistently 
in the VA Learning Management System (LMS) so that LMS-collected data 
is reliable?

    Response: To ensure that regional offices record training 
activities consistently in the LMS, VBA guidance to supervisors in FY 
2011 specifies hourly training requirements for claims processors and 
lists of topics to be trained within the hourly training requirements. 
The guidance includes the LMS item numbers for recording training 
completions and directs the use of standardized training materials 
published by C&P Service.

    Question 17: The Government Accountability Office (GAO) indicated 
in its testimony that VBA claims processing training quality has 
declined over the past 2 years. How did VBA determine the number of 
hours required for its claims processing personnel? Has VBA assessed 
the adequacy, appropriateness, and efficiency of this requirement? If 
so, what where the results?

    Response: VBA has established total training hour requirements 
based on historical experience. Training needs are reviewed 
periodically and revised as necessary. While VBA has not specifically 
assessed whether 85 hours (the actual requirement) is the optimum 
amount of training time, recent evaluations by field office personnel 
indicate the training that claims processors are now receiving is 
useful, relevant, and worthwhile.
    GAO recommended VBA implement an evaluation process to gather 
feedback from experienced claims processors regarding the usefulness, 
relevance, and quality of training they receive. VBA fielded an on-line 
evaluation tool in February 2010 to collect evaluations submitted by 
C&P claims processors on the usefulness, relevance, and quality of 
national training received in field offices.
    With 25,614 anonymous responses since March 2010:

        <bullet>  91 percent of respondents considered training at 
        least moderately useful
        <bullet>  91 percent of respondents considered training 
        relevant to their jobs
        <bullet>  88 percent of respondents are confident they can 
        apply the training to their jobs
        <bullet>  91 percent of respondents considered worthwhile the 
        requirement that they complete the training

    Beginning in FY 2011, regional offices must dedicate a minimum of 
60 hours of the required annual training hours to addressing national 
quality error trends. Forty hours of this training are identified by 
specific required topics and assigned training curriculum based on 
national quality trends and emerging issues. Each regional office 
selects an additional 20 hours of training based on local quality 
trends from curriculum available on the C&P training Web site.
    In FY 2010, C&P Service addressed this issue by determining that at 
a minimum, half of the required annual training hours would be 
dedicated to addressing national quality trends. Upon review of local 
quality data and discussions with regional office personnel, VBA 
increased the hours dedicated to training on quality issues to a 
minimum of 60 hours for FY 2011. Forty hours of this training are 
identified by specific required topics and assigned training curriculum 
based on national quality trends and emerging issues. Each regional 
office selects an additional 20 hours of training based on local 
quality trends from curriculum available on the C&P training Web site.

    Question 18: GAO surveys indicated a real need amongst staff for 
more effective training on appeals and remands. What is the VBA doing 
to meet this need?

    Response: C&P Service's Training Staff is implementing a new 
curriculum for appeals and remands. This curriculum is being developed 
in collaboration with members of the Board of Veterans' Appeals and 
will provide a range of technical lessons that can be utilized by any 
member of the appeals team. A sample of regional offices was contacted 
to accomplish a needs assessment, and the C&P Training Staff is 
creating an appeals curriculum based on their feedback. As lesson 
material is completed, it will be accessible for all regional offices 
on the C&P Training Web site.
    The C&P Training Staff also formed a subcommittee to provide 
recommendations on courses to be reformatted in our Training and 
Performance Support System and Electronic Performance Support System 
learning tools. The staff decided that certain lessons may need to be 
offered in more that one format, such as self-instructed and in person. 
A standard evaluation form is being developed, and C&P Staff will 
consolidate the responses and communicate the results to the regional 
offices. These results, in conjunction with national quality errors, 
will have an impact on our selection of the appeals topics as well as 
any needed technical updates to the material.

    Question 19: Do Fast Letters count as training in all 57 ROs? How 
does VA get the latest information to all of its VBA field offices?

    Response: During FY 2010, training on fast letters counted if the 
training was recorded with sign-in sheets. During FY 2011, fast letters 
that have associated facilitated training sessions will be released 
with an assigned LMS number. These fast letters are reflected as 
acceptable training on the C&P Training Web site under the mandatory 
training curriculum. Determination of which fast letters count towards 
training will be based on meeting the requirements defined by the soon-
to-be-released Standard Operating Procedure for VBA National C&P 
Curriculum.
    In addition to fast letters, VBA shares information with regional 
offices through other venues such as weekly conference calls with 
Regional Office Directors and management staff, monthly Training 
Manager and Training Coordinator calls, and Veteran Service Center 
Manager calls.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
